<html>
<title> - NOMINATIONS TO THE FEDERAL COMMUNICATIONS COMMISSION, CORPORATION FOR PUBLIC BROADCASTING, FEDERAL MARITIME COMMISSION, AND SAINT LAWRENCE SEAWAY DEVELOPMENT CORPORATION</title>
<body><pre>[Senate Hearing 108-906]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-906
 
                       NOMINATIONS TO THE FEDERAL
                 COMMUNICATIONS COMMISSION, CORPORATION
    FOR PUBLIC BROADCASTING, FEDERAL MARITIME COMMISSION, AND SAINT 
                                LAWRENCE
                     SEAWAY DEVELOPMENT CORPORATION

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                           NOVEMBER 18, 2004

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation




                    U.S. GOVERNMENT PRINTING OFFICE
27-561                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                     JOHN McCAIN, Arizona, Chairman
TED STEVENS, Alaska                  ERNEST F. HOLLINGS, South Carolina
CONRAD BURNS, Montana                DANIEL K. INOUYE, Hawaii
TRENT LOTT, Mississippi              JOHN D. ROCKEFELLER IV, West 
KAY BAILEY HUTCHISON, Texas              Virginia
OLYMPIA J. SNOWE, Maine              JOHN F. KERRY, Massachusetts
SAM BROWNBACK, Kansas                JOHN B. BREAUX, Louisiana
GORDON SMITH, Oregon                 BYRON L. DORGAN, North Dakota
PETER G. FITZGERALD, Illinois        RON WYDEN, Oregon
JOHN ENSIGN, Nevada                  BARBARA BOXER, California
GEORGE ALLEN, Virginia               BILL NELSON, Florida
JOHN E. SUNUNU, New Hampshire        MARIA CANTWELL, Washington
                                     FRANK LAUTENBERG, New Jersey
      Jeanne Bumpus, Republican Staff Director and General Counsel
             Robert W. Chamberlin, Republican Chief Counsel
      Kevin D. Kayes, Democratic Staff Director and Chief Counsel
                Gregg Elias, Democratic General Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on November 18, 2004................................     1
Statement of Senator Burns.......................................     3
Statement of Senator Cantwell....................................    66
Statement of Senator Dorgan......................................     2
Statement of Senator Lott........................................     4
Statement of Senator McCain......................................     1
Statement of Senator Bill Nelson.................................    64

                               Witnesses

Adelstein, Jonathan S., Renominated to be Commissioner, Federal 
  Communications Commission......................................     7
    Prepared statement...........................................     9
    Biographical information.....................................    10
Creel, Jr., Harold J., Renominated to be Commissioner, Federal 
  Maritime Commission............................................    45
    Biographical information.....................................    46
Gaines, Gay Hart, Nominee to be a Member, Board of Directors, 
  Corporation for Public Broadcasting............................    36
    Prepared statement...........................................    37
    Biographical information.....................................    38
Johnson, Hon. Tim, U.S. Senator from South Dakota................     6
Puig, Claudia, Renominated to be a Member, Board of Directors, 
  Corporation for Public Broadcasting............................    28
    Prepared statement...........................................    30
    Biographical information.....................................    31
Simpson, James S., Nominee to be a Member, Advisory Board, Saint 
  Lawrence Seaway Development Corporation........................    52
    Biographical information.....................................    53
Wilson III, Dr. Ernest J., Renominated to be a Member, Board of 
  Directors, Corporation for Public Broadcasting.................     9
    Prepared statement...........................................    21
    Biographical information.....................................    22


                       NOMINATIONS TO THE FEDERAL
                       COMMUNICATIONS COMMISSION,
                  CORPORATION FOR PUBLIC BROADCASTING,
                    FEDERAL MARITIME COMMISSION, AND
             SAINT LAWRENCE SEAWAY DEVELOPMENT CORPORATION

                              ----------                              


                      THURSDAY, NOVEMBER 18, 2004

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:30 a.m. in room 
SR-253, Russell Senate Office Building, Hon. John McCain, 
Chairman of the Committee, presiding.

            OPENING STATEMENT OF HON. JOHN McCAIN, 
                   U.S. SENATOR FROM ARIZONA

    The Chairman. Good morning. Our Committee meets today to 
consider the nominations of six individuals who have been 
nominated by the President to serve our country in very 
important posts. The Committee takes its advice-and-consent 
role very seriously, and I will note that each of the nominees 
has responded in detail to the Committee's request for 
biographical and financial data. I've had the opportunity to 
review your responses to the Committee questionnaire, and I 
look forward to moving these nominations quickly.
    We have appearing before the Committee today John 
Adelstein, to be Commissioner on the Federal Communications 
Commission; Ernest Wilson, Claudia Puig, and Gay Gaines, to be 
members of the Board of Directors of the Corporation for Public 
Broadcasting; Harold Creel, to be a Commissioner of the Federal 
Maritime Commission; and James Simpson, to be a member of the 
Advisory Board of the Saint Lawrence Seaway Development 
Corporation.
    I thank the nominees for being here. I know your 
nominations are a great honor, and I appreciate your 
willingness to serve.
    And before we continue, I would like to do the most 
important part of the hearing, and that is to have the nominees 
announce and introduce their family members who are with them 
today so they can share in this moment.
    And we'll begin with you, Dr. Wilson.
    Dr. Wilson. Yes, thank you for the offer, Senator, but my 
wife is stuck in the taxi strike----
    [Laughter.]
    Dr. Wilson.--on the way down. So when--I hope, when she 
comes, we might be able to introduce her. Thank you, sir.
    The Chairman. All right, sir. Maybe when she comes in, or 
we'll ask for you to be on the National Transportation Safety 
Board.
    [Laughter.]
    Dr. Wilson. Appreciate it.
    The Chairman. Ms. Puig?
    Ms. Puig. Well, I'm very pleased today to have my husband, 
Richard Admonson with me.
    The Chairman. Richard is----
    Ms. Puig. Richard, please stand up?
    The Chairman. Welcome, Richard.
    Ms. Puig. And I also have Bob Cahill and Vicky Icemond, 
that are friends visiting.
    The Chairman. Good. Please stand. Thank you.
    Ms. Gaines?
    Ms. Gaines. Senator, thank you for letting me introduce 
Stanley Gaines, my husband of 45 years, and my son, Ralph 
Gaines.
    The Chairman. Welcome. Thank you.
    Mr. Adelstein. Mr. Chairman, let me introduce my wife, 
Karen Adelstein, who's put up with a lot as the wife of an FCC 
Commissioner----
    [Laughter.]
    The Chairman.--and our newest daughter, Lexi, and Adam, 
little Adam.
    The Chairman. Where is he? Adam? We understand very well 
attention spans, so if you have--cannot stay for the entire 
hearing, we certainly understand. Thank you. Congratulations.
    Mr. Creel?
    Mr. Creel. Senator, I have my friend, Tim Stites, from the 
great state of Virginia, here with me.
    The Chairman. Tim, where are you? Welcome.
    And Mr. Simpson?
    Mr. Simpson. Good morning, sir.
    The Chairman. Good morning. Do you have anyone?
    Mr. Simpson. Not here today, sir.
    The Chairman. All right.
    Thank you. Again, I would like to welcome all the family 
members and friends here of the nominees. This is a wonderful 
time for them, and probably the brightest moment.
    [Laughter.]
    The Chairman. But, seriously, we are grateful that these 
nominees are willing to serve our country in very important 
positions of responsibility.
    And, finally, before I turn to my colleagues, our intention 
is to try to get, off the floor, a quorum so that we can 
approve these nominations sometime before we have to leave. And 
we'll do our best to do that.
    Senator Dorgan?

              STATEMENT OF HON. BYRON L. DORGAN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    Senator Dorgan. Mr. Chairman, thank you very much. Those 
are unaccustomed sounds, but welcome sounds.
    [Laughter.]
    Senator Dorgan. First of all, thank you for holding this 
hearing. And it's my fond hope that we will be able to move 
these nominations. And I hope we can find time off the floor to 
proceed, and I hope that we can move them through the entire 
Senate.
    It's my intention to support all of the nominees. I've 
looked at their backgrounds, and some of them are now serving 
in these capacities. I think all of them bring a great deal to 
commend them for public service, and I am proud to support 
them.
    I do want to make one point, however. Mr. Chairman, you've 
heard me make this point before. In at least one of the 
circumstances today, a Democratic seat on the Federal 
Communications Commission, which is to be filled by a 
recommendation of the Minority Leader, was offered to the White 
House, now nearly 2 years ago. It was a year ago last February. 
And that was not sent down to the Congress, deliberately so, 
showing, in my judgment, an arrogance and a partisanship that 
is very unusual. And seldom is that sort of behavior so 
apparent and so appalling. I don't think that serves this 
institution well. I don't think it serves the White House well. 
And my profound hope is that, with respect to nominees that are 
both Republican-designated seats and Democratic-designated 
seats in these key agencies, that we'll be able to work 
together in the future and not have this sort of nonsense 
happen.
    This was pure partisanship. It went on for nearly 2 years. 
And while I am pleased that we are finally going to see 
progress on it today, I must make the comment that those who 
engineered this at the White House, in my judgment, did no real 
service to public service as a result of their behavior.
    Mr. Chairman, again, thank you for allowing us to proceed 
today. I know this is, in no small measure, due to your energy 
and your perseverance, as well, and I appreciate that.
    The Chairman. Thank you very much.
    Senator Burns?

                STATEMENT OF HON. CONRAD BURNS, 
                   U.S. SENATOR FROM MONTANA

    Senator Burns. I have nothing to say, other than to say 
thank you for stepping forward. The folks who are going on the 
CPB, we'll be watching you and what you're doing over there in 
public broadcasting.
    And Mr. Adelstein, of course--very supportive of his 
nomination and his confirmation back to the FCC. He's been a 
tremendous help to all of us who have been tackling the rural 
issues in communications and universal service and those kind 
of issues, and we appreciate your support and working with us. 
We've still got some challenges ahead with universal service, 
and, of course, the e-rates, and the rural areas still are--and 
the buildout of broadband is still of concern to most of us.
    But I thank you all, and you have my support.
    The Chairman. Senator Lott?

                 STATEMENT OF HON. TRENT LOTT, 
                 U.S. SENATOR FROM MISSISSIPPI

    Senator Lott. Thank you, Mr. Chairman, for having this 
hearing, even at, hopefully, the last two or 3 days of this 
session. I'm glad we're going to get these nominees considered, 
hopefully passed.
    I want to say to Mr. Adelstein, in particular, I appreciate 
the fact that your papers have been processed and that you're 
here this morning. I have participated, over the years, in a 
little harassment of this gentleman, but my doubts have been 
absolved. He's done a good job at the FCC. And I've regretted 
that he had to be treated the way he has been in the process of 
being renominated. I think he's thoughtful and a good member, 
and I think he deserves to be reconfirmed, and I'll be 
supportive of that in every way I can be, as I have been in the 
past, and I think you know that.
    To the Corporation for Public Broadcasting nominees, 
congratulations and good luck. You're gonna need it.
    [Laughter.]
    Senator Lott. I have worked assiduously with people in 
public broadcasting in my state and with the CPB, because I 
believe that there were real problems that could be addressed 
internally by having good men and women on the Board and trying 
to carefully and slowly and thoughtfully and appropriately 
change the mindset, the bias, the negativity, the overall 
attitude of, you know, the entities you're responsible for.
    I think we've failed at NPR. I'm getting real tired of 
having people crawl on my case everywhere I go about the 
continued attitude and arrogance and bias of NPR. Now, I'm 
going to have to go to another meeting, but I'd like to just 
lay the question out. What are you going to do about making the 
programming more balanced? I've got people really harassing----
    The Chairman. Is that fair and balanced?
    Senator Lott. Fair and balanced, I didn't use that.
    [Laughter.]
    Senator Lott. I don't propose to make it FOX.
    [Laughter.]
    Senator Lott. But, I mean, the tears and the crying and the 
weeping and gnashing of teeth the day after the election just 
almost made me gag.
    [Laughter.]
    Senator Lott. And so--you know, but the Public 
Telecommunications Act of 1992, under Section 19, says that 
there must be strict adherence to objectivity and balance in 
all programs, or a series of programs, of a controversial 
nature. It ain't been done. And I hope that you will, you know, 
work on that. And I'd like for you, in your testimony or in 
response, tell us what you're going to do. Because I've been 
supportive, but it's getting harder and harder to do so.
    I think we've got good nominees, and I believe that you 
will work on this. I'm not saying take one particular point of 
view, or the other, but there are still huge problems out in 
the real world. Thank goodness, in my state, when the 
programming's bad, they don't run it.
    So, at any rate, thank you, Mr. Chairman. I'm glad to have 
lobbed that into the mix.
    [Laughter.]
    Senator Lott. I'm studying at the feet of John McCain----
    [Laughter.]
    Senator Lott.--learning how to rattle cages.
    [Laughter.]
    Senator Lott. I'm prepared to take action to back that up. 
Thank you, Senator McCain. And, Mr. Chairman----
    The Chairman. Thank you.
    Senator Lott.--you've done a great job as our leader on 
this Committee.
    The Chairman. Thank you, sir.
    I'd like to mention, I did meet with the CPB nominees prior 
to the hearing, and I warned them that perhaps they might be 
addressing some issues of some controversy concerning both CPB 
and NPR, and I--look, I think those are legitimate questions. I 
think that when the taxpayers' dollars are involved, clearly we 
have an additional obligation than we do to any network or 
independent radio or television station, and I--so I think your 
points are well made.
    Senator Dorgan. Mr. Chairman, what----
    The Chairman. Senator Dorgan?
    Senator Dorgan. It wasn't clear to me whether Senator Lott 
was alleging that it was too conservative or too liberal.
    [Laughter.]
    Senator Lott. It makes no difference. Either, or both. This 
is paid for by taxpayers' dollars. Let's shoot it down the 
middle as much as we can. I don't want 'em to be a--you know, a 
Republican entity, or a Democrat.
    The Chairman. But if you had a choice?
    [Laughter.]
    Senator Lott. A little tilt one way or the other would, I'm 
sure, occur.
    The Chairman. Thank you.
    Senator Burns. I'd just warn you, you may be moving into a 
hard-hat area.
    [Laughter.]
    Senator Burns. You may have to consider that. I like--Ms. 
Gaines, I--I'll tell you what, I sell an auction every year out 
of Mt. Vernon. I think--you know, the----
    Ms. Gaines. Absolutely.
    Senator Burns.--Historical Society.
    Ms. Gaines. Yes, sir.
    Senator Burns. There's a lot of money out there.
    Ms. Gaines. I'll come next time.
    Senator Burns. And--but I always am--on how come they got 
all excited about what's in our history books. I guess the guy 
out there that runs the Historical Society picked up his 
history book from a seventh-grade student, thumbing through it, 
they had a full page on Marilyn Monroe, but a quarter page on 
George Washington.
    Ms. Gaines. That's right.
    Senator Burns. He felt like nobody--but she's had a lot to 
do with that out there--Ms. Gaines, has--and----
    Ms. Gaines. Well, I will have a lot to do with it.
    Senator Burns. Yes.
    Ms. Gaines. I will.
    Senator Burns. So keep it--that ain't fair and balanced. 
And I ain't got nothing against Marilyn Monroe----
    [Laughter.]
    Ms. Gaines. I didn't write that history book, Senator.
    Senator Burns.--but I don't think she's in the same league 
as George Washington, either. So----
    Thank you.
    The Chairman. We are pleased to have with us this morning 
Senator Tim Johnson, who would like to make some remarks about 
the nominee. And, also, I know that Senator Allen was here 
earlier, and he wanted to, of course, welcome our nominees, as 
well.
    Senator Johnson?

                STATEMENT OF HON. TIM JOHNSON, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    Senator Johnson. Thank you, Mr. Chairman, for calling this 
important hearing to consider nominations, including the 
renomination of Jonathan Adelstein to continue to serve as a 
member of the Federal Communications Commission.
    Mr. Chairman, I'm pleased to be here this morning to 
introduce a fellow South Dakotan who has been selected by 
Senator Daschle and nominated by President Bush to continue his 
service as an FCC Commissioner.
    Like Commissioner Adelstein's original nomination to the 
FCC, this renomination is long overdue. But many of my 
colleagues on this Committee already know that, as at least 17 
Members of this Committee have written to the President in 
support of Commissioner Adelstein's renomination. The 
bipartisan support he received from this Committee is testament 
to Commissioner Adelstein's hard work and dedication at the FCC 
over the past 2 years. I'm thankful for the support so many of 
you have shown, and I want to work with you to secure 
confirmation of Commission Adelstein's nomination before the 
108th Congress adjourns.
    Commissioner Adelstein has been diligent in his work at the 
FCC, and he has added vitally important firsthand knowledge of 
the telecommunications needs of rural America to the 
Commission's deliberations. I'm confident Commissioner 
Adelstein will continue to be a strong voice for rural America 
and will work with the other commissioners to determine 
telecommunications policy in a way that encourages 
telecommunications advances in rural areas of our country.
    Jonathan is a native of Rapid City, South Dakota, graduated 
from high school at Phillips Academy in Andover. He went on to 
earn both undergraduate and graduate degrees from Stanford. 
Jonathan completed his education at the Kennedy School of 
Government at Harvard University.
    Jonathan's expertise, determination, and understanding of 
the issues has served him well over the last 2 years at the 
FCC, and all of those who work with Jonathan praise his 
pragmatism and ability to maintain an open mind, as well as his 
ability to work in a bipartisan manner.
    I personally bear witness to his dedication and 
dependability. And Jonathan is joined today by his wife, Karen, 
his two children, Adam and Lexi.
    And, again, Mr. Chairman, thank you for holding this 
hearing. I look forward to working with you and my colleagues 
to quickly confirm this highly qualified nominee.
    Thank you.
    The Chairman. Thank you very much.
    Mr. Adelstein?

     STATEMENT OF JONATHAN S. ADELSTEIN, RENOMINATED TO BE 
             COMMISSIONER, FEDERAL COMMUNICATIONS 
                           COMMISSION

    Mr. Adelstein. Well, thank you, Mr. Chairman. And thank 
you, Senator Johnson, for such a kind introduction to the 
Committee.
    Of course, I've been here before. It's wonderful to be 
here. I appreciate all the Members before me who have done so 
much to make it possible for me to be here today. All of you 
that are on the dais now have been so supportive over the 
years. I've appreciated the guidance that you've given me, the 
leadership that you've shown in this Committee, and I've tried 
to be true to that in everything that I've done, both through 
my 2 years on the FCC, and it's also been great to work with 
many of you during the 15 years that I served as a member of 
the staff here in the U.S. Senate.
    I'm especially indebted to so many of you for offering 
strong bipartisan support that, Senator Johnson, you referred 
to in that letter, which is certainly why I'm sitting before 
you here today.
    One Senator who isn't here this morning, who's, I believe, 
in Little Rock, has gone to extraordinary lengths to make this 
possible, my mentor and my friend and one of the finest men, I 
think, ever to grace the U.S. Senate, Tom Daschle. He's had the 
confidence now to recommend me to the President twice. And for 
that, for his visionary leadership over the years and many 
kindnesses that he's shown me, I will remain forever in his 
debt. He's worked tirelessly, I think, to make sure that I, as 
the first commissioner ever to serve from South Dakota, or even 
the entire Upper Midwest, in the history of the FCC, could 
continue to help ensure that all consumers, including those in 
rural America, remain connected. In that effort, the bipartisan 
chorus of support we heard from our state is, ``Join him.''
    And I'm grateful to our Governor, Mike Rounds, our chairman 
of our PUC, Chairman Bob Saar, and many others, for their 
support from our state.
    These efforts, I think, say something special about rural 
America. Growing up a fourth-generation South Dakotan, with 
long winters and people scattered over large distances, I 
learned the value of people staying connected, both to each 
other and to the rest of the country. And that experience 
drives me to work hard to fulfil the Communications Act promise 
for innovative communications technologies and services that 
are widely available to everyone in this country. These goals 
become even more imperative as communications take an ever-more 
prominent role in our personal lives and in our global economic 
competitiveness. With advances in technology and in today's 
security environment, I'll also continue to put the 
communications needs of our public safety and national security 
communities at the forefront.
    I think the telecommunications industry is at a crossroads, 
and it's been driven there by the rise of broadband and its 
revolutionary implications. From distance learning to 
telecommuting to high-definition video to telemedicine, 
broadband breaks through geographic barriers and transforms 
communities. We must continue to encourage broadband deployment 
by increasing incentives for investment and by promoting 
competition. We can do both with a policy framework that is 
flexible and keeps pace with the rapid changes we're seeing in 
the technology.
    To promote these benefits to everyone in this country, I 
have focused on improving spectrum management, on modernizing 
universal service, and protecting diversity, competition, and 
localism in our media.
    First, to spectrum. It's really the lifeblood for much of 
this new communications landscape. I've set on an approach that 
I call ``A Framework for Innovation.'' It establishes 
groundrules for issues like interference, while, to the 
greatest extent possible, allowing innovation in the 
marketplace to drive the development of spectrum-based 
services. My goal is to try to maximize the amount of 
communications and information that can flow over the nation's 
airwaves. And I think we have achieved remarkable results, on a 
bipartisan basis, by improving our spectrum management policy, 
I think, in dramatic ways over the last 2 years. And the 
marketplace has responded with an explosion of new 
opportunities for consumers, like WiFi and new licensed 
wireless broadband services.
    Our whole country gains economic, social, and civic 
benefits from being connected to a seamless network of 
networks. I have worked hard to preserve and advance Congress's 
universal service programs. It's vital that these programs 
remain on a solid footing.
    Increasingly, voice, video, and data will flow to homes and 
businesses over these broadband platforms. And in this new 
world, we've got to promote a comprehensive rollout to all 
Americans, including those from rural and other high-cost 
areas, Native Americans, and other minorities, people with 
disabilities, non-English-speakers, and low-income consumers.
    As for the media, I've never forgotten that the airwaves 
belong to the American people and that it's critical to 
preserve their access to what the Supreme Court called ``the 
uninhibited marketplace of ideas,'' something I think Senator 
Lott was referring to this morning. The FCC should continue to 
promote the priorities that have always formed the basis of our 
public-interest policy as envisioned by Congress and by this 
Committee--diversity, competition, and localism.
    Congress has charged the Commission with ensuring that the 
American public stays well connected and well protected. If 
confirmed, I'll continue to work with each of you to implement 
these congressional imperatives.
    And thank you, again, for holding this hearing today.
    [The prepared statement and biographical information of Mr. 
Adelstein follow:]

    Prepared Statement of Jonathan S. Adelstein, Renominated to be 
            Commissioner, Federal Communications Commission

    Mr. Chairman, Senator Hollings, and Members of the Committee, thank 
you for convening this hearing. I am grateful for the encouragement and 
leadership you have provided, both during my two years as an FCC 
Commissioner and also my fifteen years on staff in the Senate.
    I am especially indebted to many of you for offering strong 
bipartisan support for my renomination, which is why I am sitting 
before you today.
    One Senator you know well has gone to extraordinary lengths to make 
this possible: my mentor, my friend, and one of the finest men ever to 
grace the Senate, Tom Daschle. He has had the confidence to recommend 
me to the President for this position twice. For that and numerous 
other kindnesses over the years, I shall forever remain in his debt.
    Senator Daschle worked tirelessly to ensure that as the first FCC 
Commissioner from South Dakota and the entire upper Midwest, I could 
continue to help ensure that all consumers, including those in Rural 
America, remain connected.
    In that effort, a bipartisan chorus of support from our state has 
joined him, and I am grateful to Governor Mike Rounds, PUC Chairman Bob 
Sahr, and to many others for their support.
    These efforts say something special about Rural America. Growing up 
a fourth-generation South Dakotan, with long winters and people 
scattered over large distances, I learned the value of all of us 
staying connected, to each other and to the rest of the country.
    That experience drives me to work hard to fulfill the 
Communications Act's promise for innovative communications technologies 
and services that are widely available to everyone in this country. 
These goals become even more imperative as communications takes an ever 
more prominent role in our personal lives and in our global economic 
competitiveness. With advances in technology and today's security 
environment, I will also continue to put the communications needs of 
our public safety and national security communities at the forefront.
    The telecommunications industry is at a crossroads, driven by the 
rise of broadband and its revolutionary implications. From 
telecommuting, to distance learning, to high definition video, to 
telemedicine, broadband breaks through geographic barriers and 
transforms communities. We must continue to encourage broadband 
deployment by increasing incentives for investment and promoting 
competition. We can do both with a policy framework that is flexible 
and keeps pace with rapid technological changes.
    To promote these benefits for everyone in this country, I have 
focused on improving spectrum management, modernizing universal 
service, and protecting diversity, competition, and localism in our 
media.
    Spectrum will be the lifeblood for much of this new communications 
landscape. I have set out an approach I call a ``Framework for 
Innovation'' that establishes ground rules for issues like 
interference, while, to the greatest extent possible, allowing 
innovation in the marketplace to drive the development of spectrum-
based services. My goal is to maximize the communications and 
information that flow over the nation's airwaves. We have achieved 
remarkable results, on a bipartisan basis, by improving our spectrum 
management policy. The marketplace has responded with an explosion of 
new opportunities for consumers, like wi-fi and new licensed wireless 
broadband services.
    Our entire country gains economic, social, and civic benefits from 
being connected to a seamless ``network of networks.'' I have worked 
hard to preserve and advance Congress's universal service programs. It 
is vital that these programs remain on solid footing. Increasingly, 
voice, video, and data will flow to homes and businesses over broadband 
platforms. In this new world, we must promote a comprehensive rollout 
to all Americans, including those from rural, insular, and other high-
cost areas, Native Americans and other minorities, people with 
disabilities, non-English speakers, and low-income consumers.
    As for the media, I have never forgotten that the airwaves belong 
to the American people, and that it is critical to preserve their 
access to what the Supreme Court has called the ``uninhibited 
marketplace of ideas.'' The FCC should continue to promote the 
priorities that have always formed the basis of our public interest 
policy as envisioned by Congress: diversity, competition and localism.
    Congress has charged the Commission with ensuring that the American 
public stays well-connected and well-protected. If confirmed, I will 
continue to work with each of you to implement these Congressional 
imperatives.
                                 ______
                                 
                      A. BIOGRAPHICAL INFORMATION

    1. Name: Jonathan Steven Adelstein (Jon).
    2. Position to which nominated: Commissioner, Federal 
Communications Commission.
    3. Date of nomination: July 10, 2002.
    4. Address: Home: Information not released to the public. Office: 
Federal Communications Commission, 445 12th Street, SW, Room 8-C302, 
Washington, DC 20554.
    5. Date and place of birth: August 28, 1962, Rapid City, South 
Dakota.
    6. Marital Status: Married to the former Karen Gail Brenner.
    7. Name and age of children: Adam Fortis Adelstein, 3; Alexis Eve 
Adelstein, 1.
    8. Education:

        Harvard University, Kennedy School of Government, 1986-1987.
        Stanford University, 1985-1986, M.A., History, 1986.
        Stanford University, 1982-1985, B.A., Political Science, 1985.
        Lewis & Clark College, 1980-1982.
        Phillips Academy, Andover, 1977-1980, High School Diploma, 
        1980.

    9. Employment record:

        2002-present: Federal Communications Commission, Commissioner.

        1995-2002: Senate Majority Leader Tom Daschle, Legislative 
        Assistant.

        1989-1995: Chairman David Pryor, Senate Special Committee on 
        Aging, Professional Staff Member; also served as special 
        liaison to Senator Harry Reid.

        1987-1989: Senator Donald W. Riegle, Jr., Legislative 
        Assistant.

        1987: Senator Richard C. Shelby, Intern.

    10. Government experience: Commissioner, Federal Communications 
Commission, 2002-present; U.S. Senate staff for 15 years, 1987-present. 
In addition, I was appointed to the Clinton/Gore Presidential 
Transition Team in 1992 as a liaison to the Department of Health and 
Human Services.
    11. Business relationships: None other than those listed above.
    12. Memberships: Member, National Academy of Social Insurance, 
Washington, D.C.
    13. Political affiliations and activities:

        (a) Party offices held: none.

        (b) Offices held and services rendered to political parties and 
        election committees during the last 10 years: I took leaves of 
        absences from the U.S. Senate to volunteer on the Senate 
        campaign of Senator Harry Reid from October-November 1992, and 
        on the Senate campaign of then-U.S. Rep. Tim Johnson from 
        October-November 1996.

        (c) Political contributions of $500 or more during the past 10 
        years: Tim Johnson for Senate, $1000, (2001); Tim Johnson for 
        Senate, $1500, (1996); Democratic National Committee, $1000, 
        (2000); Voters for Choice, $850 total, (1996 and 1998); Rick 
        Weiland for Congress, $1000, (1996).

    14. Honors and awards:

        U.S. Senate Service Award, 1999.
        Inducted into the National Academy of Social Insurance, 1999.
        Graduated with Distinction (highest honors), Stanford 
        University.
        Phi Kappa Phi National Honor Society.
        Pi Sigma Alpha Political Science Honor Society.
        Outstanding Leadership Award, National Association for Music 
        Therapy, 1991.
        Alliance for Community Media, Director's Choice Award, 2003.
        President's Award, Combined Federal Campaign of the National 
        Capital Area.
        Certificate of Appreciation, Comenius Foundation.

    15. Published writings: ``Disabled Yet Denied: Bureaucratic 
Injustice in the Disability Determination System'' Journal of 
Disability Policy Studies, Volume 1, No. 4, Winter 1990, pages 57-80; 
Foreword for Communication: From Hieroglyphs to Hyperlinks, Houghton 
Mifflin Publishers, 2004.
    16. Speeches: Formal speeches I have given are available on my FCC 
website at: http//www.fcc.gov/commissioners/adelstein/
speeches2004.html. I have made a number of informal presentations, 
primarily on panels with other Congressional staff, in my capacity as a 
U.S. Senate aide. They have been extemporaneous remarks for which there 
is no written text.
    17. Selection:
    (a) Do you know why you were chosen for this nomination by the 
President?
    I believe I was nominated by the President, upon the recommendation 
of Senator Daschle, primarily because of my experience in 
telecommunications policy and related fields, and also because my 
career in public service demonstrates my ability to work in a 
bipartisan fashion with the legislative and executive branches of 
government, with independent regulatory agencies, and with the many 
constituencies affected by Federal policy.

    (b) What do you believe in your background or employment experience 
affirmatively qualifies you for this particular appointment?
    For the past fifteen years, I have served in a number of senior 
staff policy positions in the United States Senate. That diverse and 
extensive experience culminated in Senate Majority Leader Tom Daschle's 
decision to make me his lead advisor on telecommunications issues and 
in several other key policy areas. In the many different capacities in 
which I served in the government, I have attempted to ascertain and 
promote the public interest by weighing the substantive policy 
arguments presented by an array of Members of Congress and their 
personal and committee staffs, powerful and often intensely competitive 
industries, public interest groups, Federal agencies, the White House 
and, perhaps most importantly, constituents with a direct stake in the 
outcome of Federal policy debates.
    I have a long and proven record of working with Senators on both 
sides of the aisle to promote the public interest by developing 
legislation, influencing independent and executive agencies, conducting 
hearings and investigations and completing casework. This experience is 
ideally suited to developing the judgement required to ascertain 
Congressional intent and the public interest in complex regulatory 
proceedings, which often involve powerful opposing interests.
    I have assisted a number of Senators in overseeing some of the 
largest and most complex Federal programs, as well as a number of 
regulatory agencies such as the FCC. This responsibility has provided 
me with an excellent background on the inner workings of the Federal 
Government and its impact on the many stakeholders affected by its 
actions. As a Senate staffer, I enjoyed access to the best information 
from leading experts in the field, interests with a stake in the 
outcome, members of the public with views on the issues and other 
players in Congress with differing policy and political agendas. Every 
day I have served the Senate has enriched my education in Federal 
policymaking. This has prepared me, should I be confirmed, to be an 
independent, impartial arbiter able to implement the statutes crafted 
by Congress in an accurate and equitable manner which serves the public 
interest.
    In my service to Senator Daschle, I have worked extensively in 
every field of telecommunication policy overseen by the FCC, including 
common carrier, wireless, satellite and mass media issues. As Senate 
Majority and Democratic Leader, Senator Daschle has played a key role 
in every telecommunications debate to come before Congress. I have 
assisted him in taking a leadership role on a number of significant 
legislative and regulatory initiatives, including speeding the 
deployment of broadband to all Americans, including those who reside in 
rural areas. Our many bipartisan successes have prepared me to enhance 
communications and cooperation between Congress and the FCC.

                   B. FUTURE EMPLOYMENT RELATIONSHIPS

    1. Will you sever all connections with your present employers, 
business firms, business associations or business organizations if you 
are confirmed by the Senate? Yes.
    2. Do you have any plans, commitments or agreements to pursue 
outside employment, with or without compensation, during your service 
with the government? No.
    3. Do you have any plans, commitments or agreements after 
completing government service to resume employment, affiliation or 
practice with your previous employer, business firm, association or 
organization? No.
    4. Has anybody made a commitment to employ your services in any 
capacity after you leave government service? No.
    5. If confirmed, do you expect to serve out your full term or until 
the next Presidential election, whichever is applicable? Yes.

                   C. POTENTIAL CONFLICTS OF INTEREST

    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients or customers: None.
    2. Indicate any investments, obligations, liabilities or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated:
    I have disposed of all personal assets which could involve 
potential conflicts of interest in the position to which I have been 
nominated. My wife holds certain assets that could raise conflict of 
interest issues, and she intends to sell or dispose of all of them 
prior to or upon my confirmation, consistent with an ethics agreement I 
am prepared to sign.
    3. Describe any business relationship, dealing or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated: None.
    4. Describe any activity during the past 10 years in which you have 
engaged for the purpose of directly or indirectly influencing the 
passage, defeat or modification of any legislation or affecting the 
administration and execution of law or public policy:
    As an employee of the U.S. Senate for more than the past 10 years, 
I have regularly engaged in legislative and policy activities on behalf 
of the Senators and the Committee for whom I have worked. I have not 
engaged in any such efforts on behalf of myself or any external agent 
or interest.
    5. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items. (Please provide a copy of any trust or other agreements):
    I will resolve all potential conflicts of interest in a manner 
consistent with applicable laws and ethics rules. Specifically, I have 
already disposed of all personal assets that could involve potential 
conflicts of interest; my wife intends to divest or dispose of all 
assets of companies that engage in any business with issues before the 
FCC. I am consulting with FCC ethics officials and will follow their 
guidance regarding any possible conflicts that might arise from my 
wife's assets.
    6. Do you agree to have written opinions provided to the Committee 
by the designated agency ethics officer of the agency to which you are 
nominated and by the Office of Government Ethics concerning potential 
conflicts of interest or any legal impediments to your serving in this 
position? Yes.

                            D. LEGAL MATTERS

    1. Have you ever been disciplined or cited for a breach of ethics 
for unprofessional conduct by, or been the subject of a complaint to 
any court, administrative agency, professional association, 
disciplinary committee, or other professional group? No.
    2. Have you ever been investigated, arrested, charged or held by 
any Federal, State, or other law enforcement authority for violation of 
any Federal, State, county or municipal law, regulation or ordinance, 
other than a minor traffic offense? No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in interest in an administrative agency 
proceeding or civil litigation? No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere ) of any criminal violation other than a minor traffic 
offense? No.
    5. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be considered in 
connection with your nomination: None.

                     E. RELATIONSHIP WITH COMMITTEE

    1. Will you ensure that your department/agency complies with 
deadlines set by congressional committees for information?
    Yes. To the extent I can control the outcome if confirmed, I 
strongly believe that Federal agencies should always comply with 
congressional deadlines if at all humanly possible.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, to include technical experts and career employees with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Please explain how you will review regulations issued by your 
department/agency, and work closely with Congress, to ensure that such 
regulations comply with the spirit of the laws passed by Congress.
    If confirmed, I will consider it my first obligation to ensure that 
any regulations issued comport completely with the letter and spirit of 
the law. I will maintain regular meetings, correspondence and telephone 
contact with Members of Congress and their staff, consistent with the 
Agency's procedural rules, to solicit their views and keep an open 
dialogue on all key issues.
    5. Describe your department/agency's current mission, major 
programs and major operational objectives.
    The FCC is an independent regulatory agency created by the 
Communications Act of 1934 to oversee emerging communications 
technologies by wire and radio. Its mission has been expanded by 
subsequent amendments to include television, satellite and cable. It is 
charged with carrying out the responsibilities conferred upon it by 
Congress to help ``all the people of the United States'' benefit from 
the best telecommunications system possible, and to do so at reasonable 
rates.
    In short, the FCC regulates radio and television broadcasters, wire 
common carriers, wireless and satellite communications providers, as 
well as multichannel video programmers, and helps coordinate 
international and satellite policies. The FCC oversees the 
administration of universal service support programs, including high-
cost and lifeline support, the E-rate and support for rural health care 
facilities. It enforces the Communications Act requirements in these 
fields and handles public inquiries and consumer complaints.
    The FCC's mission, as detailed in the statute, is to facilitate 
competition, promote universal service and technological innovation, 
and to protect the public interest. Much of its recent activities has 
involved implementation of the Telecommunications Act of 1996. In 
addition, it faces the challenge of managing spectrum in an efficient 
manner.
    Operationally, the FCC currently oversees a vast array of 
regulations that it must continually enforce and evaluate in light of 
changing market conditions and technological change. It must also 
respond to input from Congress, and to any changes that Congress enacts 
to its current mission.
    6. Are you willing to appear and testify before any duly 
constituted committee of Congress on such occasions as you may be 
reasonably requested to do so?
    Yes, I would welcome the opportunity to do so.

                  F. GENERAL QUALIFICATIONS AND VIEWS

    1. How have your previous professional experience and education 
qualified you for the position for which you have been nominated?
    As a staffer for Senator Daschle, I have been intimately involved 
in policy matters which fall under the FCC's jurisdiction. This 
experience has given me a working knowledge of the Commission, its 
functions, its organization and its employees. The Senate has provided 
an excellent setting in which to learn the details of the 
Communications Act of 1934, which defines the Commission's 
responsibilities, and its history as a living document which is 
constantly interpreted and reinterpreted by the Commission, the Courts, 
Congress and stakeholders.
    I have worked with Senator Daschle and other Senators to take a 
leadership role on a number of telecommunications initiatives. Most 
recently, we worked on a bipartisan, bicameral basis to win enactment 
of a significant program to promote broadband deployment in rural 
areas. The legislation, enacted this year as part of the Farm Bill, 
will provide unprecedented levels of assistance each year in low-cost 
loans to providers so that they may offer broadband service to rural 
communities that lie beyond the reach of current deployments.
    This achievement emerged from a long-term effort by Senator Daschle 
and other Senators, with my assistance, to promote more widespread 
broadband deployment to rural and other underserved communities. This 
included my taking the staff lead in spearheading and organizing a 
series of events that both studied and highlighted the need for Federal 
leadership to promote broadband. In September 1999, Senator Daschle 
hosted the ``CEO Summit on Rural Telecommunications,'' attended by 
then-FCC Chairman Kennard and other FCC Commissioners, top CEOs from 
every segment of the telecommunications industry, and a number of 
Senators, their staff, members of the public and the press. That event 
was followed shortly thereafter by another bipartisan forum entitled 
``Going the Extra Mile: Bringing High Speed Internet to Rural 
America,'' which explored the efforts by rural telecommunications 
providers to meet the need for broadband deployment, the specific 
technological and economic challenges posed by distance and population 
dispersion in rural markets, the applicability of universal service 
support to the broadband context and the potential that certain 
wireless and satellite technologies could speed deployment of broadband 
to rural businesses and residences. The FCC Chairman gave his view of 
the FCC's role in fostering rural broadband deployment and a number of 
other leading experts and practitioners in the field offered their 
advice. These initiatives also involved numerous letters, meetings and 
other communications with FCC Commissioners and staff to ensure that 
additional attention was paid to the need to spur nationwide broadband 
deployment.
    Senator Daschle also charged me with helping to develop a 
comprehensive congressional technology agenda which Senator Daschle and 
Representative Dick Gephardt unveiled live on the Internet in April 
2001. It contained a detailed series of proposals to spur innovation, 
productivity, economic growth and job creation. This effort required 
extensive consultation with each of the many Congressional committees 
that have jurisdiction over technology issues and the many Members of 
Congress with an interest in these issues. This exercise helped me 
establish a broad vision for promoting U.S. technological development 
in which the FCC, along with many other Federal agencies, plays an 
important role.
    I have also worked with Senator Daschle on initiatives to promote 
efficient spectrum management, improve the availability of local-to-
local television service to all regions of the U.S., and to establish 
the validity of electronic signatures and numerous of other 
telecommunications initiatives.
    As Senator Daschle's leading banking and financial services 
advisor, I have also gained a solid understanding of the operations and 
structure of the capital markets, which remain crucial in the financing 
and development of the U.S. telecommunications infrastructure overseen 
by the FCC. For example, I worked on every aspect of the landmark 
legislation to revamp the financial services industry, the Gramm-Leach-
Bliley bill. This experience provided me with great perspective on the 
latest developments in a field which plays a key role in the future of 
the telecommunications industry. Moreover, I have participated in the 
multi-year effort to enact bankruptcy reform, the commercial aspects of 
which are unfortunately playing an increasingly prominent role in the 
structuring of the telecommunications industry.
    In my previous staff position for the Senate Special Committee on 
Aging, I undertook a number of in-depth investigations and organized a 
number of hearings, many of which led to changes in Federal law or 
reforms of executive agency practices and organizational structures. 
This experience in exploring the depths of complex issues, and learning 
how to conduct Federal investigations and organize fact-finding 
hearings will help me, if confirmed, to evaluate the complex field of 
telecommunications. Moreover, this oversight experience provided 
valuable insight into the management of large and complex Federal 
agencies and how to address bureaucratic problems that can have an 
adverse effect on the public which relies on those agencies. In this 
position, I also learned first-hand the importance of affordable 
telecommunications services to senior citizens and their families.
    I served as the primary advisor to Senators Pryor and Riegle on 
some of the largest programs in the Federal budget which fall under the 
jurisdiction of the Finance Committee on which they served. This 
responsibility rapidly developed my ability to evaluate the 
effectiveness of Federal programs, initiate specific proposals for 
improving them and forge a bipartisan consensus in order to get changes 
enacted or otherwise approved by Federal agencies. This experience 
would aid me, if confirmed, in confronting the many challenges to the 
efficient functioning of the FCC.
    My undergraduate and graduate education focused on how American 
history, political science, economics and public policy analysis could 
be employed to improve the functioning of government. My political 
science studies at Stanford, followed by my studies there to attain a 
Masters in history, helped me to better understand the context in which 
government decisions were being made. I furthered my studies at 
Harvard's Kennedy School of Government, where I gained valuable lessons 
in economics, statistics and public policy analysis.
    In sum, I have had the privilege of studying and serving in 
capacities that have provided a unique level of experience, exposure 
and education about Federal Government processes, including those 
involving telecommunications policy. I have dedicated my career to 
public service in the United States Senate, working for some of its 
finest members. The Senate remains, in my view, the world's greatest 
deliberative body. I can imagine no greater training ground to prepare 
an individual for the enormous responsibility of implementing the 
complex and often disputed telecommunications laws enacted by Congress.
    Public service has afforded me the opportunity to make some 
concrete contributions to what I, and the members I served, considered 
to be in the public interest. If confirmed, I look forward to new 
opportunities to continue to do so.
    2. Why do you wish to serve in the position for which you have been 
nominated?
    It is a great privilege to serve the Government of the United 
States. This country and my home state of South Dakota have given so 
much to me and my family that no amount of giving back in the form of 
public service can ever repay the gratitude I feel. My mother's family 
found safe haven here from the holocaust as they escaped Nazi-occupied 
Poland. My father's family found safe haven here from the pogroms in 
Russia around the turn of the century. My great-grandmother homesteaded 
near the Badlands of South Dakota, and my grandfather went on from 
there to found a business that became one of the largest employers in 
the state.
    Now, based on the extraordinary opportunities and education I have 
been afforded in the Senate and at fine educational institutions, I 
would like to use my experience to promote the public interest as 
envisioned by Congress in its communications laws. The FCC has before 
it perhaps the most exciting challenges of any agency in promoting the 
development of telecommunications and information technologies and 
services during a time of economic difficulty in the industry and 
security threats to our country. I would like to work toward achieving 
bipartisan solutions that maximize the ability of the Commission to 
contribute to productivity, economic growth and improved security for 
the entire country.
    Having been born and raised in one of the most rural states in the 
country, South Dakota, and given my experience working on behalf of 
South Dakota for seven years in Senator Daschle's office, I see the 
value of quality communications and media services in people's lives. 
My experience has taught me that these services can make a positive 
contribution to economic development, education, public safety, and the 
quality of health care services available to people in need, In rural 
areas like the one where I was raised, the availability of the most 
advanced communications technology can determine whether a small 
community can offer an economic future to its citizens, and can even 
mean the difference between life and death in the case of medical 
emergencies. It is also clear that enhancing the quality of the 
nationwide telecommunications infrastructure improves the overall 
economy by increasing the productivity and efficiency of the entire 
Nation. If confirmed, serving at the Commission will provide me with an 
opportunity to promote the transforming power of communications and 
media services in people's lives.
    The FCC has been charged by Congress with a key role in fostering 
competition, innovation and universal service. Advanced technologies 
can connect people to new opportunities and obliterate the distances 
between them. They can contribute to our quality of life, and keep this 
country competitive in the global economy. If confirmed, I will work 
with the other Commissioners and the many talented people at the 
Commission to help improve the telecommunications economy and promote 
the deployment of the most advanced technologies to every region and 
sector of American society, as envisioned by the Telecommunications Act 
of 1996.
    3. What goals have you established for your first two years in this 
position, if confirmed?
    If confirmed, my goals are to work toward expanding access to 
telecommunications services for all Americans, including broadband 
services, to help restore the economic vitality of the 
telecommunications sector, and to address emerging public safety and 
security needs. In pursuing these goals, I will strive to faithfully 
carry out the communications laws enacted by Congress, consistent with 
Congressional intent ascertained from a plain reading of the statute 
and its legislative history. In order to accomplish this most 
effectively, I will work to keep open and improve communications with 
Members of Congress and their staffs. Working firmly within that 
framework, I will seek to realize the goal of improving the economic 
climate of the telecommunications industry, which is currently 
witnessing an historic downturn, so that continued innovation, 
investment and deployment can improve the level of services available 
to consumers. This effort can be accomplished in part by working toward 
the statutory goal of the Act itself, which calls for extending the 
availability of advanced telecommunications technology to all Americans 
in all regions including the ubiquitous deployment of broadband. 
Finally, our country must have the most reliable and sound 
telecommunications infrastructure in order to meet new and emerging 
threats to our security. Addressing the needs of the public safety 
community must remain at the very forefront of the Commission's agenda.
    4. What skills do you believe you may be lacking which may be 
necessary to successfully carry out this position? What steps can be 
taken to obtain those skills?
    This Commission has a vast responsibility in a number of complex 
industries. It would be difficult for any individual to master the 
intricacies of all of those many areas of jurisdiction. Recognizing 
these difficulties, despite my years of experience in this field, I 
will examine even more intensively the many issues arising before the 
Commission, taking advantage of the greater access to information 
available to Commission members. I realize that many different 
challenges face the legislative branch and independent regulatory 
agencies of government. If confirmed, in making the transition to the 
FCC, I will need to reach out to the many experienced and skilled 
public servants within the Commission. Moreover, I will also draw on 
the experience of leading outside experts, including those in academia 
and public interest groups, and that of the many leaders in the 
telecommunications industry. I will also reach out to regular consumers 
and residents of rural areas to learn about their perspectives. 
Telecommunications is a rapidly changing field and I will need to 
refine my knowledge constantly to keep abreast of these changes. I am 
confident this can be accomplished by drawing on the seasoned 
Commission staff and leading technologists from outside the agency.
    5. Please discuss your philosophical views on the role of 
government. Include a discussion of when you believe the government 
should involve itself in the private sector, when should society's 
problems be left to the private sector, and what standards should be 
used to determine when a government program is no longer necessary.
    The United States was founded upon a Constitution that carefully 
enumerates powers available to the Federal Government, and places 
limits on those powers. The American Revolution was largely a response 
to abuses of power by an unaccountable king. Emerging from this 
beginning, the U.S. has, historically and properly, retained a 
skeptical view of the role of government power. Most importantly, it 
vested responsibility for limiting the encroachment of government into 
the private sector and people's lives not only through the Bill of 
Rights, but through a sound democracy. Laws are established by the 
people through their representatives in Congress.
    For officials in a regulatory agency such as the FCC, it is 
imperative not to exceed the authority delegated to the agency by 
Congress when applying regulations to the private sector. Congress has 
the power to regulate interstate commerce, and regulators must restrain 
themselves from using their congressionally delegated authority to 
exceed the limits of congressional mandates. When that happens, it is 
up to the courts to impose a further restraint upon regulators. I 
consider the necessity for such judicial action a failure to interpret 
congressional intent in implementing the law and, if confirmed, would 
strive to avoid such failure.
    In my view, which happens to be consistent with the 
Telecommunications Act, competition is preferable to regulation as a 
means of encouraging innovation, lowering prices and improving the 
quality and availability of services to consumers. Some sectors of the 
telecommunications industry are already witnessing a competitive 
market, while others are still making the transition. Where competition 
thrives, the role of government should be highly limited. A greater 
government role may be needed to facilitate competition in less open 
markets, and government action may be necessary to stimulate service in 
other instances in which the market fails to address essential societal 
goals, such as the deployment of the advanced services to rural areas. 
In these exceptional circumstances, to make markets work best, the 
government should operate in a fair, clear and open manner, 
establishing frameworks that are technologically and competitively 
neutral. The goal must always be to get to the point where market 
forces and competition render governmental regulation unnecessary. Once 
that point is achieved, the regulatory environment should diminish 
deftly and appropriately.
    In terms of when government programs are no longer necessary, 
section 10 of the Communications Act provides useful guidance. This 
provision authorizes the Commission to discontinue applying regulations 
that are no longer needed to prevent discrimination or other unjust 
practices or charges, or to protect consumers. This provision 
specifically requires the Commission to weigh whether or not 
eliminating a regulation could enhance competition. In general, I agree 
with the proposition that a program or regulation is no longer needed 
when the market failure it was designed to correct has been addressed.
    The government has a role to play in furthering national goals. For 
example, the government has historically promoted universal service in 
areas such as postal service and telephone service. It has also 
established a national highway system, and promoted universal access to 
electricity. In these cases, government has worked in close cooperation 
with the private sector to accomplish laudable goals. Whenever 
possible, the government should attempt to work in partnership with the 
private sector to address policy goals in areas where competition or 
the market alone might not accomplish them to the satisfaction of 
policymakers in Congress. It is a core, bipartisan American value that 
the government should act to secure universal service for its citizens. 
This policy goal, when met, enhances the value of the 
telecommunications network for all who use it, whether as consumers or 
providers.
    6. In your own words, please describe the agency's current 
missions, major programs, and major operational objectives?
    The FCC is an independent regulatory agency created by the 
Communications Act of 1934 to oversee emerging communications 
technologies by wire and radio. Its mission has been expanded by 
subsequent amendments to include television, satellite and cable. It is 
charged with carrying out the responsibilities conferred upon it by 
Congress to help ``all the people of the United States'' benefit from 
the best telecommunications system possible, and to do so at reasonable 
rates.
    In short, the FCC regulates radio and television broadcasters, wire 
common carriers, wireless and satellite communications providers, as 
well as multichannel video programmers, and helps coordinate 
international and satellite policies. The FCC oversees the 
administration of universal service support programs, including high-
cost and lifeline support, the E-rate and support for rural health care 
facilities. It enforces the Communications Act requirements in these 
fields and handles public inquiries and consumer complaints.
    The FCC's mission, as detailed in the statute, is to facilitate 
competition, promote universal service and technological innovation, 
and to protect the public interest. Much of its recent activities has 
involved implementation of the Telecommunications Act of 1996. In 
addition, it faces the challenge of managing spectrum in an efficient 
manner.
    Operationally, the FCC currently oversees a vast array of 
regulations that it must continually enforce and evaluate in light of 
changing market conditions and technological change. It must also 
respond to input from Congress, and to any changes that Congress enacts 
to its current mission.
    7. In reference to question number six, what forces are likely to 
result in changes to the mission of this agency over the coming five 
years?
    The FCC's fundamental mission will change only to the extent that 
Congress amends the laws governing the agency, or that competition 
develops in a manner that obviates the need for regulation. Even if 
such fundamental developments do not occur, however, in certain areas 
the agency will confront the need to respond to technological 
innovation, and to accommodate rising demand for spectrum and new 
wireless technologies, as well as to respond to significant changes in 
the marketplace that may emerge.
    8. In further reference to question number six, what are the likely 
outside forces which may prevent the agency from accomplishing its 
mission? What do you believe to be the top three challenges facing the 
department/agency and why?
    While outside forces are presenting challenges to the FCC, I am 
hopeful none of them will prevent it from accomplishing its statutory 
mission. One great outside challenge now facing the agency is that 
changes in revenue streams are placing pressure on universal service, 
which may complicate efforts to ensure its sustainability and to 
encourage the deployment of advanced services. Secondly, increasing 
demands on spectrum are straining the ability of the agency to balance 
the need to promote the deployment of advanced wireless 
telecommunications services with the essential needs of national 
security and public safety. Third, the Commission will need adequate 
resources to carry out its mission as the telecommunications 
environment grows ever more technologically complex. It will be a 
challenge to attract and retain the best-trained specialists in the 
fields of telecommunications technology, economics, and law unless 
resources keep pace with the demands placed on the agency.
    9. In further reference to question number six, what factors in 
your opinion have kept the department/agency from achieving its 
missions over the past several years?
    The agency can improve communications with Congress so that 
emerging problems can be addressed in the most cooperative manner 
possible. In addition, the judicial review process has led increasingly 
to inconsistent interpretations of the law, in some cases due to 
inadequate efforts to provide objective justification for some of the 
regulatory positions the agency has taken. There is also a need to show 
more dedication to expeditiously and responsively addressing section 
254 of the Telecommunications Act in light of the changing nature of 
the marketplace.
    10. Who are the primary stakeholders in the work of this agency?
    The primary stakeholders are residential and business consumers of 
telecommunications services. Congress, which created the agency, is 
also a primary stakeholder which is accountable and responsive to those 
consumers. Telecommunications businesses that provide services to 
consumers are, of course, key stakeholders. Others include the White 
House, related executive branch agencies, state regulators, and 
international governments.
    11. What is the proper relationship between your position, if 
confirmed, and the stakeholders identified in question number ten?
    The proper relationship varies in relation to the various 
stakeholders. The FCC is an independent regulatory agency. It must act 
to preserve its independence if its decisions are to be regarded as 
objective and fair. Given this position, the agency must always keep 
focused on its mission, as embodied in the Communications Act, to 
protect consumers and promote the public interest. As such, it is 
imperative that Commissioners maintain close communications with 
Congress so as to reflect most accurately its intentions with regard to 
the law and attend most efficiently to Members' concerns as raised by 
their various constituencies. Commissioners should work cooperatively 
with outside stakeholders, listen carefully to their concerns, and 
respond to those concerns in a manner consistent with the law. 
Commissioners should hear and consider fully the competing visions of 
the many providers of telecommunications services and evaluate what 
outcomes would best serve the public interest as intended by the Act. 
All stakeholders should be heard and treated fairly, but none should be 
granted any special treatment in terms of access or outcomes.
    12. The Chief Financial Officers Act requires all government 
departments and agencies to develop sound financial management 
practices similar to those practiced in the private sector.
    a) What do you believe are your responsibilities, if confirmed, to 
ensure your agency has proper management and accounting controls?
    If confirmed, I will consider it my responsibility to work closely 
with and oversee agency management and administrative personnel, and 
help to ensure a clean audit. The Act specifies that the Chairman is to 
serve as the chief executive officer of the Commission, and the 
Commission has hired a Chief Financial Officer. At the same time, all 
Commissioners are responsible for overseeing and assisting with the 
management of the agency in order to comply with statutory mandates. I 
will seek to work closely with these officials to help establish the 
most effective organizational structure and the most efficient use of 
the budgetary resources provided by Congress. In terms of what will 
most closely fall under my purview if confirmed, I will employ 
diligence and careful scrutiny in administering the resources of my 
office.

    b) What experience do you have in managing a large organization?
    I have extensive experience in congressional oversight of large 
agencies, including committee oversight experience in evaluating the 
management of the over 60,000 employees of the Social Security 
Administration. I also have extensive experience in the congressional 
budget process involving the entire Federal Government, as I have 
assisted Senator Daschle with those responsibilities. While this 
differs from direct management experience of a large agency, if 
confirmed I will work closely with agency officials who manage the day-
to-day operations of the Commission to refine the management skills I 
gained on the Hill in a manner consistent with its operations.
    13. The Government Performance and Results Act requires all 
government departments and agencies to identify measurable performance 
goals and to report to Congress on their success in achieving those 
goals.
    a) Please discuss what you believe to be the benefits of 
identifying performance goals and reporting on your progress in 
achieving those goals.
    All successful organizations, and people for that matter, whether 
in government or in the private sector, must have a plan with 
measurable goals in order to maximize effectiveness. The GPRA, which 
requires a Strategic Plan and Annual Performance Plans, increases the 
effectiveness of Federal agencies by forcing them to adopt a structure 
by which to measure performance goals and to help set budget 
priorities. These measurable goals permit Congress, and the agency 
itself, to evaluate the progress being made toward achieving certain 
milestones. They also help direct human and financial resources to 
promote the most pressing priorities. Moreover, they can help determine 
whether certain programs and initiatives should get additional 
resources, fewer resources, or should be eliminated entirely.

    b) What steps should Congress consider taking when an agency fails 
to achieve its performance goals? Should these steps include the 
elimination, privatization, downsizing or consolidation of departments 
and/or programs?
    The appropriate response to agency failures would depend upon the 
size, significance and impact upon the public of those failures, and 
the degree to which it was due to factors under the agency's control, 
or upon external factors. Depending upon these circumstances, Congress 
is best able to determine the appropriate response based upon its 
investigative and oversight powers. While all the above options are 
available to Congress, the need for drastic measures can be minimized 
if the agency and Congress maintain effective communication so that 
would-be failures can be caught early and minimized through early 
corrective action.

    c) What performance goals do you believe should be applicable to 
your personal performance, if confirmed?
    In order to judge whether I fulfill my responsibilities, if 
confirmed I should be evaluated as to whether I have implemented the 
law consistent with congressional intent in a balanced, fair and 
impartial manner, and done so expeditiously and with thorough attention 
to the details of every issue that comes before the Commission.
    14. Please describe your philosophy of supervisor/employee 
relationships. Generally, what supervisory model do you follow? Have 
any employee complaints been brought against you?
    My view of managing involves identifying a core set of values and a 
vision, and communicating them clearly to employees. Foremost among 
these is a dedication to serving the public interest and doing what is 
right for the country. Setting a high standard for service in a public 
office, whether as an FCC commissioner or as a Senate staffer, serves 
to inspire employees to reach their full potential by making them 
realize that they are working for a cause much greater than themselves.
    Supervisors should lead by example, both in terms of their work 
ethic and their communication of a vision that drives employees toward 
measurable goals. Supervisors should maintain an open door, be frank 
about both successes and shortcomings of employees' performance, and 
give regular guidance as to how to improve performance. These frank 
discussions are best accomplished in a collaborative setting, with 
incentives and opportunities to reward outstanding performance. Most 
importantly, employees should feel empowered to achieve their highest 
aspirations, and should be recognized and given credit for 
achievements. The message is always that we are all in this together, 
as a team, and that our successes and failures matter greatly because 
other people are depending upon us for our judgment and work product.
    I have never been the subject of an employee complaint.
    15. Describe your working relationship, if any, with Congress. Does 
your professional experience include working with committees of 
Congress? If yes, please describe.
    I have served as a Senate staffer for the past fifteen years, 
advancing in positions of increasing responsibility from positions with 
a personal staff, a committee staff, and with a leadership staff. In 
each of these positions, I have worked regularly with congressional 
committees in both the Senate and the House. In the Senate, I have 
worked particularly closely with the Committee on Commerce, Science, 
and Transportation, the Committee on Finance and the Committee on 
Banking, Housing, and Urban Affairs.
    16. Please explain what you believe to be the proper relationship 
between yourself, if confirmed, and the Inspector General of your 
department/agency.
    The Inspector General must maintain independence from the 
Commissioners and all employees of the agency. If confirmed, were I to 
observe anything which appeared to involve improprieties, I would 
consider it my duty to report that matter to the IG and allow the IG to 
conduct an autonomous investigation. In addition, I would review any 
recommendations by the IG involving FCC activities and operations with 
great seriousness and act upon them to ensure compliance with statutory 
requirements. I would offer my full support and cooperation to the IG's 
office and urge cooperation throughout the agency as the IG carried out 
its responsibilities. I would not tolerate any impediments to the IG's 
efforts to investigate any and all operations of the Commission.
    17. Please explain how you will work with this Committee and other 
stakeholders to ensure that regulations issued by your department/
agency comply with the spirit of the laws passed by Congress.
    I believe I currently enjoy an excellent working relationship with 
the Commerce Committee and its members on both sides of the aisle, and, 
if confirmed, I would strive to build upon those relationships. As I 
have stated, I see it as a fundamental priority to ensure that all of 
my activities comply with the spirit and the letter of the laws enacted 
by Congress. If confirmed, I pledge to maintain a regular dialogue with 
members of this Committee and their staff, consistent with the agency's 
procedural rules. I will seek regular guidance from them concerning how 
best to implement that statute as envisioned by the Committee and by 
Congress. I fully recognize that Congress sets the United States' 
communications policy and the FCC implements it, and will act 
accordingly in all of my relations with this Committee.
    18. In areas under the department/agency's jurisdiction, what 
legislative action(s) should Congress consider as priorities? Please 
state your personal views.
    I would not presume at this time to recommend any specific 
legislative actions regarding Federal telecommunications policy. If 
confirmed, I will view my role as carrying out the law as enacted. The 
agency remains involved in debating ways to carry out the substantial 
responsibilities vested in it by the Telecommunications Act of 1996. I 
would note that the Chairman has proposed strengthening the agency's 
enforcement authority, and his proposals have great merit and deserve 
the careful attention of Congress.
    19. Within your area of control, will you pledge to develop and 
implement a system that allocates discretionary spending based on 
national priorities determined in an open fashion on a set of 
established criteria? If not, please state why. If yes, please state 
what steps you intend to take and a time frame for implementation.
    If confirmed, I will work with the Chairman in order to set 
appropriate budgetary priorities and processes, and will seek to ensure 
the Commission has adequate resources to carry out its responsibilities 
to meet the national priorities established by Congress. I will begin 
work toward this goal immediately upon confirmation.

    The Chairman. Thank you very much.
    Dr. Wilson, welcome.

  STATEMENT OF DR. ERNEST J. WILSON III, RENOMINATED TO BE A 
MEMBER, BOARD OF DIRECTORS, CORPORATION FOR PUBLIC BROADCASTING

    Dr. Wilson. Thank you very much, Mr. Chairman. It's a 
pleasure to be here the second time.
    I did notice that the other Professor Wilson has arrived, 
so if I may ask her to stand, sir, I would appreciate it.
    The Chairman. Glad you're here, ma'am, and I--we're having 
an investigation of the problem.
    [Laughter.]
    Dr. Wilson. Oh, dear. Thank you, Senator.
    I do want to express my gratitude for your holding this 
hearing, Senator, and especially to the President for 
renominating me for another term on the Corporation for Public 
Broadcasting Board. It has been a real honor and a pleasure to 
serve on this board, which has been very bipartisan and very 
supportive of the purposes of the act.
    When I appeared before you, more than 4 years ago, I noted 
that it was a very exciting time to be a part of public 
broadcasting. As I said then, our rapidly changing technology 
offers new opportunities to expand public broadcasting's 
educational mission and to reach even more diverse audiences 
than are already being reached today, two issues that I hold 
very dear to my heart.
    Since then, CPB, with strong support from the Board, has 
worked to take advantage of these opportunities. And I think 
that one sees this especially clearly in one package that we 
put together, ``Maya & Miguel,'' which is a new children's 
show, and I'd like to say a few things about that.
    We all know that the demographics of the United States are 
changing rapidly, with Latinos as the fastest-growing group. In 
the 1990s, the population of Latinos in the United States grew 
58 percent. But the impact of this change is even greater among 
children. Again, during the 1990s, Latino children accounted 
for more than half of the 8.7 million children added to the 
U.S. population. Clearly, learning to live and work in a 
multilingual, multicultural society must be a priority for us 
all.
    And this is where ``Maya & Miguel'' comes in. It is 
designed to support education goals, and specifically English-
language acquisition and usage, especially vocabulary. It 
targets an underserved children's audience, the six- to eight-
year-olds who have graduated, if you will, from Sesame Street. 
And in keeping with our commitment to technology, the show is 
accompanied by a content-rich website, all resources available 
both in English and in Spanish.
    In 2003, with the Board's strong support, CPB made a $9 
million grant to ``Maya & Miguel,'' which is the largest in 
CPB's history to a children's multimedia project. The show 
premiered last month, and I think it's already justifying our 
confidence.
    CPB may be unique in the breadth of its efforts to ensure 
that public broadcasting reflects the face of the entire 
American public. The organization funds five separate consortia 
to ensure cultural diversity in programming. They support 
extraordinary films and filmmakers, and we have supported a 
number of filmmakers who have won the MacArthur Genius Award.
    Such efforts to tap into the technology and talent of the 
future, however, only hint at the opportunities before us. 
Digital television and radio, for example, offer the promise, 
not only of better technical quality, but of a range of new 
services that can offer information and education on an 
unprecedented scale, especially to local producers, and 
especially in rural areas.
    As an educator, I take particular pride in the role that 
CPB plays in advancing the educational goals of all Americans. 
I have been involved in academia for 30 years and have taught 
in the United States and overseas, and now with the University 
of Maryland, and I believe that the educational role of CPB is 
primary.
    I also believe that my experience and world view will 
continue to be useful as we seek to address, as a group, the 
cultural and other issues that challenge us as a nation and as 
a world. I have also worked with the United States Information 
Agency, Radio Free Europe, Radio Marti, and held a number of 
positions in the executive branch, on which I will draw in my 
service to CPB. Much of my recent career has been spent 
researching and analyzing the impact of the global information 
revolution on localities in the United States and around the 
world.
    When I came to you 4 years ago, sir, I said I was a long-
term admirer of public broadcasting. My experience on the Board 
since then has only strengthened my high opinion of my 
colleagues on the Board and throughout the public broadcasting 
community. I believe that noncommercial, educational 
broadcasting is uniquely powerful in its ability to reach so 
many segments of our population. In recognizing both what 
unites us and divides us, public broadcasting adds to the 
strength of our Nation.
    I am deeply grateful for the opportunity to serve on the 
CPB board, and hope to be able to make a contribution in the 
future. Thank you very much, Senator, and to your colleagues.
    [The prepared statement and biographical information of Dr. 
Wilson follow:]

  Prepared Statement of Dr. Ernest J. Wilson III, Renominated to be a 
    Member, Board of Directors, Corporation for Public Broadcasting

    Thank you, Mr. Chairman and Members of the Committee. I want to 
express my gratitude for your holding this hearing, and also to the 
President for nominating me for another term on the Board of the 
Corporation for Public Broadcasting. It has been an honor to serve, and 
I look forward to the opportunity to do more to advance public 
broadcasting's work for the American people.
    When I appeared before you more than four years ago, I noted that 
it was an exciting time to be part of public broadcasting. As I said 
then, ``Our rapidly changing technology offers new opportunities to 
expand public broadcasting's educational mission and to reach even more 
diverse audiences than are already being reached today.''
    Since then, CPB, with strong support from the Board, has worked to 
take advantage of these opportunities. Let me offer one example that 
brings all three concerns--education, diversity, and technology--
together in one package, Maya & Miguel, a new children's show.
    We all know that the demographics of the United States are changing 
rapidly, with Latinos as the fastest growing group. In the 1990s, the 
population of Latinos in the United States grew 58 percent. But the 
impact of this change is even stronger among children: again, during 
the 90's, Latino children accounted for more than half of the 8.7 
million children added to the U.S. population. Clearly, learning to 
live and work in a multi-lingual, multicultural society must be a 
priority for all of us.
    That is where Maya & Miguel comes in. It is designed to support 
education goals, and specifically English language acquisition and 
usage, especially vocabulary. It targets an underserved children's 
audience--the six-to-eight-year-olds who have ``graduated'' from Sesame 
Street. And in keeping with our commitment to technology, the show is 
accompanied by a content-rich website--with all resources available in 
both English and Spanish. In 2003, with the Board's strong support, CPB 
made a $9 million grant to Maya & Miguel--the largest in CPB's history 
to a children's multi-media project. The show premiered last month, and 
I think it is already justifying our confidence.
    CPB may be unique in the breadth of its efforts to ensure that 
public broadcasting reflects the face of the public. The organization 
funds five separate consortia to ensure cultural diversity in 
programming. They all support extraordinary films and filmmakers, but I 
do think it is particularly notable that through the National Black 
Programming Consortium, CPB recognized the work of three MacArthur 
``genius'' fellows, most recently, Stanley Nelson in 2003.
    Such efforts to tap into the technology and talent of the future, 
however, only hint at the opportunities before us. Digital television 
and radio, for example, offer the promise not only of better technical 
quality, but of a range of new services that can offer information and 
education on an unprecedented scale. CPB is already soliciting 
proposals that can serve as prototypes for future efforts.
    As an educator, I take particular pride in the role CPB plays in 
advancing the educational goals of all Americans. I have been involved 
in academia for 30 years, beginning my career as a teacher abroad in 
the Congo and eventually teaching political science at the University 
of California, Berkeley; the University of Pennsylvania; and the 
University of Michigan, Ann Arbor. Currently, I am on the faculty at 
the University of Maryland, College Park.
    I also believe that my experience and worldview will continue to be 
useful as we seek to address the cultural and other issues that 
challenge us as a nation and a world. My resume includes work with the 
United States Information Agency (USIA), Radio Free Europe, and Radio 
Marti. I also have held numerous positions in the Executive Branch 
including the National Security Council and in the private sector with 
the Global Information Infrastructure Commission.
    Much of my recent career has been spent researching and analyzing 
the impact of the global information revolution. I am deeply engaged in 
studying the educational possibilities of digital technology. I have 
worked on the subject of the impact of information technology on 
society with research groups such as RAND and the Center for Strategic 
and International Studies (CSIS), and lectured at Harvard, George Mason 
University (GMU) in Virginia, and abroad.
    When I came to you four years ago, I said I was a long-time admirer 
of public broadcasting. My experience on the Board since then has only 
strengthened my high opinion of my colleagues throughout the public 
broadcasting community. I believe that non-commercial, educational 
broadcasting is uniquely powerful in its ability to reach so many 
segments of our population. In recognizing both what unites us and 
divides us, public broadcasting adds to the strength of our Nation. I 
am deeply grateful for the opportunity to serve on the CPB board, and 
hope to be able to make a contribution in the future.
    Again, I appreciate the opportunity to appear before you, and I 
will be happy to answer any questions you may have. Thank you.
                                 ______
                                 
                      A. BIOGRAPHICAL INFORMATION

    1. Name: (Include any former names or nicknames used.) Ernest James 
Wilson III; ``Chico.''
    2. Position to which nominated: Director, Corporation for Public 
Broadcasting Board.
    3. Date of nomination: November 16, 2004.
    4. Address: (List current place of residence and office addresses.)

    Residence: Information not released to the public.
    Office: CIDCM, University of Maryland, 0145 Tydings Hall, College 
Park, Maryland 20742.

    5. Date and place of birth: May 3, 1948 in Washington, D.C.
    6. Marital status: (Include maiden name of wife or husband's name.) 
Francille Rusan Wilson, wife.
    7. Names and ages of children: (Include stepchildren and children 
from previous marriages.) Malik Ernest Wilson (27); Rodney R.G. Wilson 
(19).
    8. Education: (List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.)

        Capitol Page School, Washington, D.C. from 09/1963 to 06/1966.
        Harvard University, Cambridge, MA from 09/1966 to 06/1970; B.A. 
        06/1970.
        University of California, Berkeley from 09/1972 to 06/1977; 
        M.A. 06/1973, Ph.D. 01/1978.

    9. Employment record: (List all jobs held since college, including 
the title or description of job, name of employer, location of work, 
and dates of employment.)

        Professor, University of Maryland at College Park, 08/1995 to 
        Present.

        Deputy Director, Global Information Infrastructure Commission, 
        Washington, D.C., 07/1994 to 08/1995.

        Director of Policy Planning, U.S. Information Agency, U.S. 
        Department of State, 02/1994 to 07/1994.

        Director, National Security Council, 01/1993 to 02/1994.

        Professor, University of Maryland at College Park, 07/1992 to 
        01/1993.

        Associate Professor, Department of Political Science, 
        University of Michigan, Ann Arbor, MI, 08/1987 to 06/1992.

        Assistant Professor. Department of Political Science, 
        University of Michigan, Ann Arbor, MI 08/1981 to 08/1986.

        Assistant Professor (on leave), Department of Political 
        Science, University of Pennsylvania, Philadelphia, Pennsylvania 
        (While on leave, was a Gilbert White Fellow at Resources for 
        the Future, Washington, D.C. and Post Doctoral Fellow, Kennedy 
        School of Government, Harvard University, Cambridge, MA 1980-
        1981.

        Assistant Professor, Department of Political Science and Energy 
        Management and Policy Program, School of Public and Urban 
        Policy, University of Pennsylvania, Philadelphia, Pennsylvania, 
        1977 to 1980.

        Acting Assistant Professor, Department of Afro-American 
        Studies, University of California, Berkeley. ``Afro-American 
        Political Strategies'' 1977.

        Editorial Assistant, The Black Scholar Magazine, Sausalito, CA 
        1976-1977 (graduate student, University of California, 
        Berkeley, 1972-77).

        Teaching Assistant, Department of Political Science, University 
        of California, Berkeley, 1974 to 1975.

        Field Research Worker, Survey Research Center, University of 
        California, Berkeley; Conducted and assisted in the evaluation 
        of social science survey in the Bay Area, 1972 to 1973.

        Legislative Assistant to Hon. Charles C. Diggs, Chairman, House 
        Subcommittee on Africa, 1972.

        National News Desk, The New York Times, Washington Bureau, 1971 
        to 1972.

        Teacher, L'Ecole Secondaire Lapsley, Kasai Oriental, Zaire. 
        Taught social studies in French, 1970 to 1972.

    10. Government experience: (List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.)

        Board Member, Corporation for Public Broadcasting. Nominated by 
        President William Clinton, Confirmed by U.S. Senate.

        Advisor on Africa Policy (unpaid), Congressional Black Caucus, 
        Washington, D.C.

        Consultant, Central Intelligence Agency, ``Educating the 
        Analyst of the 21st Century,'' Washington, D.C.

        Advisor, Development Gateway Foundation, World Bank.

    11. Business relationships: (List all positions held as an officer, 
director, trustee, partner, proprietor, agent, representative, or 
consultant of any corporation, company, firm, partnership. or other 
business enterprise, educational, or other institution.)

        Chair, Technical Advising Panel, infoDEV, World Bank, 2003-
        2006.

        Advisor, Quincy Jones Listen Up Foundation, Los Angeles, CA, 
        2001-Present.

        Senior Advisor, Global Information Infrastructure Commission, 
        Washington, D.C., 1996-Present.

        International Career Advancement Program, Aspen, CO, 2000-2004.

        Principal Investigator, African Telematics Project, USAID.

    12. Memberships: (List all memberships and offices held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.)

        Fellow, Center for Global Communications, International 
        University of Japan, 2000-Present.

        Member, Advisory Board, Office of International Affairs, 
        National Research Council, 1999-Present.

        Charter Invited Member, Pacific Council on International 
        Policy, 1998-Present.

        Member, Council on Foreign Relations.

        Editor-in-Chief, Information Technologies and International 
        Development.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate: None.

    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 10 
years.

        1992--Volunteer, Clinton for President Campaign.
        2000--Volunteer, Gore for President Campaign.
        2004--Volunteer, Kerry for President Campaign.

    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years.

        $1,000 to Gore for President, 1999.
        $250 to Elijah Cummings for Congress, 2004.
        $250 to Jamie Metzel for Congress, 2004.
        $250 to Kerry for President, 2004.

    14. Honors and awards: (List all scholarships, fellowships, 
honorary degrees, honorary society memberships, military medals, and 
any other special recognitions for outstanding service or 
achievements.)

        Senior Visiting Fellow in Public Diplomacy, Annenberg School, 
        University of Southern California, present.

        Professor-in-Residence and W.E.B. Du Bois Lecture, George Mason 
        University, 1998.

        Fellow, Center for Global Communications, Tokyo, Japan 1997.

        International Affairs Fellow, Council on Foreign Relations, 
        1985-1986.

        Outstanding Young Men of America, 1983.

        Grantee, ``Public Sector-Private Sector Relations in Africa,'' 
        National Science Foundation, 1983-1986.

        Gilbert White Fellow, Resources for the Future, Washington, 
        D.C. 1980-1981.

        Grantee, Rockefeller Family and Associates. ``The 
        Institutionalization of Alternative Energy Technologies in 
        Africa,'' 1979-1980.

        Post Doctoral Fellow, Southern Fellowship Fund, 1980.

        Ford Foundation Post Doctoral Fellow, Alternate, 1980.

        Post Doctoral Fellow, J.F. Kennedy School of Government and 
        Joint Fellow, Energy and Environmental Policy Center, and 
        Center for Science and International Affairs, Harvard 
        University, 1980.

        Andrew W. Mellon/Aspen Institute for Humanistic Studies Fellow, 
        1979-1980.

        Ford Foundation Doctoral Fellow, 1972-1976.

        University Consortium for World Order Studies Fellow, 1975-
        1976.

        Ford Foundation Middle East and Africa Research Fellowship for 
        Afro-Americans, 1975.

        First Prize, W.E.B. Dubois National Essay Award, 1975.

        African American Scholars Council Grantee, 1973.

        Ralph Bunche Fellowship, Finalist, 1973.

        Graduate Minority Program (Berkeley) Fellow, 1972.

        American Political Science Association, Fellow, 1972.

        Michael Clarke Rockefeller Fellow, 1970.

        Harvard Regular Scholarship, 1966-1970.

    15. Published writings: (List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.)

    Books and Monographs

        1. Negotiating the Net: The Politics of Internet Diffusion in 
        Africa, Ernest J. Wilson III and Kelvin R. Wong, eds. Boulder, 
        CO: Lynn Rienner Publishers, 2005.

        2. Governing Global Electronic Networks, William Drake and 
        Ernest J. Wilson III, eds. World Power and the Information 
        Revolution series. Cambridge, MA: MIT Press, 2005.

        3. The Information Revolution and Developing Countries, 
        Cambridge, MA: MIT Press, 2004.

        4. Diversity and U.S. Foreign Policy, New York, NY: Routledge 
        Press, 2004.

        5. ``Assessing the Research Responses to Y2K: Boom or Bust?'' 
        National Research Council, forthcoming.

        6. ``Are Poor Countries Losing the Information Revolution?'' 
        with Francisco Rodriguez, infoDev Working Paper, The World 
        Bank, Washington, D.C., May 2000.

        7. Globalization Information Technology, and Conflict in the 
        Second and Third Worlds, A Critical Review of Literature, 
        Project on World Security, New York: Rockefeller Brothers 
        Foundation, 1998.

        8. The United States and Africa: Toward A New Relationship, 
        with David F. Gordon, report of a study funded by the Ford 
        Foundation, published by the Center for International 
        Development and Conflict Management, College Park, MD, April 
        16, 1997.

        9. Co-Editor, National Information Initiatives: Political 
        Vision and Public Policy, Cambridge, MA: MIT Press, 1997 (with 
        Brian Kahin).

        10. Does the Global Information-Highway Lead to Africa? Center 
        for Strategic and International Studies CSIS Notes, Washington, 
        D.C., May 1996.

        11. The Decade of Energy Policy: Policy Analysis in Oil 
        Importing Countries, Ernest J. Wilson III and Paul Kemezis, New 
        York: Praeger, 1984.

    Chapters in Books

        1. ``Le Origini della Razionalita nella Societa della 
        Conoscenza,'' in Il Sonna della Rasione, Vision I Libri de 
        Reset, Rome, Italy, 2004

        2. ``The Intersection of Domestic and Global Determinants of 
        Electronic Networks,'' Concluding Chapter in William Drake and 
        Ernest J. Wilson, III, The Governance of Global Electronic 
        Networks, Cambridge, MA: MIT Press, 2005.

        3. ``Introducing Interests and Action into the Study of 
        Information and Communication Technology'' in Wilson and Wong, 
        Negotiating the Net, Boulder, CO: Lynne Rienner, 2005.

        4. ``What Social Science Theory Can Do For Policy Makers: The 
        Relevance of Theory For Foreign Policy'' in Miroslav Nincic and 
        Joseph Lepgold, eds. Being Useful: Policy Relevance and 
        International Relations Theory, Ann Arbor, MI: University of 
        Michigan Press, 2000.

        5. ``Economic Governance in Africa: New Directions for the 
        Organized Private Sector in Africa,'' in Public Sector, Private 
        Sector, and Economic Development, Ademola Arriyo, Ibadan: 
        Centre for Public-Private Cooperation, 1998.

        6. ``Can Business Associations Contribute to Development and 
        Democracy?'' with Richard Donor and Ben Schneider, in Business 
        and Democracy Cohabitation or Contradiction?, Ann Bernstein and 
        Peter L. Berger, eds. London: Pinter, 1998.

        7. ``The What, Why, Where and How of National Information 
        Initiatives'' in Brian Kahin and Ernest J. Wilson III, National 
        Information Infrastructure Initiatives: Vision and Policy 
        Design, Cambridge, MA: MIT Press, 1997.

    Journal Articles

        1. ``The Contribution of Leadership to the Information 
        Revolution in China,'' Ernest J. Wilson III and Duan Qing, 
        Journal of Contemporary China, forthcoming.

        2. ``What is Internet Governance and Where Does it Come From?'' 
        Journal of Public Policy, 2005.

        3. ``The Information Revolution in China: Critical Issues for 
        Analysis'' with Adam Segal, Asian Survey, forthcoming in 2005.

        4. ``The Status of the Information Revolution in Africa,'' 
        Ernest J. Wilson III and Kelly Wong, Telecommunications Policy, 
        2003.

        5. ``Scholarship and Practice in the Transition to a Knowledge 
        Society,'' Items and Issues (SSRC), Vol. 4, No. 2-3. Spring/
        Summer 2003.

        6. ``Wiring the African Economy,'' EM-Electronic Markets, v. 
        10, No. 2, November 2000.

        7. ``Take Next Steps to Narrow the Global Digital Divide,'' 
        Computer News, September 2000.

        8. ``Organizing Foreign Policy: A Pragmatic Approach to the 
        Information Revolution,'' Information IMPACTS, http://
        www.cisp.org/imp/, May 1999.

        9. ``New IT and Social Inequality in Africa: Resetting the 
        Research and Policy Agendas,'' with Rubin Patterson, The 
        Information Society, 16 (1), 2000.

        10. ``Development of National Information and Communications 
        Services, A Comparison of Malaysia and South Africa,'' Journal 
        of Developing Societies. Vol. XV, April 1999.

    16. Speeches: Provide the Committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of on topics relevant to the position for which you have been 
nominated: None.
        17. Selection:
    (a) Do you know why you were selected for the position to which you 
have been nominated by the President? I believe my four years of 
experience on the Board of Public Broadcasting led the President to 
nominate me. In addition. I have experience working with Radio Free 
Europe, Radio Liberty, Voice of America and other international public 
broadcasting bodies, as well as my publishing and professional work on 
the information revolution.

    (b) What in your background or employment experience do you believe 
affirmatively qualifies you for this particular appointment? I believe 
that my experiences with U.S. and international public broadcasting, my 
knowledge of digitalization and globalization, and my commitments to 
reducing the ``digital divide'' and to diversity qualify me for 
membership on the Board.

                   B. FUTURE EMPLOYMENT RELATIONSHIPS

    1. Will you sever all connections with your present employers, 
business firms, business associations, or business organizations if you 
are confirmed by the Senate? Not applicable.
    2. Do you have any plans, commitments, or agreements to pursue 
outside employment, with or without compensation, during your service 
with the government? Not applicable.
    3. Do you have any plans, commitments, or agreements after 
completing government service to resume employment, affiliation, or 
practice with your previous employers, business firms, associations, or 
organizations? Not applicable.
    4. Has anybody made a commitment to employ your services in any 
capacity after you leave government service? Not applicable.
    5. If confirmed, do you expect to serve out your full term or until 
the next Presidential election, whichever is applicable? I intend to 
carry-out my full term.

                   C. POTENTIAL CONFLICTS OF INTEREST

    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers: None.
    2. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated: None.
    3. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent. that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated: None.
    4. Describe any activity during the past 10 years in which you have 
engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy: None.
    5. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items. (Please provide a copy of any trust or other agreements.) I will 
consult with the appropriate officers at the CPB.
    6. Do you agree to have written opinions provided to the Committee 
by the designated agency ethics officer of the agency to which you are 
nominated and by the Office of Government Ethics concerning potential 
conflicts of interest or any legal impediments to your serving in this 
position? Yes.

                            D. LEGAL MATTERS

    1. Have you ever been disciplined or cited for a breach of ethics 
by. or been the subject of a complaint to any court. administrative 
agency, professional association, disciplinary committee, or other 
professional group? No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority for violation of 
any Federal, State, county, or municipal law, regulation, or ordinance, 
other than for a minor traffic offense? No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere ) of any criminal violation other than a minor traffic 
offense? No.
    5. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination: None.

                     E. RELATIONSHIP WITH COMMITTEE

    1. Will you ensure that your board/commission complies with 
deadlines for information set by congressional committees? Yes.
    2. Will you ensure that your board/commission does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.

                  F. GENERAL QUALIFICATIONS AND VIEWS

    1. How does your previous professional experiences and education 
qualify you for the position for which you have been nominated?
    I believe that my professional and academic background qualifies me 
for the position on the CPB Board. My professional career encompasses 
more than 25 years of engagement with public and international affairs, 
in particular on globalization and information technology. I have just 
published a book with MIT Press on information technology and the 
digital divide in developing countries. My experience in broadcasting 
includes work with the United States Information Agency, Radio Free 
Europe, and Radio Marti on modernization and consolidation. I am also 
deeply engaged in studying the educational possibilities with digital 
technology, including distance education.
    I have held numerous posts within the executive branch that will 
help me perform well on the CPB Board of Directors. I served as the 
Director of International Programs and Resources on the National 
Security Council, and Director of the Policy and Planning Unit, Office 
of the Director, USIA. In the private/NGO sector, I was Deputy Director 
of the Global Information Infrastructure Commission. My professional 
and academic career has taken has taken me to live on the East and West 
Coasts and in the Midwest. I have a Ph.D. from the University of 
California, Berkeley and a bachelor's degree from Harvard University. I 
have a unique perspective on public policy issues based on my 
experiences.
    I currently serve on the faculty at the University of Maryland, 
College Park. I have also held faculty positions at the University of 
Michigan, Ann Arbor and the University of Pennsylvania.
    2. Why do you wish to serve in the position for which you have been 
nominated?
    I want to serve the Nation in an area where I have expertise, 
particularly in the policy area of the emerging technology of digital 
media convergence. The technological changes now taking place are 
important to the United States. I believe my expertise in this area is 
well-suited for the position for which I have been nominated.
    3. What goals have you established for your first two years in this 
position, if confirmed?
    I am particularly interested in public broadcasting's role in 
digitalization, the digital divide, diversity, and education. I would 
like to help further public broadcasting's leadership in these areas 
and to help the CPB think strategically about these issues, including 
the area of public engagement.
    4. What skills do you believe you may be lacking which may be 
necessary to successfully carry out this position? What steps can be 
taken to obtain those skills?
    I believe I have all the skills necessary to successfully fill the 
position. At the same time, I look forward to expanding my knowledge of 
public broadcasting. For example, I intend to learn more about the 
broadcasting activities and contributions of local public television 
stations, as well as the non-broadcast services these stations provide 
to their communities.
    5. Please discuss your philosophical views on the role of 
government. Include a discussion of when you believe the government 
should involve itself in the private sector, when society's problems 
should be left to the private sector, and what standards should be used 
to determine when a government program is no longer necessary.
    I believe in partnerships, for example, public/private sector 
partnerships. The government should set the parameters and can 
contribute in instances where the private sector cannot. I believe in a 
competitive marketplace, but in some instances certain societal 
objectives cannot readily nor feasibly be achieved by the private 
sector. Government programs should be judged on their effectiveness and 
efficiency. If certain programs do not meet these standards, I do not 
believe they should be automatically extended. I write and lecture 
around the world on the importance of private-public-educational 
partnerships.
    6. Describe the current mission, major programs, and major 
operational objectives of the board/commission to which you have been 
nominated.
    CPB was established to facilitate the full development of 
programming of high quality, diversity, creativity, excellence, and 
innovation from diverse sources. CPB is committed to continued funding 
of the highest quality programming on television and radio. CPB has 
also made education, diversity, and conversion to digital technology 
its top priorities.
    7. What do you believe to be the top three challenges facing the 
board/commission and why?

        (1) Declining public television market share.
        (2) Introduction of new technologies.
        (3) Enhancing our capacity to think strategically about these 
        issues.

    8. In reference to question number six, what factors in your 
opinion have kept the board/commission from achieving its missions over 
the past several years?

        (1) Inadequate funding.
        (2) Out-moded market-testing and production system.
        (3) Speed of technological changes.

    9. Who are the stakeholders in the work of this board/commission?

        Viewing/listening public; public television and radio stations.
        Educational institutions; elected officials.

    10. What is the proper relationship between the position to which 
you have been nominated, and the stakeholders identified in question 
number nine?
    The position holder should be sensitive and attentive to their 
concerns, while maintaining professional balance and integrity. One 
must also be aware of the growing opportunities for partnerships among 
the stakeholders.
    11. Please describe your philosophy of supervisor/employee 
relationships. Generally, what supervisory model do you follow? Have 
any employee complaints been brought against you?
    No complaints have been brought against me. I believe strongly that 
supervisors should view employees as partners in a common enterprise.
    12. Describe your working relationship, if any, with the Congress. 
Does your professional experience include working with committees of 
Congress? If yes, please explain.
    I worked actively on Capitol Hill as a Legislative Assistant, so I 
know Congress' important work. 1 have testified several times before 
Congress and respect its right to supervise boards and commissions. 
When at the White House, I consulted widely with Congressional staff.
    13. In the areas under the board/commission jurisdiction to which 
you have been nominated, what legislative action(s) should Congress 
consider as priorities? Please state your personal views.
    Increasing the level and support for funding public broadcasting.
    14. Please discuss your views on the appropriate relationship 
between a voting member of an independent board or commission and the 
wishes of a particular president.
    My experience on an independent board is to be respectful of the 
wishes and policies of the President, yet ultimately to be guided by my 
professional judgments and conscience.

    The Chairman. Thank you, Dr. Wilson.
    Ms. Puig?

        STATEMENT OF CLAUDIA PUIG, RENOMINATED TO BE A 
          MEMBER, BOARD OF DIRECTORS, CORPORATION FOR 
                      PUBLIC BROADCASTING

    Ms. Puig. Thank you. I'm very honored to be here today.
    Mr. Chairman and Members of the Committee, thank you for 
the opportunity to appear before you today to discuss my 
nomination to the Board of Directors of the Corporation for 
Public Broadcasting. I would also like to express my deep 
gratitude to the President for nominating me.
    I was born in Havana, Cuba, and arrived in this country as 
an 8-year-old girl. It was shortly after the Bay of Pigs, where 
my father was executed by Castro's firing squad and my mother 
was imprisoned in their struggle to bring freedom to Cuba. My 
mother, brother, sisters, and I were given political asylum in 
this great country. Neither I nor my three younger siblings 
spoke a word of English when we arrived, in 1961.
    As an immigrant, I understand very well the challenges of 
the newcomers that they face when they arrive in this country. 
Public broadcasting can serve as an important vehicle to help 
educate, inform, and serve the needs of this growing sector of 
the population.
    My professional experience over the last 20 years has been 
in Spanish-language commercial radio, marketing, and 
promotions. As Senior Vice President Eastern Regional Manager 
of Univision Radio, I am responsible for all aspects of the 
operations, from programming to financial, of radio stations in 
key Hispanic markets, like in Miami, New York, and Puerto Rico. 
As you know, the Hispanic population is the fastest-growing 
segment of the U.S. population, and I have a great 
understanding of its needs, interests, and of the best way of 
reaching it.
    This country has given me many wonderful opportunities, 
including the ability to serve actively on various boards, such 
as Florida International University Board of Trustees, United 
Way Board of Trustees, The American Cancer Society Hispanic 
Board, The Florida Broadcasters Association, The Orange Bowl 
Committee, New American Alliance, among others.
    I truly believe that public broadcasting plays a unique 
role in education. It can transcend the limitations that are 
placed on commercial broadcast outlets and offer high-quality 
entertainment, information, and programs that enlighten, 
inform, and enrich our communities.
    I am very much drawn to public broadcasting for its 
commitment to provide high-quality educational programming, and 
especially award-winning children's programs, from Sesame 
Street to Between the Lions, which helps children learn to 
read. Equally important, PBS provides educational opportunities 
to all members of the community by offering instructional, 
informational, and cultural programs.
    Public radio also provides the American public with in-
depth quality news and programming, day to day. As a board 
member for less than a year, I have become very impressed with 
the public's opinions about public radio as one of the most 
trustworthy and in-depth providers of news around the world.
    This is a very exciting and challenging time to be part of 
public broadcasting. Technology is rapidly changing, making it 
possible for public broadcasting to reach more people and to 
empower new voices. I believe that digital technology offers 
public broadcasting even more opportunities to provide programs 
that reflect the diversity--culture of America. Through digital 
technology, both public radio and television stations will have 
more channels to broadcast simultaneously programs that appeal 
to different audiences, age groups, needs, and interests.
    If confirmed to this position, I will work very hard to 
ensure that CPB continues to be a leader in responding to 
emerging technologies and developing multimedia platforms that 
are consistent with the public broadcasting criteria.
    From emergency notification to emergency services, the 
opportunities are many. I would also work to ensure that the 
public broadcasting remains committed to the development of 
high-quality programming that represents all the segments of 
the public interest and means.
    Serving Americans effectively requires public broadcasters 
to take advantage of new technology and to provide continued 
high-quality programming, but it requires something more, as 
well--a key understanding of how America is changing. Public 
broadcasters, like all broadcasters, face the challenge of an 
America that is growing increasingly diverse. As a Hispanic 
woman with years of experience in reaching diverse markets and 
years of experience in diverse workplaces, I believe that both 
my business experience and my personal life experience will 
help CPB to respond to the needs of an increasingly diverse 
population.
    Thank you, again, for the opportunity to appear here before 
you today, and I'm happy to respond to any questions that you 
may have.
    [The prepared statement and biographical information of Ms. 
Puig follow:]

 Prepared Statement of Claudia Puig, Renominated to be a Member, Board 
           of Directors, Corporation for Public Broadcasting

    Mr. Chairman and Members of the Committee, thank you for the 
opportunity to appear before you today to discuss my nomination to the 
Board of Directors of the Corporation for Public Broadcasting. I would 
also like to express my deep gratitude to the President for nominating 
me.
    I was born in Cuba, and arrived in this country as an 8-year-old 
girl. It was shortly after the Bay of Pigs, where my father was 
executed by Castro's firing squad and my mother was imprisoned in their 
struggle to bring freedom to Cuba. My mother, brother, sisters and I 
were given political asylum to this country. Neither I nor my three 
younger siblings spoke a word of English when we arrived in 1961. As an 
immigrant, I understand well the challenges that newcomers face when 
they arrive. Public broadcasting can serve as an important vehicle to 
help educate, inform and serve the needs of this growing sector of the 
population.
    My professional experience over the last 20 years has been in 
Spanish-language commercial radio, marketing and promotions. As Senior 
Vice President/Eastern Regional Manager of Univision Radio, I am 
responsible for all aspects of operations--from programming to 
financial--of radio stations in key Hispanic markets like in Miami, New 
York, and Puerto Rico. As you know, the Hispanic population is the 
fastest growing segment of the U.S. population, and I have a great 
understanding of its needs. interests and to the best ways to reach it.
    This country has given me many wonderful opportunities including 
the ability to serve actively on various boards including Florida 
International University Board of Trustees, United Way Board of 
Trustees, The American Cancer Society Hispanic Board, the Florida 
Broadcasters Association, the Orange Bowl Committee, New American 
Alliance, and others.
    I truly believe that public broadcasting plays a unique role in 
education. It can transcend the limitations that are place on 
commercial broadcast outlets and offer high quality entertainment and 
information programs that enlighten, inform and enrich our communities. 
I am drawn to public broadcasting for its commitment to provide high 
quality educational programming and especially award winning children's 
programs from Sesame Street to Between the Lions, which helps young 
children learn to read. Equally important, PBS provides educational 
opportunities to all members of the community by offering 
instructional, informational and cultural programs.
    Public radio also provides the American public with in-depth, 
quality news and programming day after day. As a Board member for less 
than a year, I have become very impressed with the public's opinion 
about public radio as one of the more trust worthy and in-depth 
providers of news around the world.
    This is a very exciting and challenging time to be part of public 
broadcasting. Technology is rapidly changing, making it possible for 
public broadcasting to reach more people and to empower new voices. I 
believe that digital technology offers public broadcasting even more 
opportunities to provide programs that reflect the diversity and 
culture of America. Thru digital technology, both public radio and 
television stations will have more channels to broadcast simultaneously 
programs that appeal to different audiences. age groups, needs or 
interests.
    If confirmed to this position, I will work to ensure that CPB 
continues to be a leader in responding to emerging technologies and 
developing multi media platforms that are consistent with the public 
broadcasting criteria. From emergency notification to emergency 
services, the opportunities are many. I would also work to ensure that 
public broadcasting remains committed to the development of high 
quality programming that represents all segments of the public interest 
and needs.
    Serving Americans effectively requires public broadcasters to take 
advantage of new technology and to provide continued high quality 
programming. But it requires something more as well--an understanding 
of how America is changing.
    Public broadcasters, like all broadcasters, face the challenge of 
an America that is growing increasingly diverse. As a Hispanic woman 
with years of experience in reaching diverse markets--and years of 
experience in diverse workplaces--I believe that both my business 
experience and my life experience will help CPB to respond to the needs 
of an increasingly diverse population.
    Thank you again for the opportunity to appear before you today. I'm 
happy to respond to any questions that you may have.
                                 ______
                                 
                      A. BIOGRAPHICAL INFORMATION

    1. Name: (Include any former names or nicknames used.)

        Claudia Puig.
        Claudia Amundsen.
        Claudia Cambo.

    2. Position to which nominated: Member of the Board of Directors of 
the Corporation for Public Broadcasting.
    3. Date of nomination: January 9, 2003 and again on January 21, 
2004 after following recess appointment of December 26, 2003.
    4. Address: (List current place of residence and office addresses.)

        Residence: Information not released to the public.
        Office: 800 Douglas Rd., Annex Bldg., Suite 111 Coral Gables, 
        FL 33134.
    5. Date and place of birth: June 12, 1952, Havana, Cuba.
    6. Marital status: (Include maiden name of wife or husband's name.) 
Married--Amundsen.
    7. Names and ages of children: (Include stepchildren and children 
from previous marriages.)
        Mario A. Cambo (29), son.
        Merideth Amundsen (21), stepdaughter.
        Richard G. Amundsen (26), stepson.

    8. Education: (List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.)

        Miami Dade Community, 8/19/1975-7/19/1979--Graduated AA.
        Florida International University, 1980-1981--Business Admin./
        Mkt.
        Barry College--Furthering education.

    9. Employment record: (List all jobs held since college, including 
the title or description of job, name of employer, location of work, 
and dates of employment.)

        2/2003 to Present: Senior VP/Regional Manager/East Coast--NY, 
        Mia, PR Univision Radio (former HBC),
        800 Douglas Rd., Annex Bldg., Suite 111,
        Coral Gables, FL 33134.

        4/01/1997-2/2003: VP/General Manager, Heftel Broadcasting 
        Corp.,
        2828 Coral Way,
        Coral Gables, FL 33134.

        11/1996-3/31/1997: General Sales Manager, Heftel Broadcasting 
        Corp.,
        2828 Coral Way,
        Coral Gables, FL 33134.

        6/1/1994-11/1996: General Manager, Spanish Broadcasting System,
        1001 Ponce de Leon,
        Coral Gables, FL 33134.

        9/1991-6/1994: General Sales Manager, Spanish Broadcasting 
        System,
        2828 Coral Way,
        Miami, FL 33145.

        7/1990-8/1991: VP of Network, Spanish Broadcasting System,
        1001 Ponce de Leon,
        Coral Gables, FL 33134.

        10/1985-2/1990: General Sales Manager, Spanish Broadcasting 
        System,
        1001 Ponce de Leon,
        Coral Gables, FL 33134.

        1981-1984: Sales Representative, Bellsouth Advertising 
        Publishing Co.,

        1979-1980: Center for Latino Education.

        1971-1978: Teller/Loan officer, Financial Federal Savings & 
        Loan,
        57th & 7th NW Miami Beach Branch.

    10. Government experience: (List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.)

        Board of Directors, Corporation for Public Broadcasting, 
        December 2003 to present.

        Miami Mayor Manny Diaz' appointment to Arts and Entertainment 
        Council, 2002 to present.

    11. Business relationships: (List all positions held as an officer, 
director, trustee, partner, proprietor, agent, representative, or 
consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.)
    Besides my full time position at Univision Radio, all the other 
relationships are with civic organizations. I am currently involved in 
the following civic organizations: Pfizer Hispanic Board and Merrill 
Lynch Hispanic Board.
    12. Memberships: (List all memberships and offices held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.)
    Florida International University Board of Trustees, American Cancer 
Society Hispanic Board, United Way Board of Trustees, Orange Bowl 
Committee Member and Arts & Entertainment Council.
    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate: N/A.

    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 10 
years: Member of the Republican Party.

    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years:

        2004         George Bush
        2004         Anitere Flores
        11/02/02      Ileana Ros Lethinen
        11/02/02      Mario Diaz Balart
        08/11/02      New Republican Majority Fund
        08/01/02      Jose Diaz Campaign
        07/01/02      David Rivera
        06/01/02      Ileana Ros Lethinen
        05/07/02      Lincoln Diaz Balart
        11/18/01      Friends of Katherine Harris
        08/21/01      RCN
        03/20/01      Joe Sanchez
        01/29/01      Republican Party
        07/22/00      AHR Pac
        07/03/00      Katherine Fernandez Rundle
        05/09/00      Friends of Giuliani
        02/02/00      Alex Penelas
        01/10/00      George Bush

    14. Honors and awards: (List all scholarships, fellowships, 
honorary degrees, honorary society memberships, military medals, and 
any other special recognitions for outstanding service or 
achievements.)

        Miami Dade Community College Honor Society (PHI Theta Kappa).
        HBC General Manager of the Year 2002.
        Bellsouth Elite Sales Club.

    15. Published writings: (List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written:) N/A.
    16. Speeches: Provide the Committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of on topics relevant to the position for which you have been 
nominated:
    As VP of Univision Radio, I address my employees, make client 
presentations, and Wall Street presentation related to my position. In 
general, all executives are encouraged to maintain a low profile.
    17. Selection:
    (a) Do you know why you were selected for the position to which you 
have been nominated by the President?
    I have a career of over twenty years of continued success in 
Spanish language radio in Miami and New York. My broadcast experience 
will perhaps be of service in this position.

    (b) What in your background or employment experience do you believe 
affirmatively qualifies you for this particular appointment?
    I have many years of radio broadcast experience and a strong 
advertising and promotional background. Specifically. I have a great 
understanding of the Hispanic market and how to reach it. The Hispanic 
market is the fastest growing market in the U.S.

                   B. FUTURE EMPLOYMENT RELATIONSHIPS

    1. Will you sever all connections with your present employers. 
business firms, business associations, or business organizations if you 
are confirmed by the Senate? N/A.
    2. Do you have any plans, commitments, or agreements to pursue 
outside employment, with or without compensation, during your service 
with the government? N/A.
    3. Do you have any plans, commitments, or agreements after 
completing government service to resume employment, affiliation, or 
practice with your previous employers, business firms, associations, or 
organizations? N/A.
    4. Has anybody made a commitment to employ your services in any 
capacity after you leave government service? N/A.
    5. If confirmed, do you expect to serve out your full term or until 
the next Presidential election, whichever is applicable? N/A.

                   C. POTENTIAL CONFLICTS OF INTEREST

    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers: N/A.
    2. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated: I am not aware of any 
possible conflict of interest.
    3. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated?
    I am not aware of any possible conflict of interest.
    4. Describe any activity during the past 10 years in which you have 
engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy:
    To the best of my knowledge, I have not engaged in any activity 
which could represent a conflict of interest.
    5. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items. (Please provide a copy of any trust or other agreements.)
    If I become aware or perceive any future situation, which may 
create a conflict of interest, I would disclose it.
    6. Do you agree to have written opinions provided to the Committee 
by the designated agency ethics officer of the agency to which you are 
nominated and by the Office of Government Ethics concerning potential 
conflicts of interest or any legal impediments to your serving in this 
position? Yes.

                            D. LEGAL MATTERS

    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority for violation of 
any Federal, State, county, or municipal law, regulation, or ordinance, 
other than for a minor traffic offense? No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain?
    My company and I, like my previous employers, by virtue of the 
nature of our business is regularly involved in civil litigation, which 
are business disputes, including collection of accounts receivable, 
which disputes are resolved if not settled by the civil courts. As the 
Manager, it is my responsibility to represent the interests of the 
company in such routine civil litigation. In addition, my previous 
employer and I were involved in a business dispute concerning a 
covenant not to compete. Also, because the company operates radio 
stations licensed by the Federal Communications Commission, we are 
involved in that agency's routine administrative licensing proceedings 
from time to time.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere ) of any criminal violation other than a minor traffic 
offense? No.
    5. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination. None.

                     E. RELATIONSHIP WITH COMMITTEE

    1. Will you ensure that your board/commission complies with 
deadlines for information set by congressional committees? Yes.
    2. Will you ensure that your board/commission does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.

                  F. GENERAL QUALIFICATIONS AND VIEWS

    1. How does your previous professional experiences mid education 
qualify you for the position for which you have been nominated?
    Since 1984 I have been working in Spanish language commercial 
radio. In the last ten years I have been responsible for all aspects of 
the operations of radio stations groups from programming to the profit 
and loss statements. I have taken various radio industry courses with 
the Radio Advertising Bureau, and Management training and coaching from 
Dr. John F. Kennedy of Notre Dame University. Today, I have a good 
solid understanding of the operations of a broadcast facility and have 
enjoyed a successful track record as an operator.
    2. Why do you wish to serve in the position for which you have been 
nominated?
    I believe in the unique role that public broadcasting plays as an 
educational element, that enlightens, informs and enriches our 
communities through entertainment and information programs that 
transcend the limitations, which are placed on commercial broadcast 
outlets.
    3. What goals have you established for your first two years in this 
position, if confirmed?
    If confirmed, I would like to become more familiar with how public 
broadcasting functions, the extent and nature of its resources and how 
funding decisions are made. In addition, I would possibly review other 
similar programs in the United Kingdom, Spain and Latin America and use 
all of this knowledge, together with my own experience in the 
broadcasting industry, to assess public broadcasting's needs, to 
identify possible new opportunities and to offer CPB appropriate 
advice.
    4 What skills do you believe you may be lacking which may be 
necessary to successfully carry out this position? What steps can be 
taken to obtain those skills?
    English being my second language, I believe my public speaking 
skills could stand improvement. I have taken a Dale Carnegie course to 
strengthen my abilities as a speaker and plan to continue seeking 
professional training to improve these skills. Also, increase my 
knowledge of Television acquisition and programming.
    5. Please discuss your philosophical views on the role of 
government. Include a discussion of when you believe the government 
should involve itself in the private sector, when society's problems 
should be left to the private sector, and what standards should be used 
to determine when a government program is no longer necessary.
    I believe that a government ``govern best when it governs least.'' 
Government should be involved in the private sector only if there are 
manifest injustices or Public needs, which the market place cannot or 
does not meet. Government should not intervene where the private sector 
is able to resolve its issues, has effective and safe methods of 
dealing with such issues. Government programs are no longer necessary 
when the private sector develops the appropriate safeguards to regulate 
itself in an effective and fair manner. I believe that the government 
should use the following standards to determine if a program in no 
longer necessary: (I.) what public interest does the program meet? (ii) 
Are the private alternatives reasonably accessible to the public? (iii) 
Are the costs of the program reasonable in relation to the need? (iv) 
Does the public interest continue to exist sufficient to justify 
government investment? and (vi) Does the programming meet the 
manifested general public interest, including needs of those unserved 
or underserved?
    6. Describe the current mission, major programs, and major 
operational objectives of the board/commission to which you have been 
nominated.

        Continue to develop high quality programming that is 
        representative of public interests and needs.

    Strengthening the local role of public broadcasting stations as 
vibrant community institutions.

        Developing multi-media platforms that are consistent with the 
        public broadcasting criteria.

        Increasing support for public broadcasting among opinion 
        leaders.

        Providing a public forum for broad based communication.

    7. What do you believe to be the top three challenges facing the 
board/commission and why?
    I believe the top three challenges to the Board are: (i) to support 
the development of relevant, credible well-done and exciting 
programming: (ii) to make sure that such programming is relevant to the 
emerging needs and demands of an increasingly segmented and ethnically 
diverse audience; and (iii) to ensure that there is a strong financial 
foundation for public broadcasting by assisting the public broadcasting 
system a s a whole and individual stations in increasing economic 
stability with funding from multiple sources.
    8. In reference to question number six, what factors in your 
opinion have kept the board/commission from achieving its missions over 
the past several years? I believe they are doing a very good job 
however, responding to market changes and trends is an ongoing process, 
or as the consumer/citizen base changes in ethnic diversity.
    9. Who are the stakeholders in the work of this board/commission?
    First and foremost, the American public, and, of course, the 
Nation's public broadcasting system and individual stations.
    10. What is the proper relationship between the position to which 
you have been nominated, and the stakeholders identified in question 
number nine?
    Neither I nor any person in my family has any personal financial 
interest in any public broadcasting station or program. I believe my 
job would be to help NPR stations in their fund raising efforts.
    11. Please describe your philosophy of supervisor/employee 
relationships. Generally, what supervisory model do you follow? Have 
any employee complaints been brought against you?
    My philosophy of supervisor/employee relationships is to create a 
harmonious and nurturing work environment where employee creativity, 
energy and growth are encouraged and rewarded. No complaints or 
grievances have ever been brought against me.
    12. Describe your working relationship, if any, with the Congress. 
Does your professional experience include working with committees of 
Congress? If yes, please explain: My working relationship with the 
Congress extends to our South Florida Representatives, Ileana Ros-
Lehtinen, Lincoln and Mario Diaz-Balart. I have never worked with a 
congressional committee.
    13. In the areas under the board/commission jurisdiction to which 
you have been nominated, what legislative action(s) should Congress 
consider as priorities? Please state your personal views.
    I am not familiar with the current legislative actions of the 
Committee, but if confirmed I will work to better understand those 
priorities.
    14. Please discuss your views on the appropriate relationship 
between a voting member of an independent board or commission and the 
wishes of a particular president. A board member is a fiduciary of the 
public. The views of the President and the Congress must be given due 
consideration; however, in the end I must exercise independent judgment 
consistent with the provisions of the Public Broadcasting Act.

    The Chairman. Thank you.
    Ms. Gaines?

         STATEMENT OF GAY HART GAINES, NOMINEE TO BE A 
          MEMBER, BOARD OF DIRECTORS, CORPORATION FOR 
                      PUBLIC BROADCASTING

    Ms. Gaines. Mr. Chairman and Members of the Commerce 
Committee, thank you very much for the opportunity to appear 
before you today to discuss my nomination to the Board of 
Directors of the Corporation for Public Broadcasting.
    I would also like to express my gratitude to President Bush 
for nominating me to the Board and for giving me this 
opportunity to serve the public.
    I come to the board of CPB as someone who grew up all over 
the world, and who has lived all over the United States since 
marrying my husband, Stanley, in 1959. Wherever I have lived, I 
have been involved in civic and cultural endeavors that reflect 
my deep interest in education, American history, civic life, 
and the arts. Through these efforts, I have gained a broad 
perspective on the interests and needs of people across our 
great country. I know firsthand that the residents of big 
cities, which I have lived in, like Chicago and Los Angeles and 
Minneapolis, live differently than the people in towns like 
Hebron, Ohio, or Leadville, Colorado. Certainly, the remotest 
areas of Senator McCain's Arizona and Senator Stevens' Alaska 
present challenges that many of us can hardly imagine, where 
public broadcasting is the only link to news, information, and 
excellent children's and cultural programming. Public 
broadcasting offers tremendous service at the community level, 
responding to local differences and meeting local needs. Having 
attended this year's five board meetings, I can assure you that 
the CPB board values and respects this diversity.
    Throughout the United States, public broadcasting is free 
of charge and devoid of commercial interruptions. This has been 
personally important to me, particularly with regard to 
children's programming. My four children watched Sesame Street, 
and the younger two, Mister Rogers, and now my eight, and soon 
to be nine, grandchildren are safely watching many of the same 
shows, as well. And I watch so many of us--like so many of us, 
have been entertained and informed and inspired by programs 
like Masterpiece Theater, Nova, and The News Hour.
    If I am confirmed to the board of CPB, my goal would be to 
strengthen and support public broadcasting at every level. My 
commitment to diversity and values would be the same as my 
commitment to George Washington's home, Mount Vernon, where I 
was recently elected regent.
    One of our most important goals at Mount Vernon is to teach 
the nearly one million annual visitors about the life and 
character of our first great President. In fact, as the Florida 
representative on the board, I raised the necessary funds that 
will allow 12 Florida school teachers to come to Mount Vernon 
for 1 week each summer, in perpetuity, to study Washington's 
life. I also partnered with the Palm Beach Post to pay for a 
Florida history lesson to be distributed to all fourth-grade 
students in Palm Beach County in 2003-2004.
    I believe that knowing and understanding our own history is 
one of the most important ways we have to transmit American 
values. I am passionately interested in education, and have 
been for a long time. Education is the tool that opens minds 
and opportunities to all Americans.
    If I am confirmed, I will be totally committed to public 
broadcasting's role of providing excellence in learning, not 
only for children, but for Americans of all age.
    Although we live in dangerous times, Americans have the 
freedom to be risk-taking and creative and bold. The 
Corporation for Public Broadcasting can promote innovation and 
creativity while always remembering that public broadcasting 
belongs to the American people.
    I would consider it an honor to serve on this distinguished 
board and to have the opportunity to bring a wide range of 
ideas to public broadcasting.
    Mr. Chairman, thank you, and I'll be happy to answer any 
questions you may have.
    [The prepared statement and biographical information of Ms. 
Gaines follow:]

Prepared Statement of Gay Hart Gaines, Nominee to be a Member, Board of 
             Directors, Corporation for Public Broadcasting

    Mr. Chairman and Members of the Commerce Committee, thank you very 
much for the opportunity to appear before you today to discuss my 
nomination to the board of the Corporation for Public Broadcasting. I 
would also like to express my gratitude to President Bush for 
nominating me to the Board, and for giving me this opportunity to serve 
the public.
    I come to the board of CPB as someone who has lived all over the 
world growing up, and who has lived all over the United States since 
marrying my husband Stanley in 1959. Wherever I have lived, I have been 
involved in civic and cultural endeavors that reflect my deep interest 
in education, American history, civic life, and the arts. Through these 
efforts, I have gained a broad perspective on the interests and needs 
of people across our great country.
    I know first-hand that the residents of big cities in which I've 
lived, like Chicago, Los Angeles and Minneapolis, live differently than 
people in towns like Hebron, Ohio or Leadville, Colorado. Certainly, 
the remotest areas of Senator McCain's Arizona or Senator Stevens' 
Alaska present challenges many of us can hardly imagine, where public 
broadcasting is the only link to news, information and excellent 
children's and cultural programming. Public broadcasting offers 
tremendous service at the community level, responding to local 
differences and meeting local needs. Having attended this year's five 
board meetings, I can assure you that CPB board values and respects 
this diversity.
    Throughout the United States, public broadcasting is free of charge 
and devoid of commercial interruptions. This has been personally 
important to me, particularly with regard to children's programming. My 
four children watched Mr. Rogers and Sesame Street; now my eight (and 
soon to be nine!) grandchildren are safely watching many of the same 
shows as well. But I, as well as so many of us, have been entertained 
and inspired over the years by programs like Masterpiece Theater, NOVA 
and NewsHour.
    If I am confirmed to the board of CPB, my goal would be to 
strengthen and support public broadcasting at every level. My 
commitment to diversity and values would be the same as my commitment 
to George Washington's home, Mount Vernon, where I was recently elected 
Regent.
    One of our most important goals at Mount Vernon is to teach the 
nearly 1 million annual visitors about the life and character of our 
first great president. In fact, as the Florida representative on the 
board, I raised the necessary funds that will allow 12 Florida teachers 
to come to Mount Vernon for one week each summer in perpetuity to study 
Washington's life. I also partnered with the Palm Beach Post to pay for 
a Florida history lesson to be distributed to all 4th grade students in 
Palm Beach County.
    I believe that knowing and understanding our own history is one of 
the most important ways we have to transmit American values. I am 
passionately interested in education and have been for a long time. 
Education is the tool that opens minds and opportunities to all 
Americans. If I am confirmed, I will be totally committed to public 
broadcasting's role of providing excellence in learning not only for 
children but for Americans of every age.
    Although we live in dangerous times, Americans have the freedom to 
be risk-taking, creative and bold. CPB can promote innovation, and 
creativity, while always remembering that public broadcasting belongs 
to the American people.
    I would consider it an honor to serve on this distinguished board 
and to have the opportunity to bring a wide range of ideas to public 
broadcasting.
    Thank you, and I will be happy to answer any questions you may 
have.
                                 ______
                                 
                      A. BIOGRAPHICAL INFORMATION

    1. Name: (Include any former names or nicknames used.)

        Gay Hart Gaines.
        Jacqueline Gay Hart.
        Mrs. Stanley Noyes Gaines.

    2. Position to which nominated: Board of Directors for the 
Corporation for Public Broadcasting.
    3. Date of nomination: Monday, November 17, 2003.
    4. Address: (List current place of residence and office addresses:) 
Information not released to the public.
    5. Date and place of birth: February 11, 1938; Toronto, Ontario, 
Canada.
    6. Marital status: (Include maiden name of wife or husband's name:) 
Married; Stanley Noyes Gaines.
    7. Names and ages of children: (Include stepchildren and children 
from previous marriages.)

        Stanley Noyes Gaines, Jr. (43),
        Ralph Hart Gaines (42),
        Jacqueline Gaines Stitt (39),
        Laura Gaines Semler (34).

    8. Education: (List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.)

        Kent Place School--1955: High School Diploma.
        Sweet Briar College--1955-1959: B.A..
        University of Minnesota--1973 (1 year, Interior Design).

    9. Employment record: (List all jobs held since college, including 
the title or description of job, name of employer, location of work, 
and dates of employment.)

        President, Gay Hart Gaines, Inc. Interior Design, Winnetka, IL; 
        Chicago, IL--1976-1986.
        Robert Lenox Associates, Interior Design, Minneapolis, MN--
        1974-1976.
        Freelance writer, Vogue Magazine--1975-1976.
        Television Performer, Member of AFTRA and SAG, Los Angeles, 
        CA--1966-1968.

    10. Government experience: (List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above:) None.
    11. Business relationships: (List all positions held as an officer, 
director, trustee, partner, proprietor, agent, representative, or 
consultant of any corporation, company, fine, partnership, or other 
business enterprise, educational, or other institution:) President, Gay 
Hart Gaines, Inc. Interior Design--1976-1986.
    12. Memberships: (List all memberships and offices held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.)

        Historical Society of Palm Beach County, Member,
        2003-present.

        Preservation Foundation of Palm Beach County, Guardian Member,
        2003-present.

        National Trust for Historic Preservation, Member,
        2003-present.

        National Constitution Center, Member,
        2003-present.

        Jacob's Pillow Dance, Ted Shawn Circle Member,
        2003-present.

        Henry Morrison Flagler Museum, Palm Beach, FL, Member,
        2001-present.

        Mount Vernon Ladies' Association, (MVLA), Vice Regent for 
        Florida,
        2000-present.

        Norton Art Gallery, Palm Beach, FL, Member,
        2000-present.

        American Enterprise Institute, Member,
        1999-present.

        Hudson Institute, Board Member,
        1998-2002.

        Library of Congress, James Madison Council Member,
        1996-present.

        Best Friends Foundation, Board Member,
        1995-2000.

        Heritage Foundation, Member,
        1994-present.

        Empower America, Member,
        1994-1998.

        Palm Beach Civic Association, Member,
        1992.

        Juvenile Diabetes Foundation, Palm Beach Chapter, Board Member,
        1991-1997.

        Juvenile Diabetes Foundation, Palm Beach Chapter, Member,
        1991-present.

        Juvenile Diabetes Foundation, Palm Beach Chapter, President,
        1991-1994.

        National Review Institute, Chairman,
        1991-1997.

        Palm Beach Society of The Four Arts, Member,
        1991-present.

        McCarter Theater, Princeton, NJ, Trustee; Co-Chairman, 
        Corporate Giving
        1986-1990.

        New York City Ballet, Member International Board,
        1985-1990.

        Auxiliary Board of Art Institute of Chicago, Trustee, (1980-
        1985); Treasurer, 1981-1982.

        Juvenile Diabetes Foundation, Chicago Chapter, Board Member,
        1978-1982.

        The Guthrie Theater, Minneapolis, MN, Trustee,
        1974-1976.

        American Diabetes Association, Minneapolis, MN, Board Member,
        1974-1976.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.

        President, Palm Beach Republican Club, 2002-present.
        Board Member, Palm Beach Republican Club, 2001-present.
        Palm Beach Town Council Candidate, 1991.
        Republican County Committee Person, Mercer County, NJ, 1986-
        1988.

    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 10 
years.

        Palm Beach Republican Club, Member/President, 2002-present.
        Republican Club of the Palm Beaches Federated, Member.
        Palm Beach Civic Association, Member.
        Palm Beach County Council of Presidents, Member.
        Palm Beach County of Trustees, Member.
        Republican Party of Palm Beach County, Member.
        Republican Party of Florida, Member.
        RNC, Member.
        National Republican Congressional Committee, Member.
        National Republican Senatorial Committee, Member.
        GOPAC, Charter Member/Chairman, 1993-1997.

    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years.

        Abraham for Senate.
        Ashcroft 2000.
        Jeff Atwater for Senate.
        Bailey for Congress Committee.
        Baker for Congress.
        Molly Bordonaro for Congress.
        Bush-Cheney 2004, Inc.
        Bush for President, Inc.
        Tom Campbell for Congress.
        Shelley Moore Capito for Congress.
        Dick Chrysler for Congress.
        Norm Coleman for U.S. Senate.
        Ander Crenshaw for Governor.
        Elizabeth Dole Committee, Inc.
        John Dowless Campaign.
        Dyson for Congress.
        Ernie Fletcher for Governor.
        Friends of Mark Foley for Congress.
        Forbes 2000 Inc.
        Forbes for President Committee. Inc.
        Franks for Congress.
        Bob Franks for U.S. Senate, Inc.
        Gill for Congress Committee.
        Friends of Newt Gingrich.
        Friends of Giuliani Exploratory Committee.
        Friends of Dylan Glenn.
        Fran Hancock for State Committeewoman.
        Friends of Katherine Harris.
        Heineman for Congress.
        Heintz for Congress.
        Pete Hoekstera for Congress.
        Nancy Hollister for Congress.
        Lisa Hughes for Congress.
        Alan Keyes 2000 Inc.
        Mark Kirk for Congress.
        John Kyl for Senate.
        Lazio 2000, Inc.
        Jean Leising for Congress.
        Fred Levering for Congress.
        Ron Lewis for Congress Committee.
        Martini for Congress.
        Mary McCarty for Palm Beach County Commissioner.
        Bill McCollum for U.S. Senate.
        Mitch McConnell for Senate.
        McKibben for Congress.
        Sharon Merchant for Florida Senate.
        Guy Milner for U.S. Senate.
        Citizens for Joseph Morris.
        Munster for Congress.
        Jim Nalepa for Congress.
        George Nethercutt for Congress.
        Bob Neumann for Palm Beach County Sheriff.
        Neumann for Congress.
        Committee to Elect Megan O'Neill.
        Pataki for Governor.
        Families for Pirozzi.
        Deborah Pryce for Congress.
        Quayle 2000, Inc.
        Bill Randall for Congress.
        New Mexicans for Bill Redmond.
        Tom Reynolds.
        Mitt Romney for U.S. Senate Committee, Inc.
        John Sununu for Senate.
        William Roth Senate Committee.
        Mark Sanford for Congress.
        Brett Schundler for Mayor.
        Schundler for Governor.
        John Shadegg for Congress.
        Friends of Clay Shaw.
        Bill Simon for Governor.
        Sutton for Congress.
        Talent for Governor.
        Terrell for Senate.
        Fred Thompson for Senate.
        John Thune for South Dakota.
        Pat Toomey.
        Kevin Vigilante for Congress.
        Watts for Congress.
        Daniel Webster for U.S. Senate.
        Friends for Rick White.
        Rick Wild for Congress Committee.
        Heather Wilson for Congress.
        Phil Wyrick.
        Dick Zimmer for Congress.
        21st Century Freedom PAC Federal.
        Anti-Tax Political Action Committee.
        GOPAC Incorporated.
        New Jersey Republican State Committee.
        National Republican Senatorial Committee.
        National Republican Congressional Committee.
        Republican National Committee.
        Republican National State Elections Committee.
        Republican Party of Florida.
        Republican Party of Palm Beach County.
        Palm Beach Republican Club.

        I have contributed to multiple candidates who have won or loss 
        over the last ten years. We moved on October 6th, 2003 and I 
        cannot find all my records, which may be in storage. To the 
        best of my memory, the above information is accurate. There may 
        have been contributions to some additional candidates.

        14. Honors and awards: (List all scholarships, fellowships, 
        honorary degrees, honorary society memberships, military 
        medals, and any other special recognitions for outstanding 
        service or achievements:) Distinguished Woman of the Year from 
        Northwood University
    15. Published writings: (List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written:) 2 Medical articles for Vogue Magazine 1 Fashion article for 
Vogue Magazine.
    16. Speeches: Provide the Committee with two copies of any formal 
speeches you have delivered during the last 5 years, which you have 
copies of on topics relevant to the position for which you have been 
nominated: N/A.
    17. Selection:
    (a) Do you know why you were selected for the position to which you 
have been nominated by the President?
    I do not know the precise circumstances of how I was specifically 
chosen. I have extensive experience in public policy and am a staunch 
supporter of President, George W. Bush. I believe that I am qualified 
to be on the Board, and am thrilled to have the opportunity to serve 
the President.

    (b) What in your background or employment experience do you believe 
affirmatively qualifies you for this particular appointment?
    I have been involved in, and an advocate for education and 
enrichment programs in the field of arts and education for many years 
while serving on many boards: The Guthrie Theater, Minneapolis, MN, The 
Auxiliary Board of the Art Institute of Chicago, IL, McCarter Theater, 
Princeton, NJ, and presently on the board of Mount Vernon Ladies' 
Association, Mount Vernon, VA.
    As a mother, I volunteered in all my children's schools when they 
were growing up. I helped faculty whenever necessary in leading class 
trips to museums, theaters, concert halls, fire stations, police 
stations and other government facilities.
    I support the Palm Beach Historical Society and Palm Beach Post's 
outreach to teach Florida History to elementary school children in Palm 
Beach County. I raised $500,000 to enable qualified Florida educators 
to participate in the George Washington Teachers Institute, a 
residential study seminar that explores the character of Washington and 
his impact on American History, every year in perpetuity. The weeklong 
program engages teachers in learning about Washington through lectures 
by well-known historians, individual research, group projects, and 
interactive learning exercises. By residing at Mount Vernon, teachers 
become truly immersed in the 18th century world of our Nation's First 
President.
    I also raised the necessary funds to provide every fourth grade 
public school student in Florida with a George Washington biography 
lesson, which accurately teaches about the life of our First President, 
and has been distributed in the last two years.

                   B. FUTURE EMPLOYMENT RELATIONSHIPS

    1. Will you sever all connections with your present employers, 
business firms, business associations, or business organizations if you 
arc confirmed by the Senate? Not applicable-appointment is for 60-day 
Board position.
    2. Do you have any plans, commitments, or agreements to pursue 
outside employment, with or without compensation, during your service 
with the government? If so, explain. Not applicable-appointment is for 
60-day Board position.
    3. Do you have any plans, commitments, or agreements after 
completing government service to resume employment, affiliation, or 
practice with your previous employers, business firms, associations, or 
organizations? Not applicable-appointment is for 60-day Board position.
    4. Has anybody made a commitment to employ your services in any 
capacity after you leave government service? Not applicable-appointment 
is for 60-day Board position.
    5. If confirmed, do you expect to serve out your full term or until 
the next Presidential election, whichever is applicable? Yes.

                   C. POTENTIAL CONFLICTS OF INTEREST

    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers: None.
    2. Indicate any investments, obligations, liabilities, or other 
relationships, which could involve potential conflicts of interest in 
the position to which you have been nominated: None.
    3. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years. whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated? N/A.
    4. Describe any activity during the past 10 years in which you have 
engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy.
    None ``directly,'' however, ``indirectly,'' there are organizations 
to which I am a member (such as those listed in Section A, page 2, 
question 12) that do take positions on matters of public policy, i.e. 
The Heritage Foundation. I suppose one could say, I have ``indirectly'' 
influenced public policy, by my support of these organizations.
    5. Explain how you will resolve any potential conflict of interest, 
including arty that may be disclosed by your responses to the above 
items. (Please provide a copy of any trust or other agreements:) N/A.
    6. Do you agree to have written opinions provided to the Committee 
by the designated agency ethics officer of the agency to which you are 
nominated and by the Office of Government Ethics concerning potential 
conflicts of interest or any legal impediments to your serving in this 
position? Yes.

                            D. LEGAL MATTERS

    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority for violation of 
any Federal, State, county. or municipal law. regulation. or ordinance, 
other than for a minor traffic offense? No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere ) of any criminal violation other than a minor traffic 
offense? No.
    5. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination: None.

                     E. RELATIONSHIP WITH COMMITTEE

    1. Will you ensure that your board/commission complies with 
deadlines for information set by congressional committees? Yes.
    2. Will you ensure that your board/commission does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.

                  F. GENERAL QUALIFICATIONS AND VIEWS

    1. How does your previous professional experiences and education 
qualify you for the position for which you have been nominated?
    I feel my entire life's experience, having lived all over the 
United States, and been involved in community service and on boards 
everywhere I have ever been, qualifies me to be a responsible board 
member. It would be my privilege to help enable this institution to 
keep to its high ideals.
    2. Why do you wish to serve in the position for which you have been 
nominated?
    I look forward to the challenges, and to studying and learning 
everything I need to know in order to make a valuable contribution to 
the Board of Directors for the Corporation for Public Broadcasting, as 
well as to the American people. I think it is important that the Board 
follows its mission, and as a member of this Board I know we are 
ultimately accountable to the people who have elected our President, 
and to all taxpayers.
    I feel CPB is an important educational and cultural voice in 
America. I would like to be a part of strengthening and improving the 
programming, especially in the areas of culture and entertainment, and 
help hold the Institution to its highest ideals.
    3. What goals have you established for your first two years in this 
position, if confirmed?
    I need to learn. in depth, about the Corporation for Public 
Broadcasting and to be fair, honest and responsible in all my dealings.
    4. What skills do you believe you may be lacking which may be 
necessary to successfully carry out this position? What steps can be 
taken to obtain those skills?
    While I have not been involved in the legislative history, nor been 
involved specifically in the day to day workings of CPB, I believe my 
relative experience and acquired skill sets will give me the tools 
necessary to be an effective board member. I have exercised 
responsibilities in many other opportunities in my life. I am a quick 
study and have no fear of mastering what I need to know.
    5. Please discuss your philosophical views on the role of 
government. Include a discussion of when you believe the government 
should involve itself in the private sector, when society's problems 
should be left to the private sector, and what standards should be used 
to determine when a government program is no longer necessary.
    I truly believe that the role of Government is an extremely 
important one, but should be limited to functions that would be 
inappropriate for the private sector. The most important role of 
Government is to provide National Security for the American people. 
create the finest Military capability, the finest Intelligence and the 
finest State Department in the world. The capture of Saadam Hussein is 
a remarkable example of the tenacity of our military. to defeat a 
dictator who threatened our national freedom, safety and prosperity, in 
order to protect the American people.
    Our Government needs to uphold the Constitution and the rule of 
law. Americans should be assured of good Government regulation, i.e.: 
It should protect Interstate Commerce; it should uphold FDA standards 
so Americans, for example, can count on their beef at the supermarkets 
being of the safest quality; the FAA standards so that Americans know 
that a pilot in a cockpit will operate by government standards to keep 
passengers safe; uphold safety standards, so that Americans are driving 
the safest cars on the planet.
    We are a compassionate society. The role of Government is to help 
people who are truly needy, the mentally ill, physically challenged, 
the elderly and people who have a short term need for assistance. 
However, we need to get as many people as we can to help themselves, by 
putting as many people back to work as possible, creating wealth, 
acquiring property and working toward the American dream. I also 
believe in the long time American tradition of Faith Based Initiatives 
helping the needy.
    Government should bring high ideals and standards to American 
schools; no child should be left behind. In a free society, the benefit 
of the doubt belongs to the pursuit of freedom. Congress has sunset 
laws and Congress itself has regulations. All aspects of government 
should continually be reevaluated.
    I believe that the private sector provides incentives to lower 
costs because of the market dynamic. The goal of the private sector 
should be high quality, low prices and more choices through 
competition, for the American people.
    6. Describe the current mission, major programs, and major 
operational objectives of the board/commission to which you have been 
nominated.
    ``The mission of CPB is to facilitate the development of, and 
ensure universal access to, non-commercial high-quality programming and 
telecommunications services. It does this in conjunction with non-
commercial educational telecommunications licensees across America.''
    7. What do you believe to be the top three challenges facing the 
board/commission and why?
    I believe I can answer this question better when I have had 
experience on the Board. Obviously, programming needs to be of the 
highest quality, entertaining, informative, educational and competitive 
with private programming.
    8. In reference to question number six, what factors in your 
opinion have kept the board/commission from achieving its missions over 
the past several years?
    I honestly cannot answer this question because I do not have enough 
information about the inner workings of the Board, as yet.
    9. Who are the stakeholders in the work of this board/commission? 
The stakeholders are the American people.
    10. What is the proper relationship between the position to which 
you have been nominated, and the stakeholders identified in question 
number nine?
    This is a perfect example of a public/private partnership. The 
partnership is between the people, who pay taxes and in this case, 
individual donors who give-money directly to public broadcasting. They 
have a stake, and need to know that the government is holding public 
broadcasting to the highest standard.
    11. Please describe your philosophy of supervisor/employee 
relationships. Generally, what supervisory model do you follow? Have 
any employee complaints been brought against you?
    No organization can be strong without a regulating authority. You 
have to distribute responsibility as far as possible (given the 
candidates' ability) and require strict accountability.
    No employee complaints have ever been brought against me.
    12. Describe your working relationship, if any, with the Congress. 
Does your professional experience include working with committees of 
Congress? If yes, please explain.
    My professional experience does not include working with any 
committees of Congress.
    13. In the areas under the board/commission jurisdiction to which 
you have been nominated, what legislative action(s) should Congress 
consider as priorities? Please state your personal views.
    I do not have any preconceived ideas in this area, and I need to 
learn more about possible legislative actions.
    14. Please discuss your views on the appropriate relationship 
between a voting member of an independent board or commission and the 
wishes of a particular president.
    I would listen to a President's views on all the issues, but always 
exercise my own independent judgment. I would not be unduly influenced 
by a President, unless his views were consistent with mine.

    The Chairman. Thank you very much.
    Mr. Creel?

     STATEMENT OF HAROLD J. CREEL, JR., RENOMINATED TO BE 
           COMMISSIONER, FEDERAL MARITIME COMMISSION

    Mr. Creel. Thank you, Mr. Chairman.
    Mr. Chairman, Members of this Committee, I appreciate the 
opportunity to appear before you and the Committee for yet a 
third time.
    I'm joined today by my fellow commissioners, Chairman Steve 
Blust, Commissioner Rebecca Dye, and Commissioner Paul 
Anderson. Commissioner Brennan is unable to be with us today.
    I'll be brief in my remarks.
    I'm honored to have been nominated by President Bush for a 
third term as commissioner on the Federal Maritime Commission. 
If confirmed, I will strive to live up to his trust in my 
abilities.
    Over the 10-years that I have been on the Commission, I've 
witnessed a tremendous evolution in the ocean shipping 
industry. Much of the positive change--most notably, the 
passage of the Ocean Shipping Reform Act of 1998--is due to the 
leadership of this Committee. As you know, the Reform Act 
created a much more market-driven and competitive ocean 
transportation industry. I'm pleased to note that these changes 
have far exceeded everyone's expectations, even those of its 
biggest skeptics.
    As for the future, the maritime industry and the Federal 
Maritime Commission face enormous challenges. The most 
significant of these is container and port security. There is 
no foolproof answer for alleviating this threat. The best that 
we can do is to tighten the noose and reduce the opportunities 
for terrorists. And to do this, we need intelligence. What's 
being shipped? Who is shipping it? What do we know about them? 
And that's where the FMC comes in.
    Now, although the FMC is not on the front line when it 
comes to security, we are fully committed to sharing the 
information we have with front-line agencies. By sharing our 
information on ocean carriers, non-vessel-operating common 
carriers, shippers, freight-forwarders, and marine terminal 
operators, we are contributing to the web of intelligence that 
will frustrate would-be terrorists.
    Mr. Chairman, most people in this country have absolutely 
no appreciation of the importance that ocean shipping plays in 
their daily lives. Virtually everything that comes into this 
country comes, not on a plane, truck or train, but on a ship. 
If ocean shipping were to shut down by a terrorist act or by 
some other reason, international trade would come to a 
standstill.
    Finally, Mr. Chairman, as you relinquish your chairmanship 
of this Committee, I want to thank you personally for your 
leadership on the many issues that have come under your 
purview.
    And I also want to thank two men who have had a profound 
impact on my life for the last 15 years, and to whom I am most 
indebted. I want to thank Senator Hollings for teaching me the 
importance of integrity. I so admire his tenacity to stand for 
that in which he believes. Senator Breaux's craft of 
negotiation, working an issue, and finally passing legislation 
is not only admired by me, but probably is envied by most 
people in Washington. And Senator Lott, who was here earlier, I 
appreciate all of his leadership, as well, and--a champion of 
maritime issues in the U.S. Senate.
    But I want to thank these----
    The Chairman. Do you admire any Senators that are not from 
the South?
    [Laughter.]
    Mr. Creel. Correct answer: Yes, sir.
    [Laughter.]
    The Chairman. Go ahead, please.
    Mr. Creel. But I want to thank these gentlemen for being 
statesmen, for being my mentors, and for being my friends. They 
and their leadership will be missed by the U.S. Senate and the 
people of the United States.
    Mr. Chairman and Members of the Committee, I thank you, 
again, for the opportunity to appear before you today.
    Thank you.
    [The biographical information of Mr. Creel follows:]

                      A. BIOGRAPHICAL INFORMATION

    1. Name: (Include any former names or nick names used:) Harold 
Jennings Creel, Jr. (Hal).
    2. Position to which nominated: Commissioner.
    3. Date of Nomination: October 1998.
    4. Address: (List current place of residence and office addresses.)

        Residence: Information not released to the public.
        Office: 800 North Capitol Street, N.W., Suite 1000, Washington, 
        DC 20573.

    5. Date and place of birth: July 1, 1957, Florence, South Carolina.
    6. Marital status: (Include maiden name of wife or husband's name:) 
Single.
    7. Names and ages of children: (Include stepchildren and children 
from previous marriages.) None.
    8. Education: (List secondary and higher education institutions, 
dates attended, degree received and date degree granted.)

        University of South Carolina School of Law,
        Columbia, South Carolina,
        Juris Doctor, May 1982.

        Wofford College,
        Spartanburg, South Carolina,
        Bachelor of Arts Degree (Political Science), May 1979.

    9. Employment record: (List all jobs held since college, including 
the title or description of job. name of employer, location of work, 
and dates of employment.)

        Chairman, Federal Maritime Commission,
        February 1996 to present,
        Washington, DC.

        Commissioner, Federal Maritime Commission,
        October 1994 to February 1996,
        Washington, DC.

        Senior Counsel, Merchant Marine Subcommittee,
        October 1989 to October 1994,
        Commerce, Science, and Transportation Committee,
        United States Senate,
        Washington, DC.

        Attorney/Advisor, National Oceanic and Atmospheric 
        Administration (NOAA),
        October 1983 to October 1989,
        Department of Commerce,
        Washington, DC.

        Associate/Attorney, Courtenay, Forstall, Grace and Hebert,
        May 1982 to October 1983,
        New Orleans, Louisiana.

    10. Government experience: (List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above:) None.
    11. Business relationships: (List all positions held as an officer, 
director, trustee, partner, proprietor, agent, representative, or 
consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational or other institution:) President, 
Madison Place Condominium Association
    12. Memberships:(List all memberships and offices held in 
professional, fraternal, scholarly, civic, business, charitable and 
other organizations:) Louisiana State Bar Association
    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate:) None.

    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 10 
years: None.

    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years.

        1994 Clinton Gore $500.
        1996 Re-elect President Clinton $1000.
        1998 Re-elect Hollings $700.
        1998 Re-elect Breaux $200.

    14. Honors and awards: (List all scholarships, fellowships, 
honorary degrees, honorary society memberships, military medals and any 
other special recognitions for outstanding service or achievements:) 
None.
    15. Published writings: (List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.)

        Barrier Islands: The Conflict Between Federal Programs that 
        Promote Preservation and Those that Promote Development.'' 
        South Carolina Law Review (December 1981).

    16. Speeches: (Provide the Committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of on topics relevant to the position for which you have been 
nominated.)
    Pursuant to a conversation with Virginia Pounds, I have enclosed a 
sampling of the speeches * I have given over the past five years rather 
than supply copies of each speech. Given the large number of speeches I 
have given over that time I did not wish to burden the Committee with 
excess paper. I have, however, included a list of my other speeches. * 
Of course, any of my speeches are available to the Committee should it 
so desire them.
---------------------------------------------------------------------------
    * The information referred to has been retained in Committee files.
---------------------------------------------------------------------------
    17. Selection:
    (a) Do you know why you were chosen for this nomination by the 
President?
    I believe I was chosen for this nomination and my previous 
nomination by the President because of my background and experience in 
commercial ocean shipping. Prior to coming to the Commission I was 
Counsel to the Senate Commerce Committee for the Merchant Marine 
Subcommittee (now the Subcommittee on Surface Transportation and 
Merchant Marine). I was counsel at the National Oceanic and Atmospheric 
Administration (NOAA) for six years before coming to the Senate. 
Finally, immediately after graduating from law school I was an 
associate in an admiralty defense law firm in New Orleans. Literally, 
my entire career has been spent in the field of shipping or ocean law.

    (b) What do you believe in your background or employment experience 
affirmatively qualifies you for this particular appointment? See above.

                   B. FUTURE EMPLOYMENT RELATIONSHIPS

    1. Will you sever all connections with your present employers, 
business firms, business associations or business organizations if you 
are confirmed by the Senate?
    I have no business connections other than those in my official 
capacity at the Commission.
    2. Do you have any plans, commitments or agreements to pursue 
outside employment, with or without compensation, during your service 
with the government? No.
    3. Do you have any plans, commitments or agreements after 
completing government service to resume employment, affiliation or 
practice with your previous employer, business firm, association or 
organization? No.
    4. Has anybody made a commitment to employ your services in any 
capacity after you leave government service? No.
    5. If confirmed, do you expect to serve out your full term or until 
the next Presidential election, whichever is applicable? Yes.

                   C. POTENTIAL CONFLICTS OF INTEREST

    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients or customers: None.
    2. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated: None.
    3. Describe any business relationships, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated? None.
    4. Describe any activity during the past 10 years in which you have 
engaged for the purpose of directly or indirectly influencing the 
passage, defeat or modification of any legislation or affecting the 
administration and execution of law or public policy.
    None other than in my official capacity as counsel to the Senate 
Commerce Committee and as a Commissioner on the Federal Maritime 
Commission.
    5. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items. (Please provide a copy of any trust or other agreements:) I have 
no conflicts.
    6. Do you agree to have written opinions provided to the Committee 
by the designated agency ethics officer of the agency to which you are 
nominated and by the Office of Government Ethics concerning potential 
conflicts of interest or any legal impediments to your serving in this 
position? Yes.

                            D. LEGAL MATTERS

    1. Have you ever been disciplined or cited for a breach of ethics 
for unprofessional conduct by, or been the subject of a compliant to 
any court, administrative agency, professional association, 
disciplinary committee, or other professional group? No.
    2. Have you ever been investigated, arrested, charged or held by 
any Federal, State, or other law enforcement authority for violation of 
any Federal, State, county, or municipal law, regulation or ordinance, 
other than a minor traffic offense? No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in interest in an administrative agency 
proceeding or civil litigation? No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere ) of any criminal violation other than a minor traffic 
offense? No.
    5. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be considered in 
connection with your nomination.
    I feel that my experience prior to coming to the Commission and as 
a Commissioner qualify me for this nomination. Also, I believe that my 
performance as a Commissioner and as Chairman of the Federal Maritime 
Commission warrant my nomination to the position.

                     E. RELATIONSHIP WITH COMMITTEE

    1. Will you ensure that your department/agency complies with 
deadlines set by congressional committees for information? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, to include technical experts and career employees with 
firsthand knowledge or matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.

                  F. GENERAL QUALIFICATIONS AND VIEWS

    1. Please describe how your previous professional experience and 
education qualifies you for the position for which you have been 
nominated.
    I have been a Commissioner with the Federal Maritime Commissioner 
since October 1994, and have served as Chairman of the agency since 
February 1996. In that time, I have become fully familiar with the 
various economic, commercial, and regulatory matters that affect the 
ocean shipping industry. I have established excellent relationships 
with key individuals in all sectors of the industry so as to better 
understand the important issues facing them now and in the 21st 
century. The Commission has been very successful in the recent past and 
has an excellent reputation for fair and effective oversight of U.S. 
liner shipping. My prior experience as senior counsel for the Senate 
Commerce Committee and as an attorney in a private maritime practice 
provided me with different perspectives and experiences regarding the 
industry the Commission regulates.
    2. What skills do you believe you may be lacking which may be 
necessary to successfully carry out this position? What steps can be 
taken to obtain those skills?
    I believe I could benefit from more in-depth knowledge and insight 
of the daily operations of the diverse companies that operate in U.S. 
ocean commerce, as well as the technological challenges they all face. 
I would hope to accomplish this by selected trips to the business sites 
of various regulated entities, budget permitting. I also would plan 
additional, focused meetings and discussions with appropriate industry 
officials, while being careful to avoid crossing the line that should 
be maintained between the regulator and the regulated entity.
    3. Why do you wish to serve in the position for which you have been 
nominated?
    I consider U.S. liner shipping to be an exciting industry that is 
extremely important to international commerce and the U.S. economy. 
Shipping is, after all, the means by which our international commerce 
is conducted. In fact, around 94 percent of that commerce is carried by 
ships. I believe I have been an effective and fair regulator and that I 
have a good deal to offer to ensure the continued appropriate oversight 
of this industry. I believe I can make worthwhile contributions that 
can both help to foster U.S. commerce and portray a positive image of 
the U.S. Government.
    4. What goals have you established for your first two years in this 
position, if confirmed?
    As Chairman, I directed completion of the agency's five-year 
strategic plan and its FY 1999 Annual Performance Plan, as required by 
the Government Performance and Results Act of 1993. Our initial FY 2000 
Annual Performance Plan was just forwarded to OMB for its review. Our 
four strategic goals focus on: balanced enforcement; an efficient 
regulatory process; ensuring compliance with the shipping statutes; and 
enhancing our internal capabilities by improving organizational 
abilities and managerial leadership.
    Our annual performance plan contains 21 specific performance goals. 
Certain of the more significant goals from this plan target expediting 
agency work processes, appropriately addressing clear cases of industry 
fraud, maximizing use of information technology; eliminating 
significantly anticompetitive concerted carrier activity, and 
facilitating the public's access to agency information. Specifically, 
my first goal, however, is to ensure that regulations are written to 
implement the Ocean Shipping Act Reform of 1998, should it be enacted 
this year. Additionally, I will continue to strive to ensure that 
foreign countries shipping treat U.S. carriers and entities as fairly 
as we treat their carriers and entities.
    5. Please discuss your philosophical views on the role of 
government. Include a discussion of when you believe the government 
should involve itself in the private sector, when should society's 
problems be left to the private sector, and what standards should be 
used to determine when a government program is no longer necessary.
    From a general standpoint, I believe that the role of government is 
to provide assistance and support where there is a strong consensus 
that it is required, and to do so without infringing on individual 
rights or placing unnecessary burdens on corporate operations. 
Government's involvement in the private sector is appropriate when 
industry activities clearly demonstrate a 0need for oversight or 
assistance. The private sector normally has the resources and 
creativity to address society's problems. but often requires some form 
of government oversight to ensure the necessary degree of fairness and 
efficiency. Appropriate standards for assessing the continued value of 
a government program would be costs versus benefits, the impact of 
technological advances, and the general sense of the citizenry.
    With regard to an independent regulatory agency like the FMC, the 
appropriate role would be to take the initiative to encourage statutory 
compliance and foster U.S. commerce, initiate formal action to curb 
serious malpractices and remove trade barriers imposed by foreign 
governments, and serve as an impartial arbiter of informal disputes.
    6. In your own words, please describe the agency's current 
missions, major programs, and major operational objectives.
    The FMC's mission is to ensure that implementation of our statutory 
mandates and Administration/Congressional directives is met through an 
ocean transportation system that is efficient, free from discriminatory 
abuses, and is not impeded by unduly restrictive practices by our 
maritime trading partners. I believe it is of paramount importance that 
the FMC continue to take the actions necessary to ensure that its 
regulatory and legislative initiatives produce a competitive and 
nondiscriminatory trading environment in the U.S. ocean commerce that 
is in harmony with and responsive to international shipping practices. 
The FMC's major programs include addressing restrictive foreign 
shipping practices; ensuring that statutory proscriptions against 
certain unfair or unreasonable practices do not occur; prosecuting 
violations of such proscriptions and providing a forum for resolution 
of complaint cases; requiring licensing and bonding of transportation 
intermediaries; receiving and reviewing rate information in tariffs and 
service contracts; reviewing carrier agreements for compliance with 
statutory anticompetitive guidelines; and certification of financial 
responsibility of passenger vessel operators. Our operational 
objectives are to carry out our statutory mission as efficiently as 
possible, balancing the need to ensure a competitive, nondiscriminatory 
shipping environment with a minimum of regulatory intrusion. Our 
overall objective is to achieve compliance with shipping laws and 
ensure equitable trading conditions.
    7. In reference to question number six, what forces are likely to 
result in changes to the mission of this agency over the coming five 
years.
    The major force which will change the agency's mission is likely to 
be new shipping legislation, the Ocean Shipping Reform Act of 1998, 
which, if enacted, will become effective on May 1, 1999. While the 
overall policy objectives of the newly enacted law are essentially the 
same as our current statute, the new statute somewhat minimizes or 
alters regulatory requirements, while maintaining the agency's 
essential responsibilities. The biggest changes will be in overseeing 
privately maintained tariff publication systems, rather than providing 
a uniform system for filing with the agency, and in enforcing the 
proscriptions against unreasonable and unfair shipping practices in an 
environment of greater confidentiality and less transparency. Another 
change which may affect our mission is the extent to which ocean 
carriers use the legislation to effect new and varying operating 
arrangements.
    8. In further reference to question number six, what are the likely 
outside forces which may prevent the agency from accomplishing its 
mission? What do you believe to be the top three challenges facing the 
board/commission and why?
    I don't expect any outside forces to prevent the agency from 
accomplishing its missions. External factors will change only the 
nature and focus of our missions. The top challenges facing our agency 
would be (1) to carry out our missions in an environment of decreased 
funding and resources; (2) to adapt to technological and operational 
changes in the industry (for example, keeping up with new varieties of 
concerted carrier arrangements); and (3) to be vigilant and responsive 
as market forces and changing economies require the agency to shift its 
focus and resources toward related issues and controversies (for 
example, the Asian financial crisis has created imbalances in supply 
and demand for cargo space, which has in turn created pricing and space 
allocation controversies in the Far East trades).
    9. In further reference to question number six, what factors in 
your opinion have kept the board/commission from achieving its missions 
over the past several years?
    Nothing has kept the Commission from carrying out its missions in 
the past several years. Our shrinking resources, however, have kept us 
from operating as efficiently and effectively as we might have. For 
example, we were forced to close our district offices and terminate the 
services of most of our field investigators. We adapted by keeping one 
individual in five different regions of the country. Through computer 
technology they have been able to maintain a Commission presence in the 
field thereby enabling us to continue liaison and investigative 
activities. While this hasn't prevented us from performing our 
responsibilities, our diminished presence and investigatory activity 
seem to have encouraged increased attempts at industry malpractices.
    10. Who are the stakeholders in the work of this agency?
    The stakeholders of the agency are the shipping companies, ports 
and marine terminal operators and their employees, the importers and 
exporters who rely on their services, the ocean freight forwarders and 
transportation intermediaries, the passenger vessel operators and their 
customers, and in a broader sense, the ultimate U.S. consumer.
    11. What is the proper relationship between your position, if 
confirmed, and the stakeholders identified in question number ten.
    I view our relationship as multi-faceted. As a regulator, I see my 
role as ensuring that the stakeholders are aware of the governing 
statutes and regulations and to encourage full compliance. Compliance, 
not enforcement, is our primary objective. We must also be receptive to 
industry complaints and suggestions about our regulatory system and how 
it can be better administered. Because the various stakeholders often 
have essentially competing interests, and because the agency serves as 
a forum for complaints brought by those stakeholders against each 
other, it is also imperative that a Commissioner not display favoritism 
among the maritime sectors. It must be borne in mind that the FMC is a 
regulatory agency; it was purposely separated from the Maritime 
Administration, which is charged with promotional responsibilities, in 
order to keep those regulatory and promotional functions discrete.
    12. Please describe your philosophy of supervisor/employee 
relationships. Generally, what supervisory model do you follow? Have 
any employee complaints been brought against you?
    I view the supervisory/employee relationship as a partnership. 
While clear lines of authority must be established, employees must be 
free to use the full range of their skills, knowledge and experience to 
help an organization achieve its established goals and objectives. I 
believe strongly in participative management. My preferred model is to 
frame the general approach or specific issues involved and explain my 
views on how they should be addressed. I then solicit and encourage 
subordinates to offer their views and ideas for discussion and 
consideration. I then believe it appropriate for me, the supervisor, to 
determine final action and make ultimate decisions.
    I have had no employee complaints brought against me.
    13. Describe your working relationship, if any, with the Congress. 
Does your professional experience including working with committees of 
Congress? If yes, please describe.
    I have interacted regularly with our oversight and appropriation 
committees, as well as numerous individual members and their staffs, 
since becoming a Commissioner, and particularly in my almost three 
years as Chairman. I believe I have an excellent working relationship 
in all respects with the various staffers and members with whom I deal. 
This relationship is based on mutual respect and the knowledge and 
experience I have gained over the years. My relationships also benefit 
from the six years I served as a Committee staffer, particularly my 
time in service as senior counsel to the Senate Commerce Committee.
    14. Please explain how you will work with this Committee and other 
stakeholders to ensure that regulations issued by your board/commission 
comply with the spirit of the laws passed by Congress.
    I have a close working relationship with Committee staff, and we 
have worked well together in the efforts to reform the shipping 
statutes. We have also strongly encouraged stakeholders to have an 
active voice in contributing to our rulemaking processes. For example, 
we initiated a Notice of Inquiry to solicit views on the agency's 
responsibilities on tariff publication systems. I intend to continue to 
cooperate with the Committee and to forge a close working relationship 
with the industry.
    15. In the areas under the board/commission jurisdiction, what 
legislative action(s) should Congress consider as priorities? Please 
state your personal views.
    (a) assessment of the impact of the Ocean Shipping Reform Act of 
1998 (``OSRA'')and possible further changes; (b) appropriate funding 
levels for the FMC to carry out its statutory obligations; and (c) 
revision of passenger vessel statutory requirements dealing with 
financial responsibility for nonperformance or injury or death.
    My personal views on each priority are: (a) OSRA will have 
significant impact on the maritime industry and the FMC. Assessment of 
that impact and consideration of further changes or corrections should 
be accomplished at the appropriate time; (b) The Commission has 
experienced drastic cuts in its appropriations for several years (22 
percent over the last 3 years), with no reduction of authority. S. 414 
maintains the majority of the Commission's functions and adds others. I 
believe it is time for the Commission to be fully funded so that we can 
do the job Congress and the President expect of us. I would encourage 
the Committee to support the Senate's proposed FY99 funding level for 
the Commission and whatever appropriation level the President submits 
for us for FY 2000. (c) We have written the Committee in the recent 
past detailing the specific changes we believe would be appropriate to 
ensure that the cruising public continue to receive adequate protection 
in cases of nonperformance or injury. I continue to fully endorse the 
suggestions we have put forth in that correspondence.
    16. Please discuss your views on the appropriate relationship 
between a voting member of an independent board/commission and the 
wishes of a particular president.
    As an independent regulatory agency, the Commission and its members 
must maintain absolute independence from the Executive branch. We 
maintain excellent working relationships with the Executive 
departments, such as the Departments of State and Transportation, in 
the exchange, where permissible, of information, particularly in the 
area of restrictive foreign shipping practices. We also work closely 
with the Office of Management and Budget. But the agency's 
responsibility to act on its own is absolute and cannot be compromised. 
This has not happened and will not under my chairmanship.

    The Chairman. Thank you.
    Mr. Simpson, welcome. Pull the microphone over, please.

        STATEMENT OF JAMES S. SIMPSON, NOMINEE TO BE A 
         MEMBER, ADVISORY BOARD, SAINT LAWRENCE SEAWAY 
                    DEVELOPMENT CORPORATION

    Mr. Simpson. Mr. Chairman, Committee Members, good morning. 
I am pleased and honored to appear before you today.
    I do not have prepared remarks, but would like to briefly 
state that if I am confirmed to the Saint Lawrence Seaway 
Development Corporation Advisory Board, I will do my best to 
ensure the goals and mission of the SLSDC are accomplished and 
that a safe, reliable, and cost-effective seaway is maintained 
for all of the stakeholders.
    I welcome any questions the Committee has of me. Thank you 
very much.
    The Chairman. Thank you, Mr. Simpson. Do you happen to know 
Mr. Molinari?
    Mr. Simpson. Yes, I do, very well. He's been my mentor and 
godfather--and Susan, as well.
    The Chairman. Does he still control every aspect of 
politics on Staten Island?
    [Laughter.]
    Mr. Simpson. No comment.
    [Laughter.]
    The Chairman. He's a wonderful man, and I had the privilege 
of serving with him in the House, and I know he was the--
president there, and his daughter is--it's a wonderful family, 
and----
    Mr. Simpson. Yes.
    The Chairman.--I know you're pleased with your association.
    [The biographical information of Mr. Simpson follows:]

                      A. BIOGRAPHICAL INFORMATION

    1. Name: James S. Simpson.
    2. Position to which nominated: Member of the Advisory Board of the 
Saint Lawrence Seaway Development Corporation.
    3. Date of nomination: July 22, 2004.
    4. Address:
        Residence: Information not released to the public.
        Office: 357 Targee Street, Staten Island, NY 10304.
    5. Date and place of birth: March 19, 1956 (Brooklyn, New York).
    6. Marital status: Divorced.
    7. Names and ages of children: Allison E. Simpson--Age 24, Jillian 
V. Simpson--Age 22.
    8. Education:
        St. Johns University, Bachelor of Science Magna Cum Laude, 
        Management and Economics (1979).

        Fort Hamilton High School, Brooklyn, New York (1974).

    9. Employment record: (List all jobs held since college, including 
the title or description of job, name of employer, location of work, 
and dates of employment.)

        1976-Present: Victory Worldwide Transportation Inc., 357 Targee 
        Street, Staten Island, NY:

            1990--Chairman of the Board and Chief Executive Officer.
            1980--President.
            1980--Vice President.
            1979--Sales Manager.
            1978--Salesman.
            1977--Clerk, Typist.
            1976--Driver, Local and Long Distance.

        1973-1975: American Telephone & Telegraph Company, 195 
        Broadway, New York, NY
        ``Senior level clerk''

    10. Government experience: (List any advisory, consultative, 
honorary or other part-time service or positions with Federal. State, 
or local governments, other than those listed above.)

        Workforce Investment Board (2000-2001)
         Appointed by Mayor Rudolph Giuliani to the Board of the 
        Workforce Investment Board for the City of New York in July 
        2000.

        New York State Metropolitan Transportation Authority (1995-
        Present)
         In June, 1995, Governor George E. Pataki appointed, and the 
        Senate confirmed, as a member of the Board of Directors of the 
        Metropolitan Transportation Authority. In June 1997, appointed 
        to a six-year term serving as Chairman of the Safety and 
        Security Committee, Chairman of the Real Estate and Planning 
        Committee, a member of the Finance Committee and the New York 
        City Transit Authority Committee.

        New York State Job Development Authority (1995-Present),
         Appointed by Governor Pataki as a member of the Board, which 
        provides long term loans and guarantees aid to businesses 
        relocating, expanding and improving employment opportunities in 
        the State of New York .

        New York State Financial Control Board (1993-2001)
         Appointed by the New York City Council Republican Leader as an 
        Observer.

        New York City Commission on the Redevelopment of Naval Station 
        New York (1993-1996)
         Commissioner appointed by Congresswoman Susan Molinari and 
        Mayor David Dinkins, reappointed by Mayor Giuliani,
         Chairman, Committee on Public Affairs.

    11. Business relationships: (List all positions held as an officer, 
director, trustee, partner, proprietor, agent, representative, or 
consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.)

        Victory Worldwide Transportation, Inc., Staten Island, NY 
        (CEO).
        Victory Van Lines, Inc., Staten Island, NY (CEO).
        Victory Relocation Services, Inc. Staten Island, NY (Chairman).
        J & A Movers Services Inc., Staten Island, NY (CEO).
        Victory Worldwide Transportation Inc., (NJ), Jamesburg, NJ 
        (CEO).
        Liberty View Equities, Jersey City, NJ (President).
        Staten Island Hockey, Staten Island, NY (Stockholder).
        Simco Finance Inc., Staten Island, NY (President).

    12. Memberships: (List all memberships and offices held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.)

        Richmond County Country Club,
        Member,
        (1981-Present).

        Staten Island University Hospital,
        Board of Directors,
        (1995-2001).

        The American Parkinson's Disease Association, Inc.,
        Board of Directors,
        (1994-1997).

        The College of Staten Island Foundation,
        Board of Trustees,
        (1994-1997).

        New York City Partnership/New York City Chamber of Commerce,
        (1993-2002):

          David Rockefeller Fellows Admissions Board (1997-2002)
          Member of the Board of Directors (1996-2002)
          David Rockefeller Fellows Program (1994-1995)
          Committee on Education (1994)
          Drugs Don't Work Committee (1993-1994)
          Summer Jobs Committee (1993)

        Employee Relocation Council, Washington, D.C.,
        Member,
        (1989-Present):

          The ERC examines key issues affecting the relocation industry 
        for the benefit of corporations, government and individuals.
          Industry Advisory Board, 1997-1998.
          Distinguished Service Award, 1994, Recognition of continuous 
        dedicated service and professional contributions.
          Meritorious Service Award, 1989, Professional contributions 
        to the ERC and the relocation business community.

            Designations
              Senior Certified Relocation Professional (1994).
              Certified Relocation Professional (1991).

        American Moving and Storage Association, Member,
        (1985-Present),
        At the 1993 Annual Convention, was the first recipient of the 
        Employer of the Year Award; nominated by employees for 
        leadership, professionalism and genuine concern for others.

        Tri-State Relocation Services, Inc. (1990-Present)
        Member,
        A non-profit group I founded in 1990, to encourage education 
        and professionalism among professional service providers, based 
        in the State of New York, New Jersey and Connecticut. With over 
        200 members, the group is viewed as a leading relocation 
        service organization.

        Staten Island Economic Development Corporation (1990-1996) 
        (Formally the Staten Island Partnership),

          Board of Directors,

          Chairman, Transportation Committee--As Chairman, led a task 
        force with the NYPD, the NYC Motor Vehicle Bureau and the 
        Insurance Industry to reduce auto crime on Staten Island.

          Chairman, Big Apple Circus/S.I. Youth Night and Honorary 
        Ringmaster (May, 1991). Gathered business people in New York to 
        underwrite 2,000 seats for disadvantaged youths.

          Testified at various TBTA and Port Authority hearings to 
        fight toll increases and preserve the one-way toll on the 
        Verrazano Bridge.

        Snug Harbor Cultural Center (1985-1990),
        A cultural center of Staten Island for the performing and 
        visual arts with a two million dollar operating budget and five 
        million dollar capital budget.
        Class A Director-appointment by Mayor Koch,

          Member of Architectural Review Committee.
          Member of Planning Committee.
          Vice Chairman (1989-1990).
          Treasurer (1986-1987).

        Resigned at the end of 1990 because of Chamber of Commerce 
        commitment.

        St. Vincent's Hospital (1985-1990),

          Advisory Board.
          Personnel Committee.
          Long Range Planning Committee.
          Finance Committee.
          Chairman, Bell Society (1989-1990).

        New York City Community Board #1--Member (1983-1985).

        Staten Island Chamber of Commerce (1981-1993),

          Chairman of the Board (1992-1993).
          Vice Chairman, Organizational Affairs.
          Member, Board of Directors.
          Chairman, Transportation Committee.
          Chairman, Economic Development Committee.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate: None.

    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 10 
years.

        Guy Molinari's Republican Club.
        Supported New York State and Richmond County Republican Party.

    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years.

Bush-Cheney 2004 Compliance Committee             4/28/2004    $2,000.00
Jeb Bush For Governor                                  2003     $500.00*
Keep Our Majority PAC                             10/6/2003      $500.00
Donovan For District Attorney                     8/27/2003    $5,000.00
Dennis Hassert                                     4/1/2003      $500.00
Bush-Cheney 2004                                 12/23/2003    $2,000.00
Dennis Hassert                                         2003     $500.00*
Peters for Assembly                               8/22/2002      $500.00
Mercaldo for Assembly                             8/22/2002    $1,000.00
Max Cleland For Senate                                 2002    $2,000.00
Bush-Brogan 2002                                   7/5/2001      $500.00
Friends of Pataki                                  6/7/2001    $5,000.00
Arkansans for Rockefeller                              2001      $250.00
Rick Lazio for Senate                             7/18/2000    $1,000.00
American Moving and Storage PAC                   5/22/2000    $1,000.00
Staten Island Center Independents                 4/30/2000    $2,000.00
Richmond Republican Party                         4/30/2000    $1,500.00
Max Cleland For Senate                            2/11/2000    $2,000.00
Bush For President                                     2000   $2,000.00*
McCain 2000 Inc.                                  12/7/1999    $1,000.00
American Moving and Storage PAC                   8/23/1999   $2,000.00*
Rudolph Giuliani                                  6/10/1999    $1,000.00
Friends of Giuliani Exploratory Committee          6/3/1999   $1,000.00*
Friends of Giuliani Exploratory Committee         4/23/1999    $1,000.00
Richmond County Political Pac                      5/5/1998    $1.000.00
Glen Yost for Assembly                             5/5/1998    $2,000.00
American Moving and Storage PAC                   2/16/1998    $1,000.00
Republican County Committee                        2/5/1998   $1,250.00*
Dennis Vacco for New York State Attorney               1998   $5,000.00*
Committee Reelect John Fusco                      9/15/1997      $500.00
Vito Fossella for Congress                        8/22/1997    $1,000.00
Whitman for Governor                               8/9/1997      $500.00
NYS Senate Republicans                             7/1/1997    $1,000.00
The NY Republican                                  4/1/1997    $6,000.00
Giuliani For Mayor                                     1997   $5,000.00*
Vito Fossella                                    12/10/1996    $1,000.00
Citizens for Gulotta                              12/7/1996    $2,000.00
New York Republican Campaign Committee            11/1/1996      $500.00
Fiala for Assembly                                9/13/1996    $1,000.00
Committee Reelect Susan Molinari                  8/30/1996    $1,000.00
Bill Paxon for Congress                           8/20/1996    $1,000.00
Renew America PAC                                  7/1/1996    $3,000.00
NY Salute 1996                                    6/24/1996    $2,000.00
Susan Molinari for Congress                       3/25/1996    $1,000.00
New York Delegates for Bob Dole                   2/23/1996      $500.00
Max Cleland For Senate                                 1996   $2,000.00*
Max Cleland                                       12/8/1995    $1,000.00
Al D'Amato for Senate                             12/4/1995    $2,000.00
Bob Dole                                          11/1/1995    $2,000.00
Unigroup Inc. Political Action Committee          7/28/1995    $1,000.00
Guy Molinari for District Attorney                     1995   $5,000.00*
------------------------------------------------------------------------
* Could not locate records.

    14. Honors and awards: (List all scholarships, fellowships, 
honorary degrees, honorary society memberships, military medals, and 
any other special recognitions for outstanding service or 
achievements.)

        American Red Cross Award for Philanthropy (1998) ``Staten 
        Island Chapter.''

        Congress for Italian American Organizations Man of the Year 
        Award (1997), Presented by Mayor Rudolph Giuliani.

        Johns Hopkins University, British American Project (1996-
        present), John Hopkins University School of Advanced Studies in 
        Washington and the Royal Institute of International Affairs in 
        London. The purpose of the British American Project is to 
        create personal and professional friendships which will enrich 
        the understanding of both cultures and improve the member's 
        ability to make meaningful contributions in their professional, 
        civic and international activities.

        Center for Migration Studies Greek American Award (1996).

        NYPD Honor Legion Appointed Honorary Member (1996).

        Appointed Honorary Detective of the NYPD (1996).

        Appointed Honorary Deputy Police Commissioner of the NYPD 
        (1996).

        David Rockefeller Fellowship Program (1994-1995), The David 
        Rockefeller Fellowship Program helps rising business executives 
        prepare to become active civic leaders. Through a rigorous 
        schedule of meetings, seminars and site visits during their 
        fellowship year, the Fellows are exposed to the wide range of 
        critical issues that confront New York City, from housing and 
        homelessness to education and health care, from criminal 
        justice and community development to city infrastructure and 
        budget issues, from state and Federal urban policies to 
        immigration issues.

        Staten Island Chamber of Commerce Citation of Honor (1994), 
        Development of the organization and community as Chairman.

        Ernst & Young/Nasdaq (1993), Semifinalist National Entrepreneur 
        of the Year.

        NYC Council Proclamation (1993), Awarded by John A. Fusco, 
        Member of NYC Council, for dedication and service to the 
        community.

        NYC Council Citation (1993), Awarded by Jerome O'Donovan, 
        member of NYC Council, for exemplary service to the community.

        Congress of the United States Proclamation (1993), Awarded for 
        dedication, commitment and effort on behalf of the community.

        United Activities Unlimited Honoree (1993), Awarded for 
        dedication and community service for the children of Staten 
        Island.

        NYPD Certificate of Recognition (1991), for outstanding 
        community service.

        Snug Harbor Cultural Center Resolution Award (1990), Honored 
        for being a gifted and committed corporate and civic leader who 
        shaped the Institution.

        Dewar's Profile Award (1989), Nominated by the Chamber of 
        Commerce for inspiration and leadership to the community 
        through outstanding performance in business, civic, cultural 
        and philanthropic activities.

        Businessman of the Year (1988), Recognized for ``business 
        acumen, integrity, and commitment to the community.''

        NYPD Certificate of Appreciation (1988), Awarded for 
        outstanding service to the police department and the people of 
        the City of New York.

        Merchant's Eye on Crime Award (1986), Awarded for partnering 
        the New York City Police Department and Staten Island business 
        owners to reduce crime in the Community.

        Borough President of Staten Island Outstanding Citizenship 
        Award (1985), Acknowledging Unique and Exemplary Service.

        15. Published writings: (List the titles, publishers, and dates 
        of books, articles, reports, or other published materials which 
        you have written.)

        Mobility Magazine (Official Publication of the National 
        Employee Relocation Council).

        The ABC's of the International Household Goods Transportation, 
        February 1994.

        Financial Stability: A Key Element in Carrier Selection, 
        January 1988.

        The Purchase and Administration of Household Goods Relocation 
        Services, May 1987.

        Purchasing: A Function of Relocation, July 1986.

        The Successful Office Relocation in a Nutshell, March 1985.

    16. Speeches: Provide the Committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of on topics relevant to the position for which you have been 
nominated: None.
    17. Selection:
    (a) Do you know why you were selected for the position to which you 
have been nominated by the President?
    My understanding is that I was selected because of my experience 
and background in transportation matters, including transportation 
matters affecting New York State, New Jersey and New York City.
    Serving the United States of America and our President would be an 
honor and a privilege.

    (b) What in your background or employment experience do you believe 
affirmatively qualifies you for this particular appointment?
    My experience as the CEO of a private sector company (see question 
Fl) and my background with New York State public authority 
corporations.

                   B. FUTURE EMPLOYMENT RELATIONSHIPS

    1. Will you sever all connections with your present employers, 
business firms, business associations, or business organizations if you 
are confirmed by the Senate? No.
    2. Do you have any plans, commitments, or agreements to pursue 
outside employment, with or without compensation, during your service 
with the government? If so, please explain.
    Yes, remain CEO of Victory Worldwide Transportation, Inc. and 
related companies.
    3. Do you have any plans. commitments, or agreements after 
completing government service to resume employment, affiliation, or 
practice with your previous employers, business firms, associations, or 
organizations? No.
    4. Has anybody made a commitment to employ your services in any 
capacity after you leave government service? No.
    5. If confirmed, do you expect to serve out your full term or until 
the next Presidential election, whichever is applicable? Yes.

                   C. POTENTIAL CONFLICTS OF INTEREST

    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates. 
clients. or customers.

        Victory Worldwide Transportation, Inc. (Domestic & 
        International moving).
        Victory Van Lines, Inc. (Domestic & International moving).
        J&A Movers Services Inc. (Carpentry related services).
        Victory Relocation Services, Inc. (Office Moving).
        Simco Finance. Inc. (Loans to Victory workers).

    The above listed firms are all complementary to one another. I will 
remain as Chief Executive on a salary or dividend basis with each of 
the firms. All moving contracts with customers are awarded on a 
competitive bid basis. There are no conflicts of interest.

        Liberty View Equities (warehouse development, Jersey City, NJ).
        Victory Worldwide Transportation, Inc. of NJ (warehouse-
        Jamesburg, NJ).

    The two above listed firms are real estate investments. Victory 
Worldwide Transportation Inc. of New Jersey owns a warehouse in 
Jamesburg New Jersey which it rents to Victory Worldwide Transportation 
Inc. Liberty View Equities is a warehouse under construction that 
Victory Worldwide Transportation Inc. will also rent. I will derive a 
dividend from each company.

        Staten Island Hockey.

    A company in which I made a $125,000 investment as a stockholder. 
It operates an indoor hockey field for teenage children.
    I have no deferred compensation agreements.
    2. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated: None.
    3. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated: None.
    4. Describe any activity during the past 10 years in which you have 
engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy: None.
    5. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items. (Please provide a copy of any trust or other agreements.)
    There are no current conflicts of interest. Any potential conflicts 
of interest would be brought to the attention of the designated ethics 
officer at the SLSDC and/or the DOT.
    6. Do you agree to have written opinions provided to the Committee 
by the designated agency ethics officer of the agency to which you are 
nominated and by the Office of Government Ethics concerning potential 
conflicts of interest or any legal impediments to your serving in this 
position? Yes.

                            D. LEGAL MATTERS

    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority for violation of 
any Federal. State, county, or municipal law, regulation, or ordinance, 
other than for a minor traffic offense? No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain.
    Yes.
    James S. Simpson,
        Defendant, Matrimonial, Supreme Court, New York, NY (2003).
        Plaintiff. Eviction Proceeding of a tenant, Civil Court, Staten 
        Island, NY(2003).

    Victory Relocation Services, Inc.,

        Victory Relocation Services has been made a defendant in an 
        action brought by a former employee,Mr. James Gargano, for 
        payment of money due as a bonus. There are no claims of 
        discrimination or other torts involved.

    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? No.
    5. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination. None.

                     E. RELATIONSHIP WITH COMMITTEE

    1. Will you ensure that your board/commission complies with 
deadlines for information set by congressional committees? Yes.
    2. Will you ensure that your board/commission does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.

                  F. GENERAL QUALIFICATIONS AND VIEWS

    1. How does your previous professional experiences and education 
qualify you for the position for which you have been nominated?
    As the president of Victory Worldwide Transportation Inc., a 
domestic and international moving and storage company, the experience I 
developed, such as management, leadership, marketing and finance, has 
prepared me for challenges such as the appointment for which I have 
been nominated. For over twenty years, I have been recognized by the 
Ernst Young/NASDAQ Entrepreneur of the Year awards program as one of 
four finalists for the National Entrepreneur of the Year, and was the 
first recipient of the Employer of the Year Award by the American 
Moving & Storage Association. I also received recognition by clients 
such as Lucent Technology, AT&T, Agere Systems and others as Supplier 
of the Year for Service Excellence.
    My education and experience in the private sector provide me with 
broad experience and knowledge to work with the senior leadership of 
the SLSDC. The SLSDC, as a wholly-owned government corporation, 
operates much like a private sector company. I intend to use my 
experiences to help the agency meet its strategic, performance, and 
operational goals. Additionally, I have served Governor George Pataki 
on the Board of the New York State Metropolitan Transportation 
Authority (Chairman-Real Estate & Planning, Chairman Safety & Security, 
member of the Finance and the New York City Transportation Authority 
committees) and the New York State Job Development Authority since 
1995. These experiences have given me tremendous insight into how 
public benefit agencies and all the stakeholders function.
    2. Why do you wish to serve in the position for which you have been 
nominated?
    I have always felt public service was something all responsible 
business people should experience during the course of their careers. I 
have made public service an integral part of my life. Serving the 
United States of America and our President is an honor and a privilege. 
Serving on the SLSDC Advisory Board would allow me to maintain my job 
and gives me the opportunity to serve at the same time.
    3. What goals have you established for your first two years in this 
position, if confirmed?
    My goals are to work with the SLSDC Administrator to ensure the 
long-term reliability and competitiveness of the St. Lawrence Seaway. 
The waterway is nearly 50 years old and has seen diminishing traffic 
results in recent years. If confirmed, I intend to work with my fellow 
Advisory Board members and the agency leadership to make 
recommendations to guide the waterway for the next 50 years.
    If confirmed, I would review all financial and management reports 
of the SLSDC with a view towards increasing revenue and reducing 
operating costs and would examine the needs of the capital program to 
ensure the infrastructure remains in a state of good repair.
    As a member of the advisory board, I would review, develop and 
support the DOT's, the Administration's and the SLSDC's strategic 
goals, programs and initiatives and ensure they were implemented and 
achieved.
    4. What skills do you believe you may be lacking which may be 
necessary to successfully carry out this position? What steps can be 
taken to obtain those skills?
    I need to develop a better understanding of the intricacies 
involved in commercial navigation on the St. Lawrence Seaway System. I 
realize that the SLSDC's status as a government corporation empowers it 
with a variety of legal flexibilities and that under the terms of an 
international agreement between the United States and Canada, the SLSDC 
jointly administers the operation and maintenance of the Seaway System 
and vessel operations with its Canadian counterpart.
    Through interaction with agency staff, my fellow Board members, and 
the key stakeholders in the Great Lakes Seaway System region, I am 
confident that I would develop in-depth knowledge of the seaway and its 
operation.
    5. Please discuss your philosophical views on the role of 
government. Include a discussion of when you believe the government 
should involve itself in the private sector, when society's problems 
should be left to the private sector, and what standards should be used 
to determine when a government program is no longer necessary.
    The role of government is to provide the legal framework and 
certain basic services necessary for a successful and productive 
society and economy. By setting up a legal framework, government 
establishes rules and regulations by which we live and work. Through 
effective legislation, government can ensure the stability of society, 
maintain order and deter acts (i.e., discrimination, etc.) that are 
detrimental (socially or economically) to individuals or the larger 
community.
    Government is also necessary to maintain a viable monetary system, 
stabilize the economy when necessary, provide for a fair mechanism for 
taxation, provide economic growth, protect individual rights and secure 
the Nation from foreign (and domestic) threats to its ideals and 
sovereignty.
    There is little need for government intervention beyond the role of 
imposing broad legal limits on the exercise of individual choices and 
the use of private property as long as the social and economic benefits 
outweigh the costs.
    Government intervention is needed in the private sector when there 
are shortcomings and abuses (e.g., pollution) which force the 
government to supplement and modify its operation for the public good. 
Also, government involvement is necessary when the private sector fails 
to produce certain goods or services that can be considered public or 
social goods like a highway system or public health services.
    In our market economy, it is difficult to let the private sector 
solve society's problems without government intervention. Government 
can provide incentives to motivate the private sector in solving 
society's problems and needs to be the catalyst and ultimate authority 
in accessing and prioritizing problems and proposed solutions.
    Government programs are no longer necessary when the costs (social 
and economic) to society are greater than the benefit or when the 
private sector can provide the program at a lower overall cost.
    6. Describe the current mission, major programs, and major 
operational objectives of the board/commission to which you have been 
nominated.
    The Saint Lawrence Seaway Development Corporation's mission is to 
operate along with its Canadian counterpart a safe, reliable, cost 
effective and environmentally friendly deep draft waterway between 
Montreal and Lake Erie, creating a seamless passage from the Atlantic 
Ocean to the western end of Lake Superior.
    The SLSDC along with The St. Lawrence Seaway Management Corporation 
(Canadian) coordinates day-to-day operations, rules and regulations, 
traffic safety and management, operating dates and trade development 
programs particularly through the Great Lakes Seaway System. Recent 
initiatives have included the Canada/U.S. vessel inspection program to 
replace dual inspections, a traffic management system including an 
Automatic Identification System technology and an Internet site to 
provide users with weather reports and waiting times at all the locks.
    Like any private sector company, the SLSDC is committed to customer 
satisfaction and a management philosophy of ``continuous improvement,'' 
in the area of safety, reliability, efficiency and communications with 
its users. Additionally, with business volume down over the past 
several years the SLSDC is looking at other ways to attract new 
business and maintain its infrastructure in a state of good repair.
    7. What do you believe to be the top three challenges facing the 
board/commission and why?
    a. Increase utilization of the Seaway: Due to weak global economic 
conditions import and export business has been reduced. The SLSDC needs 
to find other sources of business to increase usage.
    b. Maintaining Infrastructure in a ``state of good repair'': As the 
system ages, it needs more and more capital expenditures to keep the 
system operating. Our country has tremendous infrastructure 
requirements and the SLSDC must compete for limited resources.
    c. Security against potential terrorist attacks of infrastructure 
and increased inspections of foreign vessels entering the Seaway: 
Following the September 11 attacks, security must become the number one 
priority because the cost of failure is too great. As a result, SLSDC 
must review its allocation of resources and priorities. As an advisory 
board member, I will work with the Administration and Congress to 
ensure sufficient operations and maintenance funding for the agency.
    8. In reference to question number six, what factors in your 
opinion have kept the board/commission from achieving its missions over 
the past several years?
    I believe the SLSDC has achieved its mission over the past several 
years. The fact that business volume is down is due to a weakened 
global economy which is beyond the control of the SLSDC. The SLSDC has 
recognized this adverse situation and has taken action, through 
business development, to reverse this trend.
    9. Who are the stakeholders in the work of this board/commission?
    The stakeholders are a diverse group, including the millions of 
citizens in Canada and the United States, who benefit from products 
produced from the seven plus billion dollars of cargo passing through 
the seaway annually, the thousands of employees of the numerous 
industries along the Great Lakes (e.g., seventy percent of the U.S. 
steel capacity) and in the Midwest. Many ports along the seaway have 
created maritime and port jobs, which have created tremendous economic 
growth in cities along the Great Lakes and have positively impacted 
tertiary sectors of the economy such as restaurants, machine shops and 
warehousing among others. Steamship lines and related suppliers have 
also benefited from the seaway.
    Also included are the communities adjacent to the seaway and their 
elected officials, environmental protection agencies on all levels, 
Congress and the Administration.
    10. What is the proper relationship between the position to which 
you have been nominated, and the stakeholders identified in question 
number nine?
    The proper relationship between an advisory board member of the 
SLSDC and the stakeholders is to have an ``open ear'' to all the 
stakeholders without prejudice and to ensure no party exerts undue 
influence or receives preferential treatment. Further, to ensure board 
members do not use their position for personal gain and to operate with 
the highest degree of moral and professional ethics.
    11. Please describe your philosophy of supervisor/employee 
relationships. Generally, what supervisory model do you follow? Have 
any employee complaints been brought against you?
    I have always operated in the supervisor/employee role in a 
participatory style of management. Specifically, having the employee 
participate and ``buy into'' the decision of what, who, when and how a 
project or task is to be achieved. This allows the employee to develop 
a sense of ownership of the action item. Once that is accomplished, 
follow up and success of the outcome is expected.
    My style can also be considered as paternal as I have tried to 
manage as a ``family business model'' with concern for my employees' 
personal and job related problems.
    In my role as an advisory board member of the SLSDC, I do not view 
my position as a manager/supervisor but as a policy advisor. I believe 
as a board member it is important not to become involved in the 
management of staff. No employee complaints have been brought against 
me.
    12. Describe your working relationship, if any, with the Congress. 
Does your professional experience include working with committees of 
Congress? None.
    13. In the areas under the board/commission jurisdiction to which 
you have been nominated, what legislative action(s) should Congress 
consider as priorities? Please state your personal views.
    Following the September 11th attacks, security against potential 
terrorist attacks of infrastructure of the seaway and increased funding 
where necessary. As the seaway ages, adequate capital funding is 
required to maintain a state of good repair to ensure reliable usage.
    14. Please discuss your views on the appropriate relationship 
between a voting member of an independent board or commission and the 
wishes of a particular President.
    An appointee of a particular president should share many of the 
same, or appreciate philosophical views of government, defense, fiscal 
and monetary policy, the economy and other ``macro'' matters as that of 
the President making the appointment. Once the appointment is made, the 
President should allow that individual to freely make decisions that 
the appointee deems in the best public interest for that agency.

    The Chairman. Mr. Adelstein, as you know, this Committee 
passed, and the Senate passed, indecency legislation that 
increased the fines, made it reviewable. In other words, it was 
basically a reaction to some of the things that have been on 
broadcast television, right? You are aware of that legislation. 
It didn't go through the Senate. It was on a----
    Oh, is Susan Molinari here today? Oh, Susan, welcome. Thank 
you. It's wonderful to see you.
    And it was attached for a while to the Defense 
authorization bill, and then dropped in conference. My point 
is, it's not--the issue is not going away.
    Now, explain to me this. ABC network broadcast the film 
Saving Private Ryan. If there's two films in recent years that 
I think every mature American should see, it's Schindler's List 
and Saving Private Ryan. I'm sure there are others, but those 
two are aspects of history that every American should be aware 
of so that we never have to repeat them, or there never be a 
repetition.
    So Saving Private Ryan, which I happen to have introduced 
and said, ``I want to warn everyone, this is for mature 
audiences,'' should not be shown to children, but is one of the 
most important lessons of history because of the incredible 
sacrifice made in American blood on the beach at Normandy.
    So was it 15 ABC affiliates?--or 20--I've forgotten now--
decided not to broadcast that film because they were worried 
about, in their words, ``problems with the FCC.'' OK? Including 
the ABC affiliate in Phoenix, Arizona, where I live. So 
citizens of my valley that I reside in didn't get to watch 
Saving Private Ryan.
    So prior to Monday Night Football last week, we see this 
disgraceful performance, which one of the NFL coaches has said, 
in his view, anyway, is racist in nature.
    What's going on here, Mr. Adelstein? What in the world is 
going on?
    Mr. Adelstein. Well, first, I completely agree with you 
about the value of Saving Private Ryan as an artistic 
statement. I come from a family that's had three generations of 
United States Army officers. I recognize the sacrifice that 
Americans have made. I've never seen a film that more 
completely captures that, that has the artistic merit and 
deserves the full First Amendment----
    The Chairman. I wasn't asking for a movie review.
    Mr. Adelstein. What I'm saying is, it shows how complicated 
this issue is. We have received thousands--my e-mail's been 
plugged up, on both sides. I've had thousands of complaints 
about the use of certain words in that movie, and I've had 
thousands of people send me e-mails saying that it should not 
be fined because it was so important as a film. We're going to 
have complaints coming in on that.
    But I think it's important to note that twice the Bureau at 
the FCC has approved this exact same film. It's not gratuitous, 
it's not meant to shock. Even the Parents Television Council, 
which has ridden so hard on this issue, has said that it is 
completely appropriate----
    The Chairman. Yes, Mr. Brent Bozelle commented on it, 
right?
    Mr. Adelstein. He did.
    The Chairman. Yes.
    Mr. Adelstein. He did. And so, at the same time, there's 
another group that's come out and said that it's inappropriate 
to put that on.
    The Chairman. Well, have you heard anything from these ABC 
affiliates--that thought that it would be wrong to broadcast 
Saving Private Ryan--about the broadcast of that ridiculous 
promo before Monday Night Football?
    Mr. Adelstein. Well, I have spoken recently to some people 
who represent ABC affiliates, and they made the decision not to 
air it. And it was their decision to do so, and they have the 
right do that--under our rules, the right to reject a rule if 
they feel it's inappropriate. And it's really not my place, as 
an FCC commissioner, to say whether or not they do preempt on 
that basis. My only job is to determine if something is 
indecent, as charged by this Committee.
    And I have said that context matters. I was very careful in 
what we called the Bono case, where there was the gratuitous 
use of the F-word, to say that this wasn't a per se violation. 
And we put that in the order, that it was a contextual 
decision, that cultural artistic merit are to be taken into 
account.
    The Chairman. Well, I'm terribly uncomfortable with this 
issue, because I don't believe that I or, frankly, most Members 
of the Senate are able to judge what's suitable fare and what 
isn't suitable fare. And we all have our particular backgrounds 
and ideas and views on things. But it just seems to me the 
height of hypocrisy for, on the one hand, not show Saving 
Private Ryan because it might be shocking to people, and then 
this thing that was shown on Monday Night Football.
    It seems to me that the lesson here is that--and maybe 
there's no answer to it, but it seems to me that we've got to 
look at this whole issue in--examine it more carefully and 
maybe come to some decisions about standards. Maybe it's what 
the Supreme Court said about child pornography, ``You know it 
when you see it.'' I don't know. But it seems to me that the 
FCC is going to have to be more involved in this issue, as 
unpleasant as it may be, or others will be making those 
decisions. I think the FCC is probably most qualified to make 
those decisions, and I think all of us would agree, in light of 
the scenario that we just talked about, that we're not in a 
satisfactory position. Would you agree with that?
    Mr. Adelstein. I would agree with that. I'm very concerned 
about the chilling effect that we saw, in terms of the ABC 
affiliates making that decision based on what they weren't 
certain about, and I think we should work closely with this 
Committee. I'd like to work with you, if confirmed, to try to 
make sure that people are aware of what the regulations are.
    The Chairman. Are you worried about media concentration?
    Mr. Adelstein. I'm very worried about media concentration. 
I think that we have to be careful to ensure that there 
continues to be a multiplicity of voices in this country heard 
over the airwaves, and I think we need to proceed carefully. 
The Third Circuit Court of Appeals has ruled that the FCC 
decision made on this issue that would have allowed further 
media consolidation was basically completely inconsistent, 
internally, and needed to be put on ice. And I agreed with that 
decision. We need to implement that decision and visit this 
again.
    And I think next time we visit it, we need to be more 
inclusive, we need to work more closely with this Committee, 
and with committees in the other body. We need to work more 
closely with the public, and hold hearings about it.
    A number of Members of this body asked us to wait and put 
out to the public what we did before we did it. The chairman 
and the majority decided not to do that. I think it was a 
mistake, that they would have been well-served to have had that 
decision further vetted. And this time around, I hope that we 
will do that, I hope that we will work closely with the 
American people, with Members of Congress, with this Committee, 
to ensure that we get it right this time and that we protect 
the public interest.
    The Chairman. This summer, AT&T announced that they would 
cease marketing its phone services to residents in seven states 
due to the dispute over the fees carriers like AT&T pay to the 
Bell phone companies for the use of their networks. On the flip 
side, several new phone-service providers emerged over the past 
year, most being Voice over Internet Protocol, known as VoIP 
providers. Reflecting on these events, what do you believe is 
the current state of the telecommunications industry, 
particularly the wireline business? And what's your appropriate 
role?
    Mr. Adelstein. Well, there's real uncertainty out there as 
a result of some of the court decisions. I mean, our job is to 
implement the Act. It says to unbundle when we need to do so. 
Now we've gotten D.C. Circuit Court guidance on that. I think 
we need to move quickly to come up with rules. I'm hopeful that 
we can actually do that, to establish final rules at the 
upcoming December meeting of the Commission. And I hope that we 
can work together.
    One thing that we learned on this and other decision that 
we made--the one I previously referenced, on media ownership--
is that we're most vulnerable, and it leads to the most 
uncertainty, when we don't act as a Commission by consensus. We 
have, on so many occasions, done so, and I am hopeful that, 
again, this time in December, we can all come together 
unanimously to establish rules that everybody will know what 
they are, going forward, so that people know what they can do 
in the marketplace, and that we'll do so unanimously.
    The Chairman. Thank you.
    Mr. Creel, I just want to mention, there's no doubt in my 
mind that your agency has now assumed far, far greater 
importance than before 9/11. We probably have not paid as much 
attention to maritime security as we probably should have, and 
that may be the fault of this Committee, and also the 
Administration. But I want to assure you that there are many of 
us that are aware of the vulnerability that this Nation has, as 
far as port security is concerned, and that's a lot to do with 
your business. And I know you realize that, and we look forward 
to working with you in the future.
    Mr. Creel. Thank you, sir.
    The Chairman. Senator Nelson?

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Thank you, Mr. Chairman. And thank you to 
all of you for your public service.
    Mr. Chairman, one of our jobs here is to give oversight to 
the various agencies. And your Committee, with no lack of 
passion, has given that oversight, especially to agencies such 
as the Federal Communications Commission. And I just want to 
echo your intensity and your passion about the need for the FCC 
to get in and start issuing some rules of decency. The Chairman 
said it very well, but we have this thing completely upside-
down, what has happened within the last week. This Committee 
has also tried to give the FCC some oversight and direction 
with regard to media ownership. The Chairman has just asked you 
about that.
    I would ask you, specifically, now that the Circuit Court 
of Appeal has ruled, do you anticipate--and you're in the 
minority, Mr. Adelstein, I understand that--the majority of 
three there, do you anticipate that they are going to flesh out 
that Court of Appeals ruling and follow the ruling of the 
Court?
    Mr. Adelstein. Well, it's unclear to me whether or not 
there will be a decision made to appeal that to the Supreme 
Court. I don't feel there's a lot of grounds to appeal the 
decision. I think it would be better for everybody involved--
and, I understand, even the industry, the media industry that's 
affected by this, believe that it might be preferable to go 
ahead and try to hash through that and to comply with the Third 
Circuit Court of Appeals ruling.
    So I think we should move forward. I don't know whether 
they will do that. I think we need to hold a lot of hearings 
publicly. I think we need to do more studies, do a lot more 
research before we act this time. And I'm hopeful that we will 
do that.
    I think we should start immediately. I'm planning on, if 
confirmed, heading out very soon to talk to the American people 
yet again about this issue and to see what kind of input we can 
get from them, from experts from around the country. We've 
really learned a lot from that process, and I think the 
Commission, as a whole, should go out and speak to the American 
people. Because, after all, the standard that was given to us 
by Congress was a public-interest standard, so I think it's 
extremely important that we hear from the public about their 
views about the media.
    Senator Nelson. And I would encourage the FCC, in their 
deliberations, to remember that it was not only the sentiment 
expressed by this Committee, chaired by our great leader from 
Arizona, but it was also the entire Senate, in an overwhelming 
vote, that gave you direction on this issue of media ownership 
and then the tangential issue of the cross-ownership.
    Let me ask you, what role do you see in wireless broadband 
for the future? Are we moving quickly enough with the digital 
transition to free up spectrum? And we have an additional 
incentive for freeing up spectrum; it's called the 9/11 
Commission Report.
    Mr. Adelstein. I think that wireless broadband is really 
one of the most promising areas for competition in the field of 
broadband, one that the FCC has to do everything it possibly 
can to promote. As a matter of fact, I think we have done a 
lot, just in the time that I've been there. Working together, 
as I mentioned in my opening statement, on a bipartisan basis, 
we've really fundamentally changed the way that spectrum 
management is done in this country. We've made a lot more 
spectrum available for the purpose of broadband, both for 3G 
broadband--we made 90 megahertz of spectrum available in the 3G 
band. We've made two more gigahertz available, of spectrum, for 
CMRS, taken from MSS. We've come up with 70, 80, 90 gigahertz 
fiber-like connections. You can get fiber-like connections for 
short distances, over wireless spectrum. And, of course, 
there's the spectrum that is now being employed by broadcasters 
that we hope to speed the transition in order to make that 
available for wireless broadband purposes, as well. I think 
that that's the new pipe into the home. And for all the talk 
about intermodal competition, I think that's the real frontier.
    And it's amazing the kind of technology that is developed 
in short order, both WiFi and for licensed broadband purposes. 
And as we have changed our rules and opened up the use of 
spectrum, we've seen industry respond incredibly effectively, 
and the marketplace is working.
    So we want to continue that, we want to continue to let the 
marketplace drive innovation, drive wireless broadband forward. 
And I think all Americans will be served, including those in 
rural areas.
    Senator Nelson. Thank you. Speed on.
    Mr. Adelstein. Absolutely.
    Senator Nelson. Mr. Chairman, since we have two of our 
distinguished citizens from my state here, I would want to pick 
up on Senator Lott's comments earlier that he's concerned the 
partisan and divisive nature that has gotten into this 
political discourse. And would the two of you comment on your 
views for objectivity in public broadcasting?
    Ms. Gaines. Together?
    Senator Nelson. As your--as you wish.
    Ms. Gaines. Senator, I'm really pleased that you're here, 
as our Senator from Florida, and I would like you to convey to 
Senator Lott that I actually share his concerns. And I care a 
lot about objectivity and balance.
    Since joining this board, in the very short time that I've 
been there, I have to tell you, I feel that the entire board is 
very diverse, and that they care a lot about substance and 
about objectivity. And having been on the Board for a year, 
the--if I am confirmed, I will hope that you can convey to 
Senator Lott that I will do everything I can to make him feel 
differently.
    Ms. Puig. And I also echo Mrs. Gaines' views. It is a very 
important issue to all of us in the board. And I note that the 
CPB has instituted--in the short time that I have been on the 
Board, I know that they have instituted several initiatives to 
reconcile any differences that there may be. The CPB has 
created a 1-800 number, e-mail addresses to solicit public 
feedback. We have also held a public forum, which I was able to 
partake in. And I know that, by law, the CPB is required to 
support programming that is objective and balanced, and that is 
of much importance to all of us in that board.
    And, at the same time, I know that the CPB is prohibited 
from interfering with local station operations or directly 
controlling editorial content of these radio stations. But it 
is of utmost importance to all of us, and we will continue to 
pursue this very seriously.
    Senator Nelson. I'm glad for your last comment there, 
because of my concern about media consolidation, and especially 
in public broadcasting, that there be some flexibility for 
local decisionmaking. And I want to encourage you to encourage 
objective locally oriented broadcasting.
    Thank you, Mr. Chairman.
    The Chairman. Senator Cantwell?

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Mr. Chairman.
    Mr. Adelstein, thank you for holding the March field 
hearings with Commissioner Copps, out in the Northwest, and I'm 
pleased to hear today that you are going to continue to have 
field hearings on the issue of media consolidation, or your 
comments about going out and talking to America. I assume you 
meant that you would continue to have hearings. I know that, in 
the Northwest, this is a very important issue, and I think you 
had, let's us say, a very raucous audience. In fact, I think 
that there were some members of the audience that printed your 
name, and Mr. Copps names, on signs and billboards, almost as 
if you were the rock stars they were expecting to save them on 
this issue of media consolidation. So I hope you take that 
seriously.
    And I will come back to a question about cross-ownership, 
but I wanted to ask you--obviously, in the Northwest, the issue 
of rural communication competition and the various aspects of 
how we move forward in communication competition is very 
important to our state. I think we're probably further ahead of 
most people in broadband delivery to rural communities, just 
because we have a unique situation with the Bonneville Power 
Administration and a redundant backbone broadband service there 
that many people have used. But tell me, with the cost of fixed 
wireline, and the very high cost, and the large amount that 
universal service fund is a percentage of that, covering costs 
to those current providers, how do you expect to see 
competition play out in rural communities?
    Mr. Adelstein. Well, in rural communities, of course, 
competition is--it's the last place that it goes. That's why 
universal service has been so important. Where there's not 
competition, I think that Congress envisioned, in the 
Telecommunications Act, that universal service would supply the 
proper service, comparable services at comparable rates. That's 
under real challenge now, as the fund is based on interstate 
revenues, which are diminishing. At the same time, we're 
getting increased demands on the system by new carriers that 
are entering to provide service. We need to make sure that we 
keep universal service on a stable footing.
    And it's essential, I think, for the development of 
broadband, as well. Even though it doesn't now directly fund 
broadband, our rules do allow for the network to be funded 
through universal service. And we find, in rural areas, that we 
would not have nearly the same quality of networks that are 
able to support broadband if we didn't have the kind of 
universal service support that we do have. It's not designed, I 
don't think, to promote competition; rather, it's designed to 
work where the marketplace falls short and there's no as much 
competition as there otherwise would be.
    Senator Cantwell. Well, how do you see that playing out in 
10 or 15 years, I guess? Because we are going to see changes. I 
mean, my sense is that the next Congress will spend a fair 
amount of time, particularly on this Committee, talking about 
that issue. And I guess I'm concerned that, in the short term--
I think you've been quoted as saying government should not use 
the universal service fund to fund competition for 
competition's sake.
    Mr. Adelstein. Right.
    Senator Cantwell. And yet I think the wireless solutions in 
rural communities are starting to take hold. They are certainly 
starting to take hold in the Northwest. I don't want to see 
rural communities held hostage to one high, fixed wireline 
cost, when competition of services are going to continue to 
evolve in the short term. So I'm curious as how you see that in 
the near term, and what do you think this looks like 10 or 15 
years from now?
    Mr. Adelstein. Well, in the near term, we have come up with 
a system of making sure that it's technological neutral. 
Universal service should be technologically neutral, meaning 
that wireless companies or wireline companies, anybody who's 
providing that service and truly using it to build out to their 
communities, should be approved for funding either by the FCC 
or by the states in the case of ETCs, eligible 
telecommunications carriers.
    We have made a new policy now, trying to tighten up how 
those designations are made, and I have fully supported those 
efforts, working with my colleagues, because I think it's 
important that wireless carriers, for example, be funded in 
areas where they meet these benchmarks that we've laid out, 
that they are actually using all the funds for the intended 
purpose. As Congress laid out in the act, We need to use--every 
dime of universal service has to be used by carriers for the 
purpose of providing universal service, and to make sure that 
they're serving the entire service area----
    Senator Cantwell. Do you think individual states are making 
that challenge hard for wireless solution providers?
    Mr. Adelstein. We, in the joint board--I serve on the joint 
board on universal service, with my state colleagues, and we've 
tried to provide some guidance to the states, working in 
collaboration with them on the joint board, to try to come up 
with standards that are fair and that are--even across the 
country. Courts--states do vary, in terms of the flexibility 
with which they do permit eligible telecommunication carrier 
status for new entrants. We'd like to see it more standardized. 
That's why the FCC tried to take a leadership role in the 
Virginia cellular and the Highland cellular cases, where we did 
approve funding for wireless carriers, but did so very 
specifically, in targeted ways that ensured that the funds were 
only used for the intended purpose and that they were actually 
used to provide universal service to areas that otherwise 
wouldn't have it.
    Senator Cantwell. Do you think we need to do something here 
in Congress to clarify the other terms and conditions clause 
that states sometimes interpret in various ways--to use that as 
a hammer to prevent access in competition?
    Mr. Adelstein. Well, the Congress did a very good job, I 
think, in Section 254 of the act. It gave the Commission the 
flexibility that we need to try to come up with these 
standards. Of course, the government--the Congress did delegate 
to the states, largely, their role of determining whether or 
not--particularly carriers in ETC. And so you do see some of 
the variation that you've talked about here among states.
    Senator Cantwell. So do you think some states have gone too 
far?
    Mr. Adelstein. I do, actually, think that some states would 
virtually rubberstamp some of these applications without doing 
the kind of analysis they should. Other states have been very 
careful in how they determine ETCs. So it's varied some, and I 
think it's gotten better.
    Senator Cantwell. Have some states gone too far in not 
allowing competition and making it harder for the wireless 
solution providers? Have they overstepped on what was meant by 
Congress on terms and conditions, in your opinion?
    Mr. Adelstein. I think the tendency has been to be more 
liberal than conservative on this. I think the tendency of 
states has been that they see universal service as a Federal 
fund and that it's easy for them to, sort of, say, ``Come on 
in, and we'll take more Federal funds in for the state.'' And I 
think they need to be careful, because--and they have, I think, 
stepped up and been more careful recently about this, as we've 
worked together with them on the joint board and through NARUC 
and tried to establish standards ourself at the FCC, through 
the Virginia cellular and the Highland cellular cases, to give 
some guidance to the states about how these funding decisions 
should be made. So we're at a point now where I think we've 
come up with a good framework. It's really up to the states 
whether or not they want to follow that framework, because they 
were given that flexibility by Congress.
    Senator Cantwell. I guess I'm not clear what you--whether 
you think the problem has been solved or you think you should 
just continue to give guidance or whether this body needs to 
have more discussion about this issue.
    Mr. Adelstein. I think that, given the Virginia cellular 
and the Highland cellular cases, that we've now given guidance 
to the states. The joint board's given some guidance to the 
states. The states are now implementing that, I believe, and 
our states are--have, sort of, a framework they can use. So I 
think currently the situation is somewhat stable. I am not sure 
there's a need for legislation in this area. I am not sure that 
the FCC could provide any more detailed guidance than we have 
in those cases. Although we're now reviewing and processing a 
number of ETC applications, and we are moving those forward. 
And in those cases, I'm making sure that each one adheres to 
the framework that we established in Virginia cellular. But, of 
course, most of these decisions are made at the state level, so 
it's yet to be seen whether or not the states are going to 
follow that framework or not. It's their decision.
    Senator Cantwell. Would you predict, in the next 5 years, 
that there would be a larger use of the universal service fund 
for wireless providers?
    Mr. Adelstein. It's been increasing at a rapid clip. We've 
seen a--of all the areas of universal service, the approval of 
CETCs, wireless ETCs, has been the fastest, as a percentage 
basis, growth in the fund. It's fairly small, still, as an 
overall percentage of the fund, but it's been the fastest 
increase. So it's something that we do want to watch. It's not 
something, necessarily, that we want to prevent. I mean, the 
wireless industry pays into this system far more than they get 
out. And, again, I----
    Senator Cantwell. My point, exactly.
    Mr. Adelstein. Right. And, again, you know, I think that we 
should be technologically neutral on how we allocate these 
funds, so that wireless carriers are fully eligible. At the 
same time, that also means that we need to apply the same 
strict guidelines to wireless carriers that we do to wireline 
carriers.
    Senator Cantwell. OK, thank you. I couldn't--I've taken 
more time, probably, Mr. Chairman, than 5 minutes.
    The Chairman. Go ahead.
    Senator Cantwell. But if I could, just on the cross-
ownership issue, I know people have talked about media 
consolidation, but I think we're, in the Northwest, one of the 
areas that was covered by a newspaper that is an independent 
family owned--I think it's only about 20 percent a newspaper. 
So why do you think it's critical to maintain the cross-
ownership provisions?
    Mr. Adelstein. Well, I know--I've spoken to Frank Blethen, 
from the state of Washington. I came out, as you've indicated, 
on a couple of occasions. I have found that people in 
Washington are some of the most sophisticated, aware, and 
engaged in this issue of any I've seen anywhere in the country, 
and I really have enjoyed my sojourns out to Seattle. And it 
was an enthusiastic crowd, as you said.
    The Chairman. Is that a travel advisory?
    [Laughter.]
    Mr. Adelstein. You want enthusiasm, go to Seattle.
    [Laughter.]
    Mr. Adelstein. Might get a few clouds, too, while you're at 
it.
    But it's--I don't think it's appropriate for the FCC to 
assume, automatically, that every time that a newspaper wants 
to buy, you know, a broadcast outlet that it's OK. And that's 
essentially what was done in the decision made by the FCC. In 
places where 97 percent of the American population lives, we 
said it's OK for the newspaper to buy broadcast outlets. And I 
think we need to be very careful about that. I'm not saying 
that it's always inappropriate. There may be cases where they 
can make the case. But we need to look at the actual community. 
We need to see how the public would benefit.
    I mean, if there is television outlet that's not providing 
any news at all, and the newspaper wants to come in and put 
news on that, and they're willing to make that commitment to 
the FCC and--maybe it's something we need to consider. But if 
they're going to swallow up an outlet, a broadcast outlet, 
that's doing a good job of providing news, you're losing a 
voice in the community and you're losing competition in the 
community. Instead of having two reporters chase after stories 
and try to get at what public officials are saying or what's 
happening in the community, you have just one, and you're going 
to tend to have that same story run on both. So it's something 
that we have to be extremely careful about, allowing newspapers 
to purchase broadcast outlets.
    Senator Cantwell. Thank you, Mr. Chairman.
    The Chairman. Well, there's just one other aspect of that, 
too, Mr. Adelstein. If you get very large chains of newspapers, 
for example, their tendency is to--in order to save money, is 
to use one story that applies to all, or even borrow from other 
news services. And that's an aspect of media concentration that 
I don't think we have paid as much attention to as we should 
have, as well.
    I want to congratulate all of you again. We will move your 
nominations as quickly as possible. I think that the Congress 
is probably supposed to be out either tomorrow or Saturday 
sometime, and we'll try and get it done before then.
    Thank you for your willingness to serve, and thank you for 
being here today, and we look forward to seeing again in the 
future. Thank you.
    This hearing is adjourned.
    [Whereupon, at 10:50 a.m., the hearing was adjourned.]

                                  <all>

</pre></body></html>
